<html>
<title> - IMPACT OF THE NATIONAL EDUCATION BUDGET ON IOWA SCHOOLS</title>
<body><pre>[Senate Hearing 107-334]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-334
 
        IMPACT OF THE NATIONAL EDUCATION BUDGET ON IOWA SCHOOLS
=======================================================================



                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                            SPECIAL HEARING

                   APRIL 21, 2001--CEDAR RAPIDS, IOWA
                    APRIL 21, 2001--CLEAR LAKE, IOWA
                               __________

         Printed for the use of the Committee on Appropriations











 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                        U.S. GOVERNMENT PRINTING OFFICE
72-851                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001                












                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            ERNEST F. HOLLINGS, South Carolina
LARRY CRAIG, Idaho                   DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          HARRY REID, Nevada
TED STEVENS, Alaska                  HERB KOHL, Wisconsin
MIKE DeWINE, Ohio                    PATTY MURRAY, Washington
                                     MARY L. LANDRIEU, Louisiana
                                     ROBERT C. BYRD, West Virginia
                                       (Ex officio)
                           Professional Staff
                            Bettilou Taylor
                             Mary Dietrich
                              Jim Sourwine
                        Ellen Murray (Minority)

                         Administrative Support
                             Correy Diviney
                       Carole Geagley (Minority)















                            C O N T E N T S

                              ----------                              

                           Cedar Rapids, Iowa

                                                                   Page

Opening statement of Senator Tom Harkin..........................     1
Statement of Ted Stilwill, director, Iowa Department of Education     3
    Prepared statement...........................................     6
Statement of Robert D. Koob, president, University of Northern 
  Iowa...........................................................     7
    Prepared statement...........................................    10
Statement of Lois Mulbrook, director of financial aid, Mount 
  Mercy College..................................................    16
    Prepared statement...........................................    18
Statement of Swati Dandekar, board member, Linn-Mar Community 
  School District and Iowa Association of School Boards..........    20
    Prepared statement...........................................    22
Statement of Tammy Wetjen-Kesterson, vice president, Iowa Head 
  Start
  Association....................................................    24
    Prepared statement...........................................    25
Statement of Dan Stice...........................................    33
Statement of John Hieronymus.....................................    33
Statement of Wendy Vodenhofer....................................    34
Statement of Jamie Knight........................................    35
Statement of Nancy Porter........................................    35
Statement of Mickey Dunn.........................................    36
Statement of Ron Fielder.........................................    37

                            Clear Lake, Iowa

Opening statement of Senator Tom Harkin..........................    41
Statement of Dr. David Buettner, president, North Iowa Area 
  Community College..............................................    43
    Prepared statement...........................................    46
Statement of Jolene Franken, president, Iowa State Education 
  Association....................................................    49
    Prepared statement...........................................    52
Statement of Dr. Lawrence J. McNabb, superintendent of schools, 
  Osage Community School District, Osage, Ia.....................    54
    Prepared statement...........................................    56
Statement of Sherry Brown, vice president for legislation, Iowa 
  PTA............................................................    58
    Prepared statement...........................................    59
Statement of Derrick Palmer, student.............................    61
Statement of Lynne Eckhart.......................................    67
Statement of Steve Lovik, vice president of admissions and 
  financial aid, Waldorf College.................................    69
Statement of Sally Frudden, member, Iowa State Board of Education    71
Statement of Chris Petersen, vice president, Iowa Farmers Union..    72
Statement of Tammy Poppe.........................................    74
Statement of Jessica Putnam......................................    75
Statement of Les Person..........................................    76
Statement of Lorna DiMarco.......................................    78













        IMPACT OF THE NATIONAL EDUCATION BUDGET ON IOWA SCHOOLS

                              ----------                              


                        SATURDAY, APRIL 21, 2001

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                  Cedar Rapids, IA.
    The subcommittee met at 9:05 a.m., in room 234, Cedar Hall, 
Kirkwood Community College, Cedar Rapids, IA, Senator Tom 
Harkin presiding.
    Present: Senator Harkin.

                Opening statement of Senator Tom Harkin

    Senator Harkin. The Senate Subcommittee on Labor, Health, 
Human Services, and Education, and Related Agencies will come 
to order. I would at the outset say to all of you that are 
here, and to our witnesses, that this is an official hearing of 
the Senate Appropriations Committee, more specifically a 
subcommittee with the responsibility of funding the Departments 
of Labor, the Department of Health and Human Services and the 
Department of Education, and a number of related agencies. 
Perhaps one of the most important parts of this subcommittee is 
the funding for our education programs, everything from the 
Early Start program right to Pell grants for college students 
and everything in between. And as you may have been reading, we 
have been having some budget battles on this and we continue to 
have some battles as the year rolls along. And I thought it 
would be important to bring the subcommittee, of which I am the 
ranking member, to Iowa for public hearings, to get the input 
from local educators and leaders and also from the audience. 
It's my intent that after we have the official witnesses that I 
will open up the mike to the floor for any comments or 
suggestions of anyone that is here today. I would just ask if 
you do that, if you would state your name clearly, and if it's 
a very complicated name like Smith, please spell it so the 
reporter can get it correctly.
    Having said that, we have our two interpreters here, Susan 
Terrell and Karen Gray, and in the interest of expediency, 
among other things, I will just ask, is there anyone here that 
needs interpreted services? Yes? No? I will ask the question 
one more time: Does anyone need interpreted services? If not, I 
will let the interpreters relax.
    Thank you. I will just open with a quick statement and then 
we will go to our witnesses. Our country was founded on this 
ideal--that no matter who you are, no matter where you're born, 
no matter how much money your parents have--if you're willing 
to study and learn and work hard, you can be a success. This is 
what we call the American dream. Unfortunately, it's slipping 
away because our classrooms are overcrowded, our schools are 
crumbling, and our students don't have the educational 
opportunities for a lifetime of learning from pre-school to 
college and beyond.
    Now, for years we have been nibbling around the edges of 
solutions--we tweak a program here, adjust the funding there--
but we haven't made a real dent in education reform in the 21st 
century. The fact is right now--and I always enjoy asking this 
question of people--of every Federal dollar that we 
appropriate, how much of that dollar goes for education? I get 
all kinds of different answers, but no one ever gets it right 
because it's only 2 cents on the dollar. Of every dollar that 
we appropriate in Washington DC, of your hard-earned tax 
dollar, only 2 cents goes directly to education. That simply is 
not enough.
    We need to use our budget surpluses, I believe, to prepare 
for the future by doing two things; paying down the national 
debt and investing in education. Earlier this month the Senate 
adopted an amendment I offered, which I called the Leave No 
Child Behind amendment to increase the national investment in 
education by $250 billion over the next 10 years. This 
investment would make it possible to do many of the things we 
say that we want to do. Now, I know that $250 billion sounds 
like a lot of money, and it is. But keep in mind, relatively 
speaking, in terms of the tax bill, that $250 billion is only 
one-half of the amount of tax breaks that--if we adopt the tax 
bill that they are going to send down next month, it's only 
one-half of the tax breaks that would go to the richest 1 
percent of Americans whose average incomes are over $900,000 a 
year. It's just half of that amount. Give us $250 billion for 
education and with that amount of money we could make sure that 
all children will start school ready to learn by fully funding 
the Head Start Program. We could reduce class size to no more 
than 18 students, and we could repair school buildings. We 
could fully fund special education--the Individuals with 
Disabilities Education Act. We could help students that fall 
behind get the extra help they need by doubling funds for the 
Title I reading and math programs. We could make college more 
affordable by increasing funding for Pell Grants, and we could 
help workers get the skills they need by investing nearly $10 
billion in job training. We could do all this and more if we 
invest in education.
    Now, the President has said, well, leave no child behind, 
or words to that effect. However, his budget does not support 
that. His budget devotes $1.6 trillion of the surplus, the 
supposed surplus, to tax cuts, but a mere $21.3 billion for 
education. This is over 10 years.
    So the proposed budget for the White House has tax cuts 
that are 76 times greater than the investment proposed for 
education over the next 10 years. Again, we have to ask 
ourselves, are these the right priorities?
    Investments are important, but we also have to maintain 
fiscal discipline. That is why I believe that we also have to 
pay down the national debt so that our kids don't have a 
terrible debt to cover in the future. So today we will be 
holding two hearings to examine the impact of the national 
education budget on Iowa children and Iowa schools. We will 
hear testimony from the real experts on education--students, 
parents, teachers, school administrators, school board members, 
student financial aid directors and college presidents. We will 
learn more about the important role that various Federal 
programs play in helping all Iowans. These are the individuals 
on the front lines, and I look forward to your testimony.
    So again, I want to thank you all for coming to participate 
in this important hearing. As I said earlier, following the 
testimony of the panel, I will open the hearing up for comments 
from people in the audience. In addition, the hearing record 
will remain open for 1 week so individuals can submit written 
statements for the record, if they so desire.
    And we were going to have five on our first panel, but the 
tables were too small, so we will do two and then three. Our 
first witnesses are Dr. Ted Stilwill, director of the Iowa 
Department of Education, and Dr. Robert Koob, president of the 
University of Northern Iowa. Dr. Stilwill has served as 
director of the Iowa Department of Education since his 
appointment in 1995. Prior to that time he headed the 
department's activities dealing with elementary and secondary 
education. Before coming to work in State government, Mr. 
Stilwill worked for 18 years as a teacher and administrator at 
the local level. He also chairs the school budget review 
committee and serves on several State boards and commissions.
    Dr. Robert Koob is the president of the University of 
Northern Iowa. Prior to becoming president of UNI, Dr. Koob was 
senior vice president, vice president for academic affairs in 
California at Polytechnic University. Dr. Koob received his 
bachelors degree from UNI, his Ph.D. in chemistry at the 
Universitiy of Kansas. J Hawk. And we will forgive him.
    And with that, we welcome our witnesses. We thank you for 
taking time on a Saturday and for being here and submitting 
testimony. And I would just ask that we try to limit it to 5 to 
10 minutes, so we can move both panels. And with that, I will 
open by recognizing Dr. Stilwill, director of the Iowa 
Department of Education.
STATEMENT OF TED STILWILL, DIRECTOR, IOWA DEPARTMENT OF 
            EDUCATION
    Mr. Stilwill. Thank you very much, Senator. I have to tell 
you that I very much appreciate the invitation to be here to 
share some thoughts on the needs of education in Iowa. Probably 
one clarification I should make, only one of us on this panel 
happens to hold a doctorate, and I'm betting on the University 
President.
    That aside, it's also, I think, pretty significant that you 
chose Kirkwood Community College to kick off these hearings. 
Because in the United States, I think we are realizing more 
clearly than ever before the relationship of education and the 
economy. And if we are going to prepare, not only children and 
young people, but adults to really succeed in that new economy, 
education is now incredibly important and it is in the national 
interest to become engaged in education. And I understand full 
well the need for the Federal Government and the support we 
need from the Federal Government.
    I can't think of anyone in Iowa's delegation in 
Washington--Senator Harkin, you have done a great job in 
advocating for education in Iowa at the Federal level. You have 
a long track record. I will just mention a couple of things and 
my prepared remarks provide more detail. Iowa is noted for its 
Iowa Communications Network Program. What a lot of people in 
Iowa don't fully understand is the Federal contribution, 
through legislation that you have sponsored and advocated, has 
provided $44 million so that individual school districts and 
community colleges and others have money at their site to build 
the local classrooms, and if necessary, access that network. 
That has been extremely helpful. Second is the first-in-the-
nation Federal funding for school infrastructure. The State of 
Iowa has very old schools, as you well know. The Federal 
contribution which now amounts to $37 million, has allowed 257 
school districts to meet life safety needs but also provide new 
construction. That's leveraged our ability in Iowa and perhaps 
raised the conscious of the Iowa legislature to also become 
involved in the infrastructure of our schools as well to a 
significant degree. That really does well for us.
    But I'm sure what a lot of people understand less well is 
in the Title I legislation. You have been able to help Iowa 
assure that even though the Federal formula to fund Title I, a 
remedial reading and math program for kids in typically 
kindergarten through third grade, occasionally pre-school, Iowa 
would have received drastic reductions of Title I funding. So 
much so that it would have literally gone quite a ways in 
offsetting the gains we made in Federal and State funding for 
class size reductions. Senator Harkin has done effective work 
in safeguarding those funds for a number of years. But to look 
into the future and what you are proposing in terms of a much 
greater Federal commitment is certainly something that we 
welcome. The 2 cents on the dollar is simply not enough. 
Everyone in this room now is increasingly familiar with the 
dilemma of Iowa's economy. And incidently, Senator, if you need 
a good example of the fact that perhaps tax reduction doesn't 
automatically generate an economic stimulus, Iowa might be a 
good case in point.
    Probably the many things that are proposed, the dramatic 
increase in support of special education funding will not only 
help guarantee services to children who have special needs, but 
will also have the effect of helping to relieve the pressure on 
property taxes. Because as you know, special education has been 
underfunded in Iowa. Districts have to rely on levying from 
local property taxes which creates an undue burden on those 
communities, and an unequal burden on those communities because 
some simply do not have the ability to levy for additional 
property tax.
    The proposal you had to really quadruple funding for 
professional development is one that I particularly would like 
to recognize. Because the one thing we realize more clearly in 
Iowa than probably ever before in our history, is that if we 
are going to raise student achievement, if we are going to help 
students perform, if we are going to meet the challenges before 
us, the one thing that absolutely has to happen is quality 
teaching. And not only do we need funding, and we are working 
on that in Iowa, to bring in the best and the brightest into 
teaching and make sure they stay there, but once they are 
there, ironically education has not done a very good job of 
helping to meet the skill development needs, the professional 
development needs of its own workers. You would think that 
folks in education would know better, but we have not done 
well. That funding would be very welcome and makes a great deal 
of sense.
    So Senator, I guess I would like to, in the remainder of my 
remarks make a point to appreciate what you have done to ensure 
that the Federal legislation ensures flexibility in Iowa. It's 
one thing to receive funding, it's another thing to receive 
very prescriptive mandates to accompany that funding, and that 
is indeed problematic. I fully understand that there are some 
States in the United States, perhaps several States in the 
United States, where communities have abandoned their kids, 
where the State government and Federal Government probably 
needs to move in to protect those kids, and thus the equivalent 
of calling out the National Guard to run the education system 
in those communities. Perhaps sometimes in large cities it's 
perhaps necessary for the Federal Government to impose that 
kind of restriction on States. But as you know, that is not the 
case in Iowa. We have no need for an educational national 
guard. We do not have and I do not want to have teachers waking 
up in the morning and principals waking up in the morning 
thinking, ``Boy, I need to comply with State and Federal 
regulations today. That's what's my motivational setting.'' I 
don't ever want that to happen in Iowa. And the more intrusive 
both State and particular Federal regulations become, the more 
their day will be taken up with meeting those requirements to a 
greater extent than meeting the needs of the kids.
    There are some elements in the proposed legislation that 
and I will use testing as an example, where the Federal 
Government appears compelled to change current practice. In 
Iowa, the legislature and the Governor and the State board of 
education think our current practice is quite adequate, what we 
just started doing this year, for districts to report on the 
progress of their students in fourth, eighth and eleventh grade 
in three subjects and report on their success or potential 
success in succeeding in post-secondary education. For some 
reason or another at the Federal level it now seems that the 
U.S. Department of Education is going to want to have to know 
how kids are doing at second grade, third grade, fourth grade, 
fifth grade, sixth grade, at every grade level. It's not a 
question of whether testing every year is a good idea, it 
certainly is. Testing probably more often than every year is an 
excellent idea. Every teacher in Iowa certainly does that. 
Whether the Federal Government needs to know about the results 
of that when the Iowa legislature and the Iowa Department of 
Education doesn't feel the need to have that heavy hand in 
monitoring, much less prescribing not only when they are 
tested, but who they tested, how they are tested, what kind of 
tests are involved. We have a good testing system in Iowa. We 
have the Iowa testing program just down the road. We have 60 
years of history and track record with that test. If the 
current legislation were implemented we would likely have to 
abandon that program at a cost of $10 to $20 million. It would 
take a lot more time, people require different kinds of tests 
and because it would require more administration of that test 
the annual cost of administering that program would be 
somewhere between $3 to $6 million. And those are fairly 
conservative estimates, Senator. In this financial environment 
we do not have that kind of money to provide a testing program 
that we really don't need at this point. Every local school 
district in Iowa, and I talked with several of them yesterday 
at a conference, are working hard so that teachers in the 
district have their own assessment programs and plans put 
together. That is where it has the most need. That is where the 
hopes and dreams of kids in those communities ought to be 
formed. Probably not at the State and not at the Federal level. 
And that of course has been our policy in Iowa.

                           prepared statement

    So it's that flexibility that you advocated for, your staff 
has been very helpful on those issues, but I would certainly 
appreciate the ability to continue that kind of flexibility. 
That concludes my remarks. Thank you again.
    [The statement follows:]
                   Prepared Statement of Ted Stilwill
    Senator Harkin, I appreciate the opportunity to offer my insight on 
Iowa's education needs in relation to the current conversations 
occurring in Washington, D.C.
    I applaud your consistent efforts on behalf of Iowa school 
children. Thanks to you Iowa has received $44 million in Star schools 
funding to improve instruction using technology, significant additional 
funding for special education and $37 million for a first-in-the-nation 
pilot federal K-12 school infrastructure project. Senator Harkin, we 
also thank you for working overtime to keep Iowa's allocation of Title 
I early elementary reading and math assistance.
    Looking ahead I see that you continue your progressive approach to 
helping Iowa school children succeed. The amendment you authored that 
was adopted by the United States Senate specifically addresses Iowa's 
critical need for early childhood funding, improved professional 
development for teachers and school infrastructure. I applaud the 
provision in your amendment that would fully fund implementation of 
federal IDEA special education regulation within 10 years.
    The profile of Iowa's population has changed noticeably over the 
past 20 years. We have the highest percentage in the nation of two 
parent working families. Wages have not kept pace with regional or 
national averages. These contribute to the simple fact that Iowa's 
school children come to school less ready to learn than was the case a 
decade ago and certainly two decades ago. Federal Head Start funding is 
a centerpiece of Iowa's plan to provide three and four-year olds with 
quality developmental pre-school. Iowans know that every dollar 
invested in early childhood pays real dividends. Please continue your 
advocacy to expand Head Start programs.
    In the past year I've personally been preaching to schools, state 
legislators, policy makers and business leaders about the irrefutable 
evidence that the quality of the teacher is the single greatest factor 
in student learning. I am not bashful in saying that Iowa has the best 
teachers in the nation. Our educators are devoted to kids and are 
clearly mission driven. Ongoing development of the skills of those 
classroom teachers who need to respond to an ever-changing profile of 
student learners is vastly overlooked as a key to improving student 
learning as well as teacher morale. Research based professional 
development is becoming available. Finding teacher time is not. The 
emphasis in your amendment on quadrupling federal funding for 
professional development responds directly to the needs of Iowa 
teachers as well as educators nationwide.
    Iowa has 257 school districts that have received $28 million 
dollars in Harkin grant awards for K-12 school infrastructure repairs 
and construction. This first-in-the-nation initiative spurred the Iowa 
legislature to contribute over $50 million for school infrastructure 
over the next three years. The Harkin grant program served as the 
framework for our Vision Iowa school infrastructure program. Other 
states are learning from our experience. Iowa school districts continue 
their plea for federal, state and local assistance to this $3 billion 
need. Thank you for responding to their call and the call of schools 
everywhere with the creation of a nationwide school infrastructure 
program.
    Iowa special education costs have increased 100 percent over the 
past 10 years. While acknowledging the need for special education to be 
heavily federally regulated, states, including Iowa, are having trouble 
making ends meet when it comes to guaranteeing the necessary education 
opportunities for special education students. Fully funding the state 
implementation of the federal IDEA special education regulations will 
release a pressure valve for Iowa school districts struggling to levy 
local property taxes to fund these programs.
    As you know, Senator Harkin, local control is the hallmark of K-12 
education in Iowa. Annual school board elections and monthly local 
school board meetings offer an unparalleled opportunity for parents, 
teachers, administrators and other resident citizens to play a role in 
setting the education policy that governs the day-to-day education of 
the children in their community. My colleagues, the chief state school 
officers in other states, envy Iowa's local control doctrine and the 
remarkable levels of student achievement that result from local 
ownership of student learning. I would not trade Iowa's K-12 system for 
that of any other state in this nation.
    While other states have spent tens of millions of dollars to 
develop state standardized tests, Iowa students have a 60 year history 
with the Iowa Testing Service. Iowa long ago decided that high stakes 
testing on one standardized test is not indicative of student learning. 
I simply cannot say this strongly enough. We are sincerely appreciative 
of your efforts to understand and represent Iowa's community driven 
education system. I ask that you advocate for flexibility in the use of 
federal dollars now being proposed to help state testing efforts in 
grades three through eight. In Iowa, we want the flexibility to use 
that new federal funding in the development of multiple measures to 
assess student learning. Iowa's school districts and area education 
agencies are in the process of developing district specific reliable 
multiple measures to round out the limited picture standardized tests 
give of a student's learning. Your advocacy on this issue would be much 
appreciated. I am also encouraged by conversations in Washington to 
improve federal assistance for reading initiatives. Achievement scores 
for Iowa's 4th graders and 8th graders have slipped ever so slightly 
over the past three years. In order to remain among the first in the 
nation, Iowa could greatly benefit from additional assistance. I close 
with the thought that as I have daily frontline interaction with state 
legislators on our Iowa state budget and on teacher compensation 
efforts, I am continually impressed with the collegiality that reflects 
the willingness and dedication of Iowa policy makers to put students 
first. I congratulate you on bringing that Iowa flavor to the U.S. 
Senate. I wish you continued success on behalf of Iowa's school 
children. Thank you.

    Senator Harkin. Thank you very much, Ted. I appreciate 
that. Next we go to Dr. Koob, president, University of Northern 
Iowa.
STATEMENT OF ROBERT D. KOOB, PRESIDENT, UNIVERSITY OF 
            NORTHERN IOWA
    Dr. Koob. Thank you, Senator. You won't be surprised to 
learn that many of my remarks echo things that Ted has said. 
But I want to start by thanking you for the active role that 
you have played. We think that it's appropriate that Iowa take 
a leadership role in education. We have been recognized as 
number one in education for some time and we are terribly proud 
that it's our Senator that has taken the lead in protecting 
education this last session. We are particularly proud of your 
Leave No Child Behind formula. That very closely echos what we 
have been saying is important for education for a long time. So 
you have our unqualified endorsement in this particular area.
    It's no surprise to anyone that we are concerned with 
education. The rapid increase of complexity of the American 
society has raised the expectations on education enormously. So 
much so that today 90 percent of parents with children in 
school expect their children to complete college. I mean, I can 
recall in World War II, just as the GI bill was coming into 
play we had something less than 5 percent college completion of 
people. What were we going to do with all of those GIs that 
were going to go to college? As recently as 1990 the Department 
of Labor estimated that the United States could not gainfully 
employ more than 20 percent of its population as college 
graduates. And yet today here in Iowa we have 72 percent and 
lead the Nation in the number of high school graduates that go 
on to college--community colleges and 4-year schools, and we 
are unable to keep up with the demand. So to say that 
expectations have changed is actually to put it in rather an 
understated way. I think the difficulty and the reason that we 
call for reform in schools is that we have not realized that 
education is no longer 6 through 16. This might have been true 
in the first half of the 20th century. But right now we are 
talking about education that really begins at age zero. We 
understand that the greatest learning really occurs among our 
youngest children and goes on at least through college, as I 
tried to illustrate, and in fact, goes on throughout life. I 
can recall visiting with an executive of IBM when they were 
laying off employees in 1994 and asking why this company, which 
for many years had a policy of never laying off anyone, when 
forced to do it decided who they kept and who they let go. And 
they said that they kept those that had demonstrated that they 
knew how to learn a living. And I have never forgotten that 
statement. Because the fact is, in today's rapidly changing 
society, if we haven't learned how to learn, we are not going 
to be able to adapt to that change. I have five 
recommendations, and you will find that they support, I think, 
your Leave No Child Behind agenda quite closely. But I will 
just mention those five to you, and if there is time left--and 
I will check with your staff--I will talk about the specific 
programs at UNI.
    And the first is to echo Ted's comments about testing: 
Don't confuse indicators with solutions. It's often easy to 
suggest, well, we will just test more and we will change the 
curriculum. But research has shown that that has absolutely no 
impact on this solution of needing to improve achievement. 
There is no relationship between the thermometer and what 
causes the temperature to change. The thermometer only 
indicates whether the temperature has changed or not. So don't 
get confused between indicators and solutions. We have 
solutions that I think are straight forward. And the four 
remaining do's after that one don't deal with that solution.
    The second supports Ted's point about teacher education and 
teachers in general. First of all, recognize that the only 
really important elements in education are the teachers and the 
families of the parents--or the parents and families of those 
students. Make certain that we have professional development 
available for our teachers. Teachers stay in our schools for 
generations. I mean, they will see generations at schools. It's 
absolutely necessary to have professional development because 
the world changes and our teachers must be given the 
opportunity to change along with it. That isn't easy to do 
that. Whatever funding we provide ought to be contingent on the 
participation of the community in that school. Make certain 
that parents are drawn to the school in order to participate in 
the education of their child. If they are not brought into the 
school, research has shown again and again, no matter how good 
the teacher is, it's only the exceptional child that can 
advance without the support of their family. So do recognize 
that teachers and the parents are the core of their education.
    Recognize also that access to college and completion of 
college is the single most important factor in the financial 
and social success of Americans today. There has been a very, 
very strong correlation demonstrated between the social 
economic status of the child and the child's family and their 
success in education. I'm sorry to say, and I'm sure that you 
knew this, that the gap is continuing to widen. The gap between 
those in the upper income quartile of our nation and the lower 
income quartile of our nation has increased by nearly a factor 
of 10 over the last 25 to 30 years. At the same time, the gap 
between the families, the students coming from that lower 
quartile and upper quartile has increased. So the lower end of 
that group has had less and less opportunity to experience 
quality higher education. So it's absolutely necessary--and I 
know again that you know this, that we provide smoothly graded 
and fully funded financial aid infrastructure that offsets the 
tremendous inherent disadvantage of the potential student's 
economic status. Unless we talk about affirmative action, the 
most important affirmative action is to offset that difference 
in economic status.
    The fourth point, is to take leadership to broaden public 
responsibility for early childhood education. I don't believe 
there is a single more important thing that we can do in this 
Nation to improve on school success than to provide high 
quality early childhood education. That may sound funny coming 
from a college president, but I recognize the old song I heard 
when I was very, very young when they were using the twig on 
me, they were saying as the twig is bent, so grows the tree. 
And this in fact is still true. I'm sorry, but it's true. I 
don't advocate using twigs on people any longer, none of us do, 
but I do advocate recognizing that children are learning in a 
country where 80 percent of our parents are working, 
contributing to this great economic engine that we call the 
United States, that they are not home taking care of their 
children. I don't find fault with the parents, but I find fault 
with a society which has allowed that to happen without 
replacing the influence of the parent with a stimulating 
educational environment for their children. I think if I could 
pick one thing of all the things that we could do, that would 
be the single most important.
    I commend to your review the activities of the U.S. Army. 
They have a very active early childhood education program. They 
require certification and they have even come up with a funding 
formula that seems to work successfully. I urge you to review 
that and see if it would not be something we could use 
nationwide.
    And finally, I would like you and the U.S. Congress to 
recognize that it's a changing society that has changed these 
expectations on the schools and we need to move away from 
finding fault with one sector or another for what is going on. 
Rather we need to encourage partnerships, we need to make 
certain that the State and Federal government work closely 
together, that the State and local government work closely 
together, that the parents and teachers work closely together 
and you make the list. But we need to join arms and work 
together to solve this problem because the challenge is 
enormous and the people who are in the field attempting to meet 
that challenge are goodwilled, and it's much better if we 
support them with partnerships than to blame them for what is 
going on at this time.
    If I have time, I would like to point out just a couple of 
things with respect to financial aid and some programs, if that 
is acceptable? Thank you very much. To my point on providing a 
smoothly integrated financial aid for college students I would 
like to point out that the University of Northern Iowa which 
serves students from all over the State of Iowa, with perhaps, 
95 percent of its undergraduate population from the State of 
Iowa, has 76 percent of its students requiring financial aid. 
If one had any idea--I had no idea when I came to Iowa that the 
need for financial aid would be that high. I did not realize 
that according to the strict guidelines that the government has 
set that we have that much need. Our financial aid needs totals 
$68 million, and Federal aid coincidentally makes up 68 percent 
of that assistance. Pell grants are around $5.5 million. For 
us, that serves only 23 percent of our undergraduate 
population. So less than a third of the students eligible for 
financial aid can get a Pell grant under the current program. 
We are concerned about the balance between loans and grants. 
Right now we are finding that our students are graduating with 
anywhere from $16,000 to $20,000 worth of debt upon graduation 
among those that receive financial aid. So we strongly support 
the $600 increase in the maximum Pell grant that was put in 
your Leave No Child Behind amendment. There is no question 
about our support. It will not keep up even at that rate with 
the rapid increase of tuition we expect with the declining tax 
base that we have in Iowa. We are going to see a sharp rise in 
tuition here in this State within the next 2 years and we are 
sorry to have to turn to the Federal Government to help 
mitigate that, but it seems to be our only choice.

                           prepared statement

    I believe in the long term, over the next generation, the 
single most solution for meeting the rise in expectations of 
education is early childhood education. We still have a 
generation of students to deal with that are already in the 
schools today. The TRIO programs and GEARUP programs are 
examples of effective ways to deal with those students. I would 
hope to put those programs out of business over the next 18 
years, beginning with children that are born today by making 
sure they all have a successful, safe, and stimulating 
educational opportunity throughout their educational career. 
But until we do that, those students who have not had the 
opportunity to receive that kind of early childhood support 
need to be rescued in every way that we can. So, thank you very 
much for supporting the TRIO and GEARUP programs. Thank you for 
the opportunity to visit with you today.
    [The statement follows:]
                  Prepared Statement of Robert D. Koob
    Mr. Chairman, thank you for your past and continued support of our 
nation's students. Your tireless efforts on behalf of our nation's 
neediest students have not gone unnoticed in Iowa. We know you are 
truly one of the Senate's staunchest supporters on behalf of education 
funding and improving education throughout the pre-kindergarten, 
postsecondary and lifelong learning continuum. Your introduction and 
leadership of the ``Leave No Child Behind'' amendment to the Senate 
Budget Resolution is just one of many examples of how you turn rhetoric 
into action, and of this we are grateful.
    Post World War II America has seen dramatic changes. Families with 
working parents are now the norm rather than the exception. More jobs 
are now associated with using and processing information than with 
farming or manufacturing. Despite an overall rise in family income, the 
spread between upper and lower income distribution has grown by 
approximately an order of magnitude. On the average, the only 
individuals that have seen an increase in discretionary income in the 
last 30 years are those with four years of college or more.
    Changes such as these, along with the general increase in the 
complexity of American society, have led to changing expectations for 
American schools. These changing expectations have led to many 
misdirected calls for reform such as one-size-fits-all standards, 
school vouchers, and ``quickie'' teacher certification programs. 
Spreading blame among those that should be working closely to adapt to 
these changes is even more damaging.
    It is important to recognize that it is evolution rather than 
reform that is required to match these changing expectations. More than 
90 percent of today's parents of school children expect their child to 
go on to college. Contrast this number with about 40 percent a few 
years ago--and today's leading college-going rate found here in Iowa of 
72 percent--and one immediately realizes the enormity of the challenge.
    America is still trying to meet the challenges of the 21st Century 
with the apparatus built in the early 20th Century. Our concept of 
public schools is still approximately for ages 6-16. We must broaden 
the public education model to include at least ages 0-22, and even 
lifelong learners.
    Extensive research has shown that learning patterns are established 
at a very early age. Here in Iowa, 70 percent of families with children 
under the age of 6 have no parent at home during normal working hours. 
That number rises to over 80 percent after the age of 6. This means 
that there are large blocks of time in a child's day where we are 
uncertain of the learning opportunities for that child. Passive 
childcare is certainly not enough even if it provides a safe place. 
Stimulating developmental environments are required if each child is 
going to be able to cope with the increased educational expectations he 
or she will face later in life.
    Schools can no longer be viewed as milk separators, sending the 
cream on to college while sending the rest into the workforce. The 
workplace is increasingly requiring post-high school education. The 
high expectation parents have for their children's education is a 
direct result of this changing workplace expectation.
    America's colleges must increase their articulation with community 
colleges and high schools, and adopt attitudes that seek to help every 
student graduate. This must be done without lowering standards, but 
rather by adopting a more sophisticated understanding of how people 
learn and grow. This is fundamental if we are to leave no child behind.
    In the 21st Century, the successful worker and the successful 
citizen will be the person that has learned how to learn. In a period 
of rapid change, learning is obviously the most important adaptive 
skill.
    Schools across America are of highly variable quality. The 
correlation with economic status and school success is alarmingly high 
but notable exceptions exist. Iowa is a good example. Considered by 
some to be the home of the best educational enterprise in the nation, 
neither public nor private expenditures can account for the quality. At 
best, Iowa has midlevel per student tax appropriations and mid-to-low 
level tuition. What Iowa does have is high quality teachers and 
parental involvement. Local control has encouraged local involvement. 
This coupled with a culture valuing education has led to continued 
involvement of parents in their child's education.
    The apparatus for early childhood education in the United States is 
so variable as to defy general characterization. Here in Iowa there are 
virtually no standards, and even less state support than federal 
support for early childhood education programs.
    And how are we to pay for this expanded educational apparatus?
    The Jeffersonian ideal of a free public education was adopted when 
that meant elementary school-level literacy, and both parents spent 
most of their time with their children. The concept of a free public 
education has taken a severe beating in the last quarter of the 20th 
Century.
    Ironically, the strong correlation between education and financial 
success led to the conclusion that there was a personal benefit to 
being educated, as well as a public benefit expected in a democratic 
society requiring an informed citizenry. Public colleges particularly 
have seen a significant rise in the percent of per student cost covered 
by tuition. This in turn has led to a complex financial aid apparatus. 
This is a more costly solution overall than maintaining tax-supported 
education available to all, but the momentum of public opinion seems to 
favor moving even further in this direction.
    I would like to suggest some principles to guide the role of the 
U.S. Congress in aiding the evolution of American education:
    1. Don't confuse indicators with solutions. Standardized tests may 
be useful barometers of achievement, but they have no role in improving 
achievement.
    2. Recognize that teachers and parents are the overwhelming 
influences in a school child's life. Provide support that encourages 
the education and continuous professional development of teachers. 
Provide support that encourages the involvement of parents in their 
child's education.
    3. Recognize that access to college is the single most important 
indicator of future financial and social success of the rising 
generation of Americans. Failing full public support of the nation's 
public colleges, provide a smoothly graded and fully funded financial 
aid infrastructure that offsets the tremendous inherent disadvantage of 
the potential student's economic status.
    4. Take leadership to broaden public responsibility for early 
childhood education. The U.S. Army has adopted a public private support 
structure for early childhood education that appears compatible with 
current public opinion and may serve as a good working model for the 
nation.
    5. Realize that it is a changing society that has created our 
current educational needs. Rather than finding fault with any element 
of systems in place, enter into partnerships that encourage 
collaborations of many types. Just a few include federal-state, state-
local, public-private, school-parent, college-school, and school-early 
childhood efforts.
    I thank you for the opportunity to be heard on the vital issue of 
American education.
                                addendum
    Answers to questions regarding the national education budget and 
its specific effect on University of Northern Iowa programs.
     Question. How important is Federal aid to UNI students?
    Answer. Very important. Approximately 76 percent of all UNI 
students receive some form of financial aid totaling more than $68 
million. Federal aid makes up approximately 68 percent of that 
assistance. Pell grants are around $5.5 million for this current year, 
assisting more than 2,790 students--23 percent of our undergraduate 
population. One in five Pell Grant recipients receive no other aid.
    The increase in Pell grants barely keeps up with the rising cost of 
tuition. Currently, a full Pell grant just covers tuition and fees with 
very little room to spare. In the past, Pell grants helped cover the 
costs of books, supplies, room and board, transportation and other 
expenses.
    Other Federal programs such as work-study, SEOG and Perkins Loans 
have given students an opportunity to offset these high costs. At UNI, 
the Federal work-study program assists around 600 students a year for 
just under $1 million. The SEOG program assists around 600 UNI students 
for just over $500,000. The Perkins loan program assist approximately 
800 students at $1.4 million. These programs assist very needy students 
who could not attend the University without this aid.
    The balance of loans vs. grants is a concern. Loans currently 
account for 63 percent of aid received by our students. This is 
creating an incredible burden for students. The Iowa legislature is 
considering eliminating all state funds for work-study--more than 
$250,000. If that happens, 275 UNI students will need to look elsewhere 
for help. That means more loans and more debt.
    Students need access to grants. As we look ahead to the 2002/03 
academic year, we project 2,882 students will receive Pell grants, at 
an average award of $2,149 per student. The plan proposed by President 
Bush would increase Pell grants by less than $100 per student. We 
strongly support a $600 increase in the maximum Pell Grant award for 
fiscal year 2002 as was included in your ``Leave no Child Behind'' 
amendment to the Senate Budget Resolution that was passed by the Senate 
with bipartisan support.
    It's important to put this in context. A recent survey indicated 
that 90 percent of today's parents expect their school-age children to 
attend college. Today's students can expect to walk out of a state 
university with $15,000 to $20,000 in debt (not including debt from 
credit cards and other sources) and an average starting salary of 
between $25,000 and $30,000. When we couple these facts, we see we're 
in danger of creating a society that can do little more than pay their 
school loans. Our economy will bear the consequences.
     Question. How important are the TRIO and GEARUP programs to UNI 
students?
    Answer. The TRIO programs have a great impact on UNI students by 
giving them experiential learning opportunities from early childhood 
education through continuing education programs. Because of TRIO 
grants, UNI is actively involved in enriching the lives of more than 
4,000 low-income and special needs children and adults in the Cedar 
Valley each year. UNI is the only institution in the state to house a 
comprehensive TRIO program. However, TRIO funding is available to less 
than 10 percent of the needy and eligible students who could 
potentially benefit.
    UNI's GEAR UP program is now six months old and is targeted at 
Waterloo's Logan Middle School. Its goal is to prepare students for 
college. We use an integrated, holistic approach to addressing all the 
factors that influence student success.
    The program is supported by a five-year, $1.26 million grant from 
the U.S. Department of Education and by matching funds and services 
from UNI, Waterloo Community Schools, Allen Hospital, Communities in 
Schools, Inc., and the community at large. The Bush budget proposal 
cuts this program by 23 percent.
    During the past six months, the Logan library has been stocked with 
reference books and tutoring and mentoring programs have been 
established. The tutors are mostly UNI students and the mentors are 
from the partner institutions and the community. They've been warmly 
received. Reduced funding would threaten our ability to provide quality 
services to these students in the long term, rendering us unable to 
affect real change for at-risk children.
    GEAR UP also supports professional development. Logan staff have 
attended diversity training and the UNI College of Education is 
planning customized learning opportunities for faculty, with the goal 
of spurring interested teachers to pursue masters degrees. Reduced 
funding may threaten this effort to provide permanent, positive change 
for Logan's staff. It also may eliminate a highly visible opportunity 
for community involvement.
    Preparations are underway for a pilot summer school program--the 
first summer school program offered in Waterloo for a number of years. 
Targeting approximately 120 of Logan's most at-risk students, this six-
week program will combine intensive academic work with creative 
recreational, cultural and enrichment opportunities. Reduced funding 
may force us to retreat from this innovative program. The City of 
Waterloo and its children will be the ultimate losers.

    Senator Harkin. Thank you, Dr. Koob and Ted Stilwell. Thank 
you both very much for excellent testimony. If I could, would 
both of you just again answer a couple of questions and maybe 
delve into it a little bit more on this testing issue. We are 
going to have the elementary and secondary education act bill 
up probably starting this week sometime. We don't know exactly 
when. I'm on the education committee and I will be involved in 
that debate. There is going to be a lot of discussion about 
this idea of testing and annual testing in grades three through 
eight.
    Ted, you said that you estimated the cost in Iowa would be 
between $3 to $6 million a year if we had annual testing, did I 
get that right?
    Mr. Stilwill. Yes, on an annual basis. First we would have 
to spend quite a bit more than that to develop a different kind 
of test than what we have today, because what is specified 
appears to be a criterion reference test, a different kind of 
test than the Iowa Test of Basic Skills.
    Senator Harkin. Is it your opinion that the Iowa Test of 
Basic Skills is a valid indicator then to see if a student is 
learning or progressing right now?
    Mr. Stilwill. It clearly is. It's particularly for the 
purpose, as President Koob mentioned, if we need an indicator 
at the State level of the health of the system, with the help 
of education in the school district it's a very good indicator. 
I would have a great deal more confidence if I had a child in 
school, in the assessments that the teacher gives. You know, if 
you want to know whether your kid is reading okay or not, you 
put a lot more stock in the second grade teachers than you do 
in the test at the end of the year.
    Senator Harkin. I think a lot of concern a number of us 
have in Washington on the committee is that again, we are like 
any of you, annual testing is fine if it's for a purpose and if 
it's funded and if it leads to something. In other words, if 
it's just a test to see who is making it and who is not, I 
don't know what that gives you if you don't have the support 
behind it to help those students. In other words, if we are not 
going to give the teachers the training and support, the 
educational material, technology and the nice buildings and 
things like that so that kids can do well on the tests, and all 
we are going to do is set up an annual test, it's like we are 
setting up the kids for failure because you are not giving them 
the materials and the kind of support that teachers need to do 
well. And the second thing, if they don't do well, what do you 
do? Well, it seems to me that it's an indication that we need 
to come in and support that school more and support the 
teachers. Maybe there's family support. There's all kinds of 
things that have to go along with that. And I'm not certain we 
are prepared to do that on a national basis. We may be prepared 
to test to find out how someone is doing, but I'm not certain 
we are prepared to do anything with it once we do that test. 
That is my concern.
    Mr. Stilwill. Not at 2 cents on the dollar, Senator.
    Senator Harkin. Not at 2 cents on the dollar, right. So we 
would just be setting up a system that is going to fail. So 
again, I think people like to think about testing and most 
people say, yeah, we have a test, but I keep asking, what is 
the purpose of the test and what is it going to lead to and is 
this the best way? I think you just answered that question for 
me this morning, but we are going to have a lot of debate on 
that whole issue.
    On the ability of kids to go to college, it's amazing how 
we see different patterns developing of kids going to college, 
Dr. Koob. We are getting to the point that it really is all 
market driven right now. Well, not all, but most of it is 
market driven right now. But how do you encourage students who 
want to go into fine arts or music or literature, things like 
that, to develop the basis of our concept of who we are and 
what we are about as humans when they had to go to college, but 
when they get out and they can't get paid anything. I mean, if 
you go out and become a computer engineer, you could probably 
pay off your college loans.
    The second thing is, I just had a meeting with some medical 
researchers, another part of my obligations in the Senate, and 
we are finding now that a lot of young people are not going 
into medicine to pursue medical research because their debts 
are so high when they get out of school that it forces them to 
go into some other type of practice so they can at least make 
some money to pay off the loans, and they don't go into 
research like a lot of them would like to do. So we are losing 
some of our best minds to medical research because of that. I 
was just mentioning that to follow up on what you said about 
the need for more student assistance and a way to cut down on 
the amount of loans that they have.
    When I went college at Iowa State in 1958, and I don't know 
the exact figure--but I know that loans as a part of our entire 
cost of going to school was a very small part. I think now it's 
probably the biggest part.
    Dr. Koob. It is. I think it's over 50 percent.
    Senator Harkin. I think it's skewing our whole system up.
    Dr. Koob. You are absolutely right, Senator. The 
fundamental cause of the shifts that you have described has 
been the loss of faith in what I call the social contract for 
higher education. The country was founded on the assumption 
that we ought to have public education available to all of its 
citizens. As the number of people grew, the number of people 
going on to college grew, and we became less willing to pay for 
that and we began to raise tuitions to offset drops in tax 
support for schools, this created a costly financial aid system 
to be superimposed on top of that. So we actually get less for 
the dollar spent than if we raised tuition in the first place. 
It has also been driven, this approach to debt, which 
diminishes the freedom to pursue education of the students that 
are there, the examples that you used. So unfortunately, moving 
education instead of a social contract into a business contract 
has had a number of effects. The way this country has chosen to 
deal with that is through financial aid. The better choice 
would have been 30 years ago to have not started to raise the 
tuition for our colleges. But there seems to be no public 
sentiment in support of that analysis. And so the solutions, 
the ones that we have reached, that is we need to provide more 
and more financial aid in order to offset these differences. 
Unfortunately, the more State legislatures become aware of the 
availability of those kinds of dollars, the less willing they 
seem to be to spend money in terms of taxes on education.
    Clearly we have to have a public debate about the public 
and private good of education and who has to pay for it. And 
that debate has not been joined as yet. So absent the ability 
to reverse the trend to shift more and more of the burden of 
higher education to individuals, financial aid appears to be 
the only solution to the problems that you provided.
    Senator Harkin. Doctor, I have a feeling that if today the 
U.S. Congress tried to pass the equivalent of what they did in 
the 1940's with the GI bill. I don't think it would go through. 
I don't think it would pass.
    Dr. Koob. I don't think the Lambrant Act would pass either. 
The Lambrant Act of 1962 was one of the most definitive acts in 
the entire history of the United States. I absolutely believe 
that the economic and military--whatever leadership this nation 
has, is because it made a commitment to educate each and every 
one of its citizens at whatever level was necessary. And the 
results speak for themselves. Why the demand and success is 
beyond me.
    Senator Harkin. We need that public debate and the public 
debate goes beyond doctors and testing.
    Dr. Koob. It certainly does.
    Mr. Stilwill. Senator, it's particularly interesting in 
Iowa right now when we seem destined to be increasing the 
tuition at our regent universities markedly, destined to 
increase the tuition at our community colleges markedly in a 
State where 47 percent of the parents make less than $10 an 
hour. We are almost going to guarantee that the children of 
those parents are going to make less than $10 an hour.
    Senator Harkin. You are saying that 47 percent of 
students----
    Mr. Stilwill. Wage earners in Iowa make $10 an hour or 
less. So when the hope for their children's future and the hope 
for a new economy in Iowa depends on their access to higher 
education, a 2-year or 4-year degree or apprenticeship at 
least, we are making it increasingly difficult to provide that 
access. It doesn't seem like a smart move.
    Senator Harkin. No, not a smart move. Thank you both very 
much for being here. Let's hear it for both.
    Now, I would like to call up Lois Mulbrook, financial aid 
director of Mount Mercy College in Cedar Rapids, Swati 
Dandekar, board member of Linn-Mar Community Schools in Marion, 
and Tammy Wetjen-Kesterson, vice president of the Iowa Head 
Start Association from Marengo.
    First we will start with Lois Mulbrook. Lois Mulbrook is 
the director of financial aid at Mount Mercy College in Cedar 
Rapids and is president-elect of the Iowa Association of 
Student Financial Aid. Lois earned her bachelor's degree from 
Upper Iowa University and her MBA at the University of Iowa. 
She is a certified CPA with a background in public accounting.
    Swati Dandekar has been a member of the Linn-Mar Community 
District School Board since 1996, and was appointed to the 
Vision Iowa Board by Governor Tom Vilsack. Swati was recently 
elected as the director of the Iowa Association of School 
Boards and is a graduate of Linn-Mar High School and Stanford 
University.
    Tammy Wetjen-Kesterson is vice president of the Iowa Head 
Start Association and Chair of the Iowa River Valley Family 
Resource Center. She has extensive experience as a Head Start 
volunteer. Tammy is currently pursuing a degree in criminal 
justice and hopes to eventually practice law.
    We welcome you here and thank you for coming on a Saturday 
morning. And you don't have to read your whole statement, but 
if you could just summarize it, I would appreciate it. And I 
would like to say that all of these written statements will be 
made available in their entirety so you don't have to go 
through the whole thing. So with that, I will turn first to 
Lois Mulbrook, director of financial aid at Mount Mercy 
College.
STATEMENT OF LOIS MULBROOK, DIRECTOR OF FINANCIAL AID, 
            MOUNT MERCY COLLEGE
    Ms. Mulbrook. Thank you, Senator Harkin. I appreciate this 
opportunity to give comment with regard to your recent 
amendment to the Congressional Budget Resolution.
    Pell grants are the backbone of a financial aid package. I 
was very interested to hear statistics from UNI because at 
Mount Mercy only 23 percent of our students received a Pell 
grant during the current academic year. Because funding is so 
restricted in these areas, these Pell grant recipients still 
have unmet needs of over $2,600. This means that a family who 
has very limited financial resources must still obtain an 
average of $2,600 to contribute to a child's education. In 
order to do this they must obtain additional loans and/or work 
excessive hours at a part-time job.
    An increase of $600 to the Pell grant award would be 
significant to our student body. Based on our current 
recipients and the typical Pell grant award, this increase 
would help reduce the debt load of our Pell grant recipients by 
over $100,000.
    Senator, I know you understand the needs of students 
attending college and you realize that an increase in the Pell 
grant award is not enough. Even funding for the campus-based 
programs is not acceptable. The campus-based programs which 
consist of Supplemental Educational Opportunity Grant, Work-
Study Program and the Perkins Loan Program are very critical to 
financial aid packages.
    Based on the current funding of the Supplemental 
Educational Opportunity Grant Program, Mount Mercy is only able 
to fund 42 percent of our Pell grant recipients. Funding must 
be increased so more students are able to benefit from this 
program.
    Our Perkins Loan Program has benefited from our dedicated, 
responsible students who are very conscientious in repaying 
their student loans. Without increased funding for this program 
we have no choice but to rely on repayment of these loans in 
order to fund our current students. We also encourage Congress 
to continue support of the cancelation fundings for these 
loans. Mount Mercy has strong programs in the nursing, 
education, criminal justice and social work areas. These are 
majors that can definitely benefit from the cancelation 
provisions. While they are a great help to our students, we are 
also providing capable, well-trained individuals to the work 
force for these shortage areas.
    In my opinion, the Federal Work-Study program is one of the 
most useful programs funded by the Government. It gives 
students a chance to take responsibility for their education 
while gaining work experience. However, funding is critical to 
this area as well.
    I do not want to give the impression that I expect the 
Federal Government to completely fund the students attending 
Mount Mercy College. We are committed to assisting students in 
obtaining the type of education that best fits their needs. 
Each year Mount Mercy College provides over $5 million of 
institutionally funded financial aid to help our students. 
Along with the other 29 independent colleges in Iowa, we feel 
that it's important that students be given a choice in the type 
of education that they receive. That is why independent 
colleges in Iowa provide institutional support to their 
students attending their schools and at the same time are 
determined to control costs and maintain the same high level of 
education. However, it's a fact that students must continue to 
borrow funds to help pay for their education. Efforts must be 
made to help reduce the debt load of students by increasing 
Pell grants and increasing the campus-based programs
    I would like to give an example of one of our seniors that 
will be graduating in May. She has received a Pell grant all 4 
years while attending Mount Mercy College. Her father is a 
farmer in Iowa and her mother also works to help support the 
family. Their adjusted gross income for 1999 was just over 
$23,000. She also works part-time while attending college, and 
her adjusted gross income for 1999 was almost $6,600. In 
addition to her off-campus work she also participates in the 
Work-Study program and tutors in the America Reads program. Her 
Pell grant for the 2000/2001 year was only $3,050. This is a 
typical Mount Mercy student. She will graduate with almost 
$19,000 in loans. Our students are willing to work off campus 
to help fund their education. They don't expect a free ride. 
However, another $600 in the Pell grant would have helped a lot 
to reduce her loans. She hopes to graduate and find a job 
teaching in Iowa making $23,000. She will begin her career 
already $19,000 in debt, almost her entire first year salary. 
We must continue to provide funding to make sure students like 
her can still feel free to make choices regarding their 
education.

                           prepared statement

    I want to express my thanks to Senator Harkin for allowing 
me to share my experiences and opinions. I also want to thank 
you for all of your past support for education, and this 
amendment proves that we can rely on you to protect the 
interests of higher education. Thank you.
    [The statement follows:]
                  Prepared Statement of Lois Mulbrook
    I want to thank Senator Harkin for this opportunity to give 
comments concerning the Harkin Amendment to the Congressional Budget 
Resolution, H. Con. Res. 83 that was recently passed by the Senate.
    Pell grants are the backbone of a financial aid package. However, 
only 23 percent of the students attending Mount Mercy College during 
the 2000-2001 academic year receive a Pell grant. The average Pell 
award for these students is $1,935 compared to the maximum award of 
$3,300. Only 15 percent of the Pell recipients were eligible for the 
maximum award. The Pell recipients have the greatest financial need, 
but because of funding restrictions these students at Mount Mercy 
College still have unmet need of over $2,600. This means that a family 
who has limited financial resources must obtain, on average, another 
$2,600 to contribute to their child's education to be able to attend 
Mount Mercy College. How does a family do this? Unfortunately, the 
answer is for the student to obtain additional student loans and/or for 
the student to work excessive hours at a part-time job. For this 
academic year, we had approximately 29 percent of our freshman class 
eligible for a Pell grant. Of this freshman class, 87 percent of the 
students had an average of $4,700 in student loans.
    An increase of $600 to the Pell grant award would be significant to 
our student body. Even though only approximately 15 percent of our 
students will receive the full $600, it will greatly help all students 
who are eligible for a Pell grant. Based on our current recipients and 
the typical Pell award, it is estimated to increase the average Pell 
grant by $350. It will help reduce the debt load of the students 
receiving Pell grants at Mount Mercy College by over $100,000.
    Senator Harkin understands the needs of the student attending 
college and realizes that an increase in the Pell award is not enough. 
President Bush has recommended that funding for campus based programs 
(Federal Supplemental Educational Opportunity Grant (FSEOG), Federal 
Work-Study Program, and the Federal Perkins Loan Program) remain level 
for the next academic year. Level funding is not acceptable as was 
noted in Senator Harkin's amendment. Increases in these programs are 
critical. Even though the majority of these funds go first to Pell 
recipients, other needy students also benefit.
    Based on the current funding of the FSEOG program, Mount Mercy 
College is only able to fund this grant to 42 percent of the Pell 
recipients. Awarding these funds is one of the most difficult jobs a 
financial aid officer must perform. We have to determine the average 
FSEOG award and then balance it with the number of Pell recipients. It 
is never enough. Funding must be increased so more students are able to 
benefit from this program.
    Mount Mercy College is very fortunate to have dedicated, 
responsible students. Our Perkins Loan Program has benefited from this 
because our students are very conscientious in repaying their Perkins 
Loans. We work hard to maintain a low default rate. Without an increase 
in funding to this program, we have no choice but to rely on repayment 
of loans so those funds are available for our current students. We loan 
almost $600,000 to students each year. While this helps them fund their 
education, it must be repaid. We encourage Congress to continue their 
support of the cancellation funding for these loans. Mount Mercy 
College has strong programs in Nursing, Education, Criminal Justice and 
Social Work. These are all areas that could benefit from the 
cancellation provision of the Perkins Loan Program. While it is a great 
help to our students, Mount Mercy College is also providing capable, 
well-trained individuals to the work force for these shortage areas.
    In my opinion, the Federal Work-Study program is one of the most 
useful programs funded by the Federal Government. It gives students a 
chance to take responsibility for their education while gaining work 
experience. However, funding is critical to this program. Currently we 
are able to offer only 16 percent of our student body the Federal Work-
Study program. This includes the students who participate in the 
America Reads Program. Our Education Department works closely with the 
schools in the area to help provide tutors through this program. This 
is a wonderful way for the local elementary schools to provide 
additional help to students and at the same time provide our Mount 
Mercy College students with a valuable learning experience.
    I do not want to give the impression that I expect the federal 
government to completely fund the students attending Mount Mercy 
College. Mount Mercy College is committed to assisting students in 
obtaining the type of education that best fits their needs. Each year 
Mount Mercy College provides over $5 millions of institutionally funded 
financial aid to help students attend. With Mount Mercy College, there 
are 29 other independent colleges in Iowa that feel that it is 
important that students be given a choice in the type of education they 
receive. These schools provide a wonderful opportunity to students, not 
only from Iowa, but also from across the nation. Mount Mercy College is 
not unique when we provide institutional assistance. The other 
independent schools in Iowa support the students attending their 
schools, as well. The independent colleges are also very fortunate in 
Iowa to have the Iowa Tuition Grant program. This program provides a 
$4,000 grant to students with a specific need level that are planning 
to attend an independent college in Iowa.
    The independent schools in Iowa are also committed to controlling 
costs while at the same time providing the same high level of 
education. However, it is a fact that students must continue to borrow 
funds to help pay for their education. Preliminary numbers show that 
students attending independent colleges in Iowa during the 1999-2000 
academic year borrowed over $557 million. At Mount Mercy College, the 
average loan indebtedness of students graduating in May 2000 was over 
$17,000. This includes all federal, state, Mount Mercy College, and 
private loan sources. This represents almost a 19 percent increase in 
the last five years. Assuming this amount was all federal loans (which 
it is not), a best case scenario would have a student paying over $230 
a month in loan payments. Over the life of the loan, interest payments 
would be almost $8,900. This can be an almost unmanageable debt load 
for students graduating in the service areas such as teaching and human 
services. Efforts must be made to help reduce the debt load a student 
incurs by increasing Pell grants and campus-based programs and allowing 
for continued cancellations of federal loans for shortage areas.
    I would like to give an example of one of our graduating seniors 
that has received a Pell grant all four years while attending Mount 
Mercy College. Her father is a farmer in Iowa and her mother also works 
to help support the family. Their adjusted gross income for 1999 was 
$23,646. The student also worked part-time while attending college. Her 
adjusted gross income for 1999 was $6,595. In addition to working an 
off-campus job, she also participated in the work-study program on 
campus and tutored in the America Reads program. Her Pell grant for the 
2000-2001 year was only $3,050. She will graduate with almost $19,000 
in loans. This is a typical Mount Mercy College student. Our students 
are willing to work off campus to help fund their education. They do 
not expect a ``free ride''. However, another $600 in a Pell grant award 
would have allowed this student to reduce her loans. She graduates 
hoping to find a job teaching in Iowa making $24,000. She will begin 
her career already $19,000 in debt, almost her entire first year 
salary. Four years later, would she still decide to attend Mount Mercy 
College? We know that the learning experiences she had while attending 
out-weigh the impact of the debt load, but we must continue to provide 
funding to make sure a student like her can still feel free to make 
choices.
    Again, I would like to express my appreciation to Senator Harkin 
for allowing me to share my experiences, knowledge, opinions and 
financial aid statistics. I want to also thank Senator Harkin for all 
his past support for Education and this amendment proves that we can 
continue to rely on the Senator to protect the interests of higher 
education. Thank you for your time and consideration.

    Senator Harkin. Thank you, Lois, very much for your kind 
words and your testimony.
    Next we will turn to Swati Dandekar, Board Member of the 
Linn-Mar Community School District and the Iowa Association of 
Schools.
STATEMENT OF SWATI DANDEKAR, BOARD MEMBER, LINN-MAR 
            COMMUNITY SCHOOL DISTRICT AND IOWA 
            ASSOCIATION OF SCHOOL BOARDS
    Ms. Dandekar. Senator, I want to clarify something, if I 
may. My son went to Linn-Mar school district school and then on 
to Stanford. I came to United States 28 years ago.
    Senator Harkin. Very good.
    Ms. Dandekar. It looks nice.
    Senator Harkin. I'm glad you came to Iowa.
    Ms. Dandekar. Yes, I came from India's midwest to Iowa's 
midwest--United States midwest. And this is my first time doing 
this so I'm really nervous.
    Senator Harkin. We're glad to have you here.
    Ms. Dandekar. I always tell people in Iowa that I feel 
right at home because I came from one midwest to another. So we 
are farmers in India too.
    Senator Harkin, thank you for the opportunity to present 
oral and written comments regarding Federal education policy. 
Also, and more importantly, thank you for your continued 
support of America's children and their education. Public 
education is the foundation of our democratic society and the 
key to successful futures for Iowa children. State and Federal 
policy makers must protect the future of our country by 
recognizing the importance of continued support of public 
education.
    Today I'm representing Linn-Mar Community School District 
as well as the Iowa Association of School Boards. The Linn-Mar 
School District and IASB believe that every child can achieve.
    Public education spending is an essential investment in 
Iowa's future. Employers want to build or relocate where the 
educational system provides a quality work force. Studies show 
that investment in public education pays off in long-term 
dividends for the local community, State, and country. 
According to U.S. Census Bureau, high school graduates can earn 
twice as much as dropouts. There is a higher correlation 
between dropout rates and incarceration than there is between 
smoking and lung cancer. High school graduates have the ability 
to seek higher education where their earning potential is even 
greater. People who earn more are giving more back to their 
community in spending power and tax returns.
    More important, public education spending is an investment 
in our children's future. Public schools provide equality of 
opportunity for all children. Our public education system 
guarantees every child access to a quality education at a 
neighborhood public school, regardless of academic ability, 
socioeconomic status, family background, race, religion or 
needs. In addition to teaching academics, public schools are 
the primary institution for teaching common values, our 
country's history and commitment to democracy. Public education 
represents a transcending American interest in continuing our 
democratic culture, freedoms and providing every student the 
education needed for a successful, independent life.
    Today Iowa public schools face many challenges: No. 1, 
raising academic standards; No. 2, ensuring all students 
receive an excellent education; No. 3, improving teacher 
quality through meaningful professional development programs; 
No. 4, helping the increasing number of children with special 
needs. These include students with limited English-speaking 
ability, homeless students and students with physical, mental 
or behavioral disabilities.
    Senator, I have changed my remarks. I hope it's okay.
    Senator Harkin. That's fine. Fine with me. It's okay.
    Ms. Dandekar. No. 5, rebuilding old schools; No. 6, 
providing technology resources; and No. 7, attracting and 
retaining qualified teachers and administrators in light of 
Iowa's lower-than-average salaries and spiraling benefit costs.
    State and Federal funding supports school districts in all 
these areas, but funding has not kept pace with the rising 
costs of meeting these challenges. Schools of today cannot 
continue to rely on the resources of yesterday. Many critical 
programs are significantly under funded, including early 
childhood education, special education and professional 
development for teachers.
    Iowa State tax cuts that have been enacted for several 
years have resulted in State budget problems. These State 
budget problems will inevitably result in reduced education 
funding. Iowa public schools serve more than 92 percent of all 
Iowa school-age children. I'm right on that one, yes? The 
influx of Federal funding is welcomed as a new resource to meet 
the needs of Iowa's schools and students.
    It is through your efforts, Senator Harkin, that Iowa 
schools now have more money to address life safety issues. It's 
also through your efforts that we are beginning to see the 
Federal Government meet its commitment to fully fund its share 
for special education costs. We are also seeing a strong 
commitment to early childhood education through class-size 
reduction dollars, and a commitment to fully fund Head Start so 
all eligible children are served.
    Iowa policy makers must demonstrate primary support for 
Iowa public schools in order to maintain the respected quality 
of Iowa's education system nationwide. We urge you to: No. 1, 
continue to provide resources for school boards to meet all 
students' needs; No. 2, commit real, new and significant 
resources to improve education in Iowa; No. 3, ensure every 
child hits the ground running when he or she comes to 
kindergarten; and No. 4, continue funding life safety grants 
and construction grants for schools.
    Senator Harkin, in conclusion--I'm not reading everything 
that I have. I wanted to make it shorter because if I read 
everything it could be 15 minutes long.
    Senator Harkin, in conclusion, let me summarize: No. 1, 
public education represents a transcending American interest in 
continuing our democratic culture and freedoms and providing 
every citizen the education needed for a successful, 
independent life; No. 2, if our children don't succeed, our 
society won't succeed. All students have the right to the best 
quality education to allow them to become respectful, 
productive citizens. Public schools are the only entities that 
can and must meet the needs of all students; No. 3, education 
funding has not kept up with the increase in revenues nor has 
if kept pace with the changing face of society and its impact 
on education; No. 4, the time is to act now. We cannot leave 
any student behind. Education moves individuals dependent on 
society into individuals contributing to society; and No. 5, 
everyone talks about supporting public education, but reality 
has not matched the rhetoric. We need to make funding public 
education a priority.
    And Senator, I would talk to you as a first generation 
immigrant. I feel the reason America is a super power is 
because of our public education.

                           prepared statement

    As a board member I tell people that we may not be perfect, 
but we are good public school systems, and we have to work hard 
to become excellent public school systems.
    Senator Harkin, thank you for your time and your continued 
commitment to our children.
    [The statement follows:]
                  Prepared Statement of Swati Dandekar
    Thank you for the opportunity to present oral and written comments 
regarding federal education policy. Also, and more importantly, thank 
you for your continued support of America's children and their 
education. Public education is the foundation of our democratic society 
and the key to successful futures for Iowa children. State and federal 
policymakers must protect the future of our country by recognizing the 
importance of continued support of public education.
    Here today, I am representing the Linn-Mar Community School 
District as well as the Iowa Association of School Boards. I am a board 
member for both organizations. The Linn-Mar Community School is a 
school district of approximately 4,500 students here in Linn County. 
The Iowa Association of School Boards is a statewide educational 
organization representing Iowa's 374 public school districts, 15 area 
education agencies and 15 community colleges. The mission of the IASB 
is to assist public school boards in achieving high and equitable 
student achievement. Both the Linn-Mar school board and district and 
IASB believe every child can achieve and the time to act is now.
    Public education spending is an essential investment in Iowa's 
future. Employers want to build or relocate where the educational 
system provides a quality work force. Studies show that investment in 
public education pays off in long-term dividends for the local 
community, state and country. High school graduates can earn twice as 
much as dropouts. U.S. Census Bureau, 1990 Survey of Income and Program 
Participation. There is a greater connection between dropout rates and 
incarceration than there is between smoking and lung cancer. High 
school graduates have the ability to go to higher education where their 
earning potential is even greater. People who earn more are giving more 
back to their community in spending power and tax revenues.
    More important, public education spending is an investment in our 
children's future. Public schools provide equality of opportunity for 
all children. Our public education system guarantees every child access 
to a quality education at a neighborhood public school, regardless of 
academic ability, socioeconomic status, family background, race, 
religion or needs. In addition to teaching academic subjects, our 
public schools are the primary institution for teaching common values, 
our country's history an commitment to democracy. Public education 
represents a transcending American interest in continuing our 
democratic culture and freedoms and providing every citizen the 
education needed for a successful, independent life.
    Today, Iowa public schools face many challenges.
  --Raising academic standards through school improvement plans and 
        goals to ensure all students receive an excellent education.
  --Improving teacher quality through meaningful professional 
        development programs.
  --Helping the increasing numbers of children with special needs, 
        including students with limited English-speaking ability, 
        homeless students and students with physical, mental or 
        behavioral disabilities, including medically fragile students.
  --Updating or rebuilding old or overcrowded schools and providing 
        technology resources.
  --Attracting and retaining qualified teachers and administrators in 
        light of Iowa's lower-than-average salaries and spiraling 
        benefit costs.
    State and federal funding supports school districts in all these 
areas and others. But funding has not kept pace with the rising costs 
of meeting these challenges. Schools of today cannot continue to rely 
on the resources of yesterday. Many critical programs are significantly 
underfunded, including early childhood education, special education and 
professional development for teachers.
    Ongoing state tax cuts have been enacted for several years 
resulting in state budget problems. These state budget problems will 
inevitably result in reduced education funding. Iowa public schools 
serve more than 92 percent of all Iowa school-age children. The influx 
of federal funding is welcomed as a new resource to meet the needs of 
Iowa's schools and students.
    It's through your efforts that Iowa schools now have more money to 
address life safety issues in their schools--long before the state 
agreed to help local schools fund infrastructure issues. It is also 
through your efforts that we are beginning to see the federal 
government meet its commitment to fully fund its share of special 
education costs. We are also seeing a strong commitment to early 
childhood education through class-size reduction dollars and a 
commitment to fully fund Head Start so all children eligible are 
served.
    Iowa's policymakers must demonstrate primary support for Iowa 
public schools in order to maintain the respected quality of Iowa's 
education system nationwide. We urge you to:
  --Continue to provide resources for school boards to meet all 
        students' needs.--School boards must have both the freedom and 
        the financial resources to fulfill this responsibility. Full 
        funding of the federal government's share of special education 
        costs will significantly reduce our dependence on local 
        property taxpayers to meet rising special education costs. 
        Increased funding for Title I programs focusing on those 
        students at-risk of failing, will give school districts the 
        added resource needed to help level the playing field so a 
        student's income will no longer be a determinant of how that 
        student will succeed in school.
  --Commit real, new and significant resources to improve education in 
        Iowa.--The continued reallocation of existing resources within 
        education is both insufficient and detrimental to Iowa 
        students. Teacher pay cannot keep pace. Quality professional 
        development for teachers, curriculum, textbook and library 
        resources, and technology will all continue to fall behind. 
        Federal funding to help teachers obtain the data-driven 
        professional development needed to ensure all children achieve 
        is welcomed. Time spent on professional development is time 
        away from students but it is vital in order to ensure quality 
        education occurs when students are in the classroom.
  --Ensure every child hits the ground running when he or she comes to 
        kindergarten.--By increasing the federal government's 
        commitment to fully fund Head Start, we know those children at 
        greatest risk of failing in school, those from low-income 
        families--will have the same resources available to them to 
        allow them to come to school ready and able to learn.
  --Continue funding life safety grants and construction grants for 
        schools.--Since we already struggle with funding for 
        educational programming, infrastructure assistance is greatly 
        needed. All children have the right to an education in a safe, 
        secure facility--not just those who live in property tax or 
        sales tax rich school districts. Spending time searching for 
        infrastructure funding is time taken away from education. 
        Having new sources of funding, frees up our time and resources 
        to focus on student achievement.
    Senator Harkin, in conclusion, let me summarize:
  --Public education represents a transcending American interest in 
        continuing our democratic culture and freedoms and providing 
        every citizen the education needed for a successful, 
        independent life.
  --If all children don't succeed, our society won't succeed. All 
        students have the right to the best quality education to allow 
        them to become respectful, productive citizens. Public schools 
        are the only entities that can and must meet the needs of all 
        students.
  --Education funding has not kept up with the increases in revenues 
        nor has it kept pace with the changing face of society and its 
        impact on education.
  --The time to act is now--we cannot leave any student behind. 
        Education moves individuals dependent on society into 
        individuals contributing to society.
  --Everyone talks about supporting public education, but reality has 
        not matched the rhetoric. We need to make funding public 
        education a priority.
    Again, thank you for your time and your continued commitment to our 
children.

    Senator Harkin. Thank you. As a second generation 
immigrant--my mother came to this country--I really appreciate 
what you had to say. You are just right on. That really is what 
made us super is public education.
    Ms. Dandekar. And I truly believe in that, so please fight 
for all of us.
    Senator Harkin. I can tell that.
    Thank you very much. And now we will turn to Tammy Wetjen-
Kesterson, Vice President of the Iowa Head Start Association.
STATEMENT OF TAMMY WETJEN-KESTERSON, VICE PRESIDENT, 
            IOWA HEAD START ASSOCIATION
    Ms. Wetjen-Kesterson. On behalf of the Iowa Head Start 
Association, I'm pleased to testify in support of the fiscal 
year 2002 appropriation for the Head Start program. Also, 
Senator Harkin, I would like to thank you for being a champion 
for Head Start children and our families.
    The Iowa Head Start Association is a private, non-for-
profit membership organization representing more than 6,700 
children and their families, upwards of 1,400 staff and 20 Head 
Start Programs and Delegates in all 99 counties. Early Head 
Start projects served 800 children under the age of 3 in fiscal 
year 2000.
    The Iowa Head Start Association stands by the goal 
established by Congress to enroll 1 million children in the 
Head Start program by the end of the coming fiscal year and 
doubling the number of infants and toddlers and their families 
enrolled in Early Head Start. Iowa Head Start Association 
requests the subcommittee's favorable action on a fiscal year 
2002 appropriation for Head Start of $7.2 billion--an increase 
of $1 billion over the last fiscal year.
    In the State of Iowa there are 2,500 children that are left 
unserved by Head Start programs. And we are only serving 15 
percent of the children who are currently eligible for Early 
Head Start. To serve these children there needs to be continued 
support for Head Start and Early Head Start expansion. Senator 
Harkin, now is the time to answer the needs of our children 
that has been placed on hold for too long. Now is the time to 
fill the gap for low income children and their families. No 
longer should we tolerate waiting lists for Head Start and 
quality early care and education programs. And no longer should 
we be forced to turn away children that will be Iowa's future.
    Another issue of concern to Head Start programs in the 
State of Iowa is the need to extend services to full-day, full-
year services in response to the needs of parents who are 
working full-time. Programs in the State of Iowa need the 
flexibility to use additional expansion to convert existing 
part-day, part-year operations into full-day, full-year 
classrooms.
    In the 1998 reauthorization of Head Start, it called for 
marked improvements in the quality of professional development 
for the Head Start teaching staff, the quality of services 
provided to children and families, and working toward 
quantifiable goals--goals which recognize the primary 
importance of education at the forefront of the Head Start 
mission.
    The Iowa Head Start Association supports the quality 
services that Head Start programs achieve. Our efforts have had 
a positive impact on early childhood education and child care. 
In Iowa, when our Head Start programs partner with child care 
or home visitation programs we pass along the high standards of 
Head Start. Through these partnerships many children throughout 
the State receive high quality services without having to be 
enrolled in Head Start. To maintain this high quality requires 
a continued substantial investment in Head Start.
    We have made good on the commitments and promises made in 
the 1998 reauthorization of our program. We have put quality 
over quantity, and we have put results over progress. But even 
an inflationary increase of $136 million over fiscal year 2001 
funding level would force abandonment of a number of important 
plans in Head Start, including the scheduled expansion of the 
Early Head Start program and training for teachers.
    Senator Harkin, this is not the time to retreat from our 
commitment to the full funding of Head Start--from the goal of 
providing every eligible low-income child access to the type of 
services which will give them the opportunity to gain access to 
the American dream. And this is not the time to remain 
stationary. If the nation does not rise to the occasion, 
investing our resources in our children, we will have failed 
ourselves as well as future generations.
    The Iowa Head Start Association appreciates this 
opportunity to reinforce the critical national interest served 
by supporting expanded Head Start staff funding. With your 
assistance we can continue to make a difference in the lives of 
Iowa's children and families, especially those that are most 
vulnerable.

                           prepared statement

    In summary, we request: A fiscal year 2002 appropriation of 
$7.2 billion; support the use of grant dollars for full-day, 
full-year services; and to continue to financially support 
professional development of Head Start staff and other Early 
Childhood providers which creates services for all of Iowa's 
children.
    Thank you for allowing the Iowa Head Start Association to 
present issues of importance to the Head Start community before 
this committee.
    [The statement follows:]
              Prepared Statement of Tammy Wetjen-Kesterson
    On behalf of the Iowa Head Start Association, I am pleased to 
testify in support of the fiscal year 2002 appropriation for the Head 
Start program, administered by the Department of Health and Human 
Services under the Subcommittee's Jurisdiction.
    The Iowa Head Start Association (IHSA) is a private, non-profit 
membership organization representing more than 6,700 children and their 
families, upwards of 1,400 staff and 20 Head Start Programs and 
Delegates in all 99 counties. Early Head Start projects served 800 
children under age three in fiscal year 2000.
    In this the 36th year of Head Start, IHSA stands by the goal 
established by the Congress several years ago to enroll one million 
children in the Head Start program by the end of the coming fiscal year 
and doubling the number of infants and toddlers and their families 
enrolled in the Early Head Start initiative within that same time 
frame. At the same time, IHSA remains committed to keeping the promise 
made to low income children and families by Presidents George H.W. Bush 
and Bill Clinton and by both Democratic and Republican-controlled 
Congresses--namely, full funding of Head Start. Accordingly, IHSA 
requests the Subcommittee's favorable action on a fiscal year 2002 
appropriation for Head Start of $7.2 billion--an increase of $1.0 
billion over fiscal year 2001 program funding level.
    In the State of Iowa there are 2,500 children that are left 
unserved by Head Start Programs. And we are only serving 15 percent of 
children eligible for Early Head Start. To serve these children there 
needs to be continued support for Head Start and Early Head Start 
expansion. Now is the time to answer the needs of our children that has 
been placed on hold for too long. Now is the time to fill the gap for 
low-income children and families. No longer should we tolerate waiting 
lists for Head Start and quality early care and education programs. No 
longer should we be forced to turn away children that will be Iowa's 
future.
    An additional unserved population of children exists in Iowa. These 
children's families are minimally over the income guidelines. Some 
families are less than $100 over the income guidelines. Due to Iowa's 
rural nature and our welfare reform program (the Family Investment 
Act), Head Start Programs are seeing a dramatic increase in the number 
of children that must remain unserved under current guidelines. These 
families still have at-risk factors for remaining in poverty such as 
illiteracy, limited or no job skills, little or no parenting skills, 
substance and/or spousal abuse, and other high risk factors.
    The law permits the enrollment of a ``reasonable number'' of over-
income families to accommodate the working poor and near poor who 
desperately need Head Start services to maintain employability and self 
sufficiency. During the last administration, Secretary Shalala 
interpreted ``reasonable number'' to permit over-income enrollment of 
up to ten percent of total program enrollment. IHSA would like to see 
this flexibility expanded to as much as 25 percent of enrollment. This 
would solve a major problem as it relates to welfare reform, especially 
in the rural Programs in our state. Under thus arrangement, the working 
poor would still be eligible for Head Start and would have more support 
to become self-sufficient.
    Another issue of concern to Head Start Programs in the State of 
Iowa is the need to extend services to full-day, full-year services in 
response to the needs of parents who are working full-time as well as 
unconventional hours because of welfare reform. IHSA is extremely 
appreciative of the Head Start Bureau's efforts to address this need in 
their recent guidance for fiscal year 2001 expansion. However many of 
the Programs in the State of Iowa need the flexibility to use 
additional expansion to convert existing part-day, part-year operations 
into full-day, full-year classrooms.
    The 1998 reauthorization of Head Start called for marked 
improvements in the quality of professional development for the Head 
Start teaching staff, the quality of services provided to children and 
families, and working toward quantifiable goals--goals which recognize 
the primary importance of education at the forefront of the Head Start 
mission.
    The mission of the Iowa Head Start Association is to enhance the 
capacity of its members to promote and advocate for a wide range of 
quality services for all of Iowa's children and families.
    The IHSA supports the quality services that Head Start Programs 
achieve. Our efforts have had a positive impact on early childhood 
education and childcare. In Iowa, when our Head Start Programs partner 
with Child Care or Home Visitation Programs we pass along the high 
standards of Head Start. Through these partnerships many children 
throughout the State receive the high quality services of Head Start 
without being enrolled. To provide these quality services to children 
both within our Programs and to touch the lives of other children in 
the State of Iowa requires a continued substantial investment in Head 
Start.
    We have made good on the commitments and promises made in the 1998 
reauthorization of the program: we have put quality over quantity; 
results over progress. We have improved the quality of our Programs, 
assisting those local projects in need of guidance. We have moved 
toward improving the training and professional competency of our 
classrooms and programs. Iowa Programs not only focus on professional 
development within our classrooms, but we work hard to promote 
educational standards for all early childhood educators.
    Even an inflationary increase of $136 million over the fiscal year 
2001 funding level would force abandonment of a number of important 
plans in Head Start--including the scheduled expansion of the Early 
Head Start program; training of teachers toward the goal of increasing 
credentials and college degrees such that at least one-half of all Head 
Start classrooms have a teacher with an Associate's, Bachelor's, or 
Master's degree by 2003; and bolstering our commitment to achieving 
education outcomes through the institution of research-based early 
childhood educational interventions.
    This is not the time to retreat from our commitment to the full 
funding of Head Start--from the goal of providing every eligible low-
income child access to the type of services which will give them the 
opportunity to gain access to the American dream. And, this is not a 
time to remain stationary. If the nation does not rise to the occasion, 
investing our resources in our children, we will have failed ourselves 
as well as future generations. Our richness lies in our people. It 
always has.
    The Iowa Head Start Association appreciates this opportunity to 
reinforce the critical national interest served by supporting expanded 
Head Start funding. With your assistance, we can continue to make a 
difference in lives of Iowa's children and families, especially those 
that are most vulnerable.
    In summary, we request:
  --A fiscal year 2002 appropriation of $7.2 billion--an increase of $1 
        billion over the fiscal year 2001 appropriation level;
  --Enhanced flexibility to allow for the participation of a larger 
        proportion of over-income children and families where needs 
        exist and extending services to these families;
  --Supporting the use of grant dollars for full-day, full-year 
        services for currently enrolled children;
  --Continue to financially support professional development of Head 
        Start staff and other Early Childhood providers which creates 
        quality services for all of Iowa's children.
    Thank you for allowing IHSA to present issues of importance to the 
Head Start community before the committee.

    Senator Harkin. Thank you very much. Thank you all very 
much. Let me start with Head Start. Every study that we have 
seen, I think both Dr. Koob and several others referred to it 
also, talks about the importance of getting to the kids early. 
Forget about patching and fixing and mending later on, we have 
to get to the kids early, and that is the focus of Early Start 
and Head Start. One of the things that I keep hearing about is 
the status of Head Start teachers and how much they are 
compensated. Can you tell me what is the average salary of a 
Head Start teacher in the State of Iowa right now? Do you 
happen to know what that is, because I don't know.
    Ms. Wetjen-Kesterson. I would say the average salary right 
now is in the range between $7 to $7.50.
    Senator Harkin. Per hour?
    Ms. Wetjen-Kesterson. Per hour. And that would be for 
teacher associates. Teachers would typically make more. The 
majority of our staff are teacher associates.
    Senator Harkin. And what kind of training do they have to 
have?
    Ms. Wetjen-Kesterson. Most of our teachers are required to 
have either a CDA or a----
    Senator Harkin. A what?
    Ms. Wetjen-Kesterson. A Child Development Associate.
    Senator Harkin. Okay.
    Ms. Wetjen-Kesterson. Or they are required to have an 
Associate of Arts degree or Bachelor's degree with an early 
childhood endorsement. But the qualification do vary from one 
program to another. In rural areas you are going to find 
programs that are unable to find staff that have the Master's 
and Bachelor's and Associate Arts degrees.
    Senator Harkin. Now, do most Head Start teachers work half 
a day?
    Ms. Wetjen-Kesterson. No, most Head Start teachers now are 
putting in full days because we are in the process of 
converting our classrooms to accommodate the parents who are on 
their track of welfare reform.
    Senator Harkin. How many Head Start teachers do we have in 
the State of Iowa?
    Ms. Wetjen-Kesterson. We have approximately 1,400 staff, 
and that would include the teachers and teacher associates, our 
counselors and our directors.
    Senator Harkin. Okay. And do you have a presence in all 99 
counties?
    Ms. Wetjen-Kesterson. Yes, we do.
    Senator Harkin. And you serve 800 children under age 3 and 
6,700 children in the 3 to 5?
    Ms. Wetjen-Kesterson. Currently those are our numbers, but 
with last year's authorization there was $100,000 in expansion 
that was guaranteed to each grantee, so those numbers would be 
increasing as we expand our numbers. Senator Harkin, what we 
would like to see is the flexibility to use those expansion 
dollars, not only to add children, but also to convert our 
part-day, part-year classrooms into those full-day, full-year 
services that our parents desperately need. And one thing I did 
not mention was we do have another population in the State that 
we consider to be underserved. And they are parents we cannot 
serve because they are minimumly over the income guidelines. We 
have parents that are $50 to $100 over income guidelines. There 
is no way they could go anywhere and find a reasonable child 
care experience or quality preschool experience for $50 to 
$100.
    Senator Harkin. What is the income guideline?
    Ms. Wetjen-Kesterson. 100 percent of Federal poverty is the 
income guidelines, and we are currently allowed to accept 10 
percent of over income children into the program. What we would 
like the administration to do is to increase that to 25 
percent. It would give us the flexibility especially in our 
rural programs, and especially since Iowa is on the forefront 
of welfare reform. We have many, many families in the family 
investment program that simply need to have their children in a 
quality education program so they can work.
    Senator Harkin. Ellen was just saying that because of the 
FIP program they have gone back to work, but they are still 
poor, they are only making a few dollars over the income 
guidelines.
    Ms. Wetjen-Kesterson. Yes, they are the parents that are 
making less than $10 an hour that hope to send their children 
to college some day and they would like to see their children 
start off where they could go to kindergarten ready to learn.
    Senator Harkin. And again, I had hoped through my 
amendment, which was adopted, to fully fund the Head Start 
Program, and began to rachet up the Early Start Program, we 
just got the budget from the administration, the budget 
provides $6.325 billion. That represents an $125 million 
increase over last year. That compares to about a billion 
dollar increase last year. And I know the Head Start Program 
had been advocating at least $7.2 billion, which would be about 
another billion dollars over last year.
    Ms. Wetjen-Kesterson. Yes, essentially we received over 
$931 million.
    Senator Harkin. Is that what it was last year?
    Ms. Wetjen-Kesterson. Yes.
    Senator Harkin. The budget also eliminates funding for the 
Early Learning fund. This budget that was just sent down 
eliminates the money for that. So we have a battle on our hands 
just trying to get that money back in there.
    Ms. Wetjen-Kesterson. Well, I think what early reading 
research taught us was that 3- and 4-year-olds are almost too 
late in the course. So we have to start when parents bring that 
child home from the hospital when it's born.
    We have to start to do it when their brains are ready to be 
stimulated, and that is at birth, not at 3 or 4.
    Senator Harkin. I'm going to tell you the story that I keep 
telling. I've been telling it for 11 years, that's how old it 
is. In 1990 I was the Chair of this committee. In 1985 then 
President Reagan had commissioned a study of education about 
what do we need in education, and he didn't want a bunch of 
soft-headed social thinkers and stuff, he wanted hard-headed 
business people to get together the leaders of industry to 
decide what we needed to do about education in American. And 
the head of that was Jim Renier, who was then the CEO of 
Honeywell in Minneapolis. Well, this commission met and met and 
met, and met and then President Reagan left office and 
President Bush comes in. And they finally finished all of their 
hearings and their witnesses and their studies. And keep in 
mind these are the corporate leaders of America, not the soft-
headed social thinkers.
    And Mr. Renier walks into my office, I'd never met him 
before, walked into my office because I was now chairman of 
this committee, and he gave me this report. And the executive 
summary, the first part, the little executive summary part said 
the following: ``We must understand that education begins at 
birth and the preparation for education begins before birth.'' 
And the whole study, 11 years old, was talking about how we 
need to make sure that we have a healthy start for kids, we 
have maternal child health care programs for mothers so they 
have healthy babies, that we have nutrition programs, at the 
earliest stages. This was corporate American saying this. And 
we still for some reason can't quite get it through our thick 
skulls that we have to put more emphasis on as you said, when 
they bring that child home from the hospital. And it would just 
save us so much later on down the road if we'd do that. Because 
we know--we know from all of the studies how much a child 
learns in those early years and what they can absorb and we 
just have not focused on that enough.
    So I'm personally upset about what is happening in Head 
Start. I think we need better training and requirements for 
Head Start teachers. We need better support for the Early 
Start, and I'm talking about 0 to 3. Now, that is going to 
require an investment of money. But I think that we have to do 
it. Anyway, I didn't mean to get off on that, but I just hope 
we can overcome the budget requests that we have here and get 
more money in for this year.
    Ms. Wetjen-Kesterson. Those are also really good reasons 
for leaving Head Start within the Department of Health and 
Human Services, Senator Harkin. We believe if Head Start is 
left within the Department of Health and Human Services it will 
stay the holistic program that it is. It will not focus 
primarily on education. Education is only one piece of a child 
being ready for school. That child also has to be socially 
ready for school, the parents have to be ready to support that 
child entering school.
    Senator Harkin. Very true. Well, on student financial aid, 
Lois, again, the same thing that Dr. Koob was saying, we need 
to get our Pell grant funding up. Once in a while I hear the 
comment, ``Why should we just give this money to them?'' Well, 
you know, we gave the money to the GI bill. I went to school 
with the GI bill, and so many of my co-workers went to school 
with the GI bill, and we never asked them to pay the money back 
because we knew it would be returned in tax returns. And later 
on we could just earn more money. And I think that is really 
the basis, and to allow these kids to go to college, close that 
social economic gap as you stated. So I thank you for your 
testimony on that.
    Ms. Dandekar. Senator, may I ask you something?
    Senator Harkin. Yes.
    Ms. Dandekar. I didn't talk about it but in regards to 
special education, we would like to have full funding from 
Federal Government because we see about 12 to 15 percent.
    Senator Harkin. It's about 17 percent right now.
    Ms. Dandekar. Yeah, for special ed. And I thought we were 
supposed to get 40 percent.
    Senator Harkin. When the IDEA was passed in 1975 there was 
a commitment by the Federal Government that we would pay up to 
40 percent of the average cost.
    Ms. Dandekar. Right.
    Senator Harkin. And we are about 17 percent right now.
    Ms. Dandekar. And right now, just when I look at Linn-Mar 
school, we have to fund $385,256 from property tax. And not all 
school districts can come up with that kind of money. And I'm 
sure that Cedar Rapids Community Schools must pay a lot more. I 
think it's millions for Cedar Rapids Community Schools.
    Senator Harkin. And that is why I offered this amendment to 
try to get our funding for special ed up to a 40 percent level. 
We will try it again this year. I was reading the paper this 
morning, the Cedar Rapids Gazette, there was an article that 
the chairman of the House Budget Committee was saying that we 
need to fully fund IDEA. Well, he is the Budget chairman. All 
he has to do is write it in there.
    If they put it in there, school districts will get their 
money. That is all there is to it. Listen, thank you all very 
much for taking your time and thank you for your leadership in 
all of the aspects of our children's education here in the 
State of Iowa. Thank you.
    I would like to now open it for any statements from the 
floor. If you have written ones we will accept those. If you 
want to make just a verbal statement, that would be fine too. 
And we have a microphone, and as I said, please identify 
yourself. I have here that Nancy Wright, Central College TRIO 
would like to make a statement. You can either sit at the table 
or stand at the mike, whatever you prefer. Is this Nancy 
Wright?
    Ms. Wright. Yes, it is. Hopefully my knees aren't shaking 
too much and I will be okay if I stand here.
    Senator Harkin. All right. Don't worry about it. Go right 
ahead.
    Ms. Wright. Good morning, Senator Harkin, I'm very happy to 
be here. And I'm the educational talent search director and 
GEARUP director at Central College and was very happy to hear 
Dr. Koob this morning talk about TRIO and GEARUP at University 
of Northern Iowa. They are also a great TRIO community up 
there. And as you know, Educational Talent Search is part of 
the TRIO umbrella which is funded under Title IV of Higher 
Education Act Programs like Upward Bound, Student Support 
Services, Educational Opportunities Program, McNear Programs, 
and so our programs are serving basically sixth grade students 
all the way through graduate students in higher education. So 
it's a large population. Currently there are over 2,400 TRIO 
programs across the Nation, and we are serving almost 750,000 
students nationwide. Here in Iowa we have 44 TRIO programs.
    Senator Harkin. 44?
    Ms. Wright. Yes, 44 programs at 20 different institutions 
of higher education. And we are serving 14,230 students here in 
Iowa.
    I was also interested to hear other comments from your 
other presenters this morning. The Head Start students that you 
were talking about, the 3- and 4-year-olds are exactly the same 
kids that we are talking with when they get to the sixth grade. 
And what we are doing is providing the services that those 
students need to be successful in middle school and high school 
and in college. And the financial aid piece that you heard 
about this morning is also very important because the low 
income students that we are serving, we are serving families at 
150 percent of poverty level. And right now, nationwide, we are 
only serving 6 percent of eligible families. Only 6 percent 
nationwide.
    Senator Harkin. You are talking about in the TRIO program?
    Ms. Wright. In the TRIO program, exactly. And if you think 
about how that translates here in the State of Iowa with our 
students, if you take that 6 percent, we are basically not 
serving over 237,000 students, if we use that same percentage 
rate that are not receiving our services. Students that should 
be coming through the Head Start program or could be coming 
through other programs that aren't receiving the tutoring, the 
mentoring, the supportive services, academical and personal 
counseling and those kinds of things so that they can be 
successful and receive the financial aid to go on to college 
and then continue to be successful academically there. So the 
things that we are providing are essential pieces of all the 
things that we have already heard about this morning.
    I want to tell you a real quick story about one of our 
students that we are serving with our program. Her name is Amy 
and she is from Albia High School. She is a senior this year 
and we are very happy that we have been able to work with her 
because she was on the cheerleading squad and in 1999 she had 
an accident and suffered severe head trauma. She was not able 
to even go back to school the next semester of her sophomore 
year. She had to be at home. Her mother is a single parent, 
probably one of these families that is making less than $10 an 
hour and wasn't able to cover the hospital bills as well as 
being worried about her academically and keeping up with her 
classes and that type of thing. And fortunately, Amy was part 
of our talent search program. So with the help of the guidance 
counselor at Albia High School we set up a tutoring program at 
home where talent search was provided for her to keep up with 
her classes. And this May she will be graduating with her 
classmates and then going on to Northwest Missouri State to 
study education. And so it's stories like that over and over 
again, where we have all of these students that we are working 
with who have the American dream that we have all been talking 
about this morning and helping to make that possible for these 
kids. And that is what our TRIO programs are all about.
    Personally, I grew up maybe 5 miles from here and attended 
Cedar Rapids Prairie High School and grew up in a low income, 
first generation family. I was lucky enough to have very 
supportive parents who told me I didn't have a choice, I had to 
go to college. Actually, they are here this morning and they 
are very wonderful people. But my senior year of high school I 
was in track and field as a student and I won the 400 meters at 
a track meet. And I think of TRIO in the sense of we are 
running this race to meet the needs of students. And when I was 
running I would never stop and look back and say, ``Wow, look 
at how far I've come. I'm doing a great job.'' I was always 
looking toward the finish line, looking toward winning this 
race. And I think what we are trying to do with this Leave No 
Child Behind, we are trying to fully fund these programs and 
win this race and make the American Dream possible for all of 
these low income families here in Iowa and across the Nation. 
And TRIO needs to be a part of that. So we would appreciate 
your help in helping fund TRIO at an increase of $150 million 
for this next year so that we can serve a few more students so 
that we can help these kids go on to college.
    Senator Harkin. Well said. Thank you very, very much.
    All right. I'm just told, Nancy, that in the present budget 
there is an increase of $50 million for the TRIO program, and 
you were saying that we need at least $150 million?
    Ms. Wright. Exactly.
    Senator Harkin. Well, we will try to get it up. I was told 
Joanne Lane, Child Care Resource and Referral from Waterloo. 
Joanne? Hello, Joanne. How are you?
    Ms. Lane. I'm fine. I am Joanne Lane from Waterloo. And 
speaking as the director of Child Care Resource and Referral 
for a service area that is 20 counties of northeast Iowa. We 
thank you for your support and for the opportunity to speak to 
you this morning. But every day our Child Care Resource and 
Referral counselors are talking to parents who are seeking safe 
and reliable child care. Over half of those parents are seeking 
care for an infant or a toddler. And increasingly they are 
seeking care because they are working weekends and second or 
third shift. Presently in Iowa we project that the supply of 
child care that is regulated, either center or home, meet--and 
is available full-day, full-year, meets about half of the 
projected need. We heard of our family income levels. We know 
that an additional 20 percent of that 48 percent is at $7 an 
hour or less. Thanks to your leadership we have made great 
strides in meeting these needs through the Child Care 
Development Block Grant and the quality set aside that is 
included in that and through our Head Start and Early Head 
Start. We truly do support your amendment. It should have been 
at $350 billion--and urge that you include in the legislative 
assurances for funding for Child Care Resource and Referral 
programs that are assisting parents in their responsibility to 
locate and select the best child care possible.
    I have prepared these remarks before I read the press 
release regarding the recent child care study. And if I could 
share some insight based upon 7 years as a director of a large 
care center, but also 24 years as the director of a Child Care 
and Referral Resource agency, and say that I think those 
results are showing that; No. 1, we have not adequately 
invested in the quality of early care and education. And child 
care is early education whether it's quality or not; and No. 2, 
that we need to do more in parent consumer education, because 
we know that parents, when they don't know the choices are 
available to them, will make hasty decisions that will result 
in frequent changes of the caregiver leading to an 
inconsistency for the child that leads to the instability of 
the behavior problems that manifest themselves, and truly when 
they hit kindergarten are not ready to succeed. Thank you very 
much.
    Senator Harkin. Thank you very much, Joanne. I appreciate 
it very much.
    We are going to put some more money into the Child Care 
Development Block Grant. How much, I don't know. The budget 
includes $400 million for a new after school program. They put 
$400 million in there and then cut $200 million of the funds 
that are available for younger kids. Is that right?
    Unknown Audience Member. It was kind of an even trade? No.
    Senator Harkin. Any other statements that somebody might 
want to make? Take the mike and identify yourself for the 
reporter.
STATEMENT OF DAN STICE
    Mr. Stice. My name is Dan Stice.
    Senator Harkin. Will you spell that last name?
    Mr. Stice. S-t-i-c-e. Like slice with a T.
    Senator Harkin. Thank you, Dan.
    Mr. Stice. I don't want to detract from these other people, 
these people that are prepared, but I don't see how I could 
argue with anything that has been said, but I want to make one 
comment. We are looking at the trees. Where is the forest? The 
forest is good jobs. That is what gets jobs above $10. And very 
few people create those good jobs. There is a man here in Cedar 
Rapids that did a lot, Collins. He is gone now. Rockwell didn't 
do a thing. You have to go to Oshkosh, Wisconsin to claim where 
Rockwell started. You need very few, and college is not the 
answer. Bill Gates didn't graduate from college. What the 
answer is, somebody starts something and it does something and 
it grows. And as a businessman, Iowa makes some very poor 
business decisions because we spend all of this money that you 
are talking about and want to spend more, and what are we doing 
it for? The benefit of everybody else around us because we are 
exporting our talent, particularly the ones like Collins.
    Senator Harkin. I just might add that even--I guess Bill 
Gates didn't graduate from college; is that right? He didn't 
graduate from college, but I can tell you that the people he 
hires that makes his money for him are all of the most 
brilliant students in America that graduated with the highest 
grades from our schools. So, I mean, it's one thing to be an 
entrepreneur, it's another thing to understand, as one of my 
early mentors said, ``To be a success in life, never be afraid 
to hire people smarter than yourself.'' And that is what Bill 
Gates had done.
STATEMENT OF JOHN HIERONYMUS
    Mr. Hieronymus. My name is John Hieronymus. H-i-e-r-o-n-y-
m-u-s. I am a high school math teacher in Iowa City and I'm 
currently vice president of the Iowa State Education 
Association.
    I just want to commend you on what it is you are trying to 
do. I think that the list that you have of Federal programs 
indicates the very best programs that have been achieved in 
education. They represent things that we know work. And the 
only thing that has been short in those programs has been 
funding. And what you are going to do with this amendment 
provides at least a large uplift in the kind of funding that we 
need for education from early childhood on through college.
    I think what is important to understand is that this does 
not represent additional Federal intrusion in any way in our 
schools. Those are programs that already exist, we know they 
work, and what you are proposing is to actually give them the 
funding that they need in order to advance. I want to talk 
about a couple in particular, IDEA, we did a lot of studying of 
IDEA after the last set of amendments passed and we did what we 
could to educate our professionals in the State of Iowa about 
those changes. The only thing that we are lacking at this point 
is really getting those guidelines implemented is the 
professional development. And from this amendment that you are 
proposing, I expect a lot of that professional development 
would go towards helping our professionals understand better 
how to deal with students that are the recipients of IDEA.
    Class size reduction, when I had talked to you a few years 
ago and the class size reduction bill came through, I told you 
that Iowa too added to that, that we have had a class size 
reduction program. We have increased funding for it. 
Unfortunately, this year they are now talking about reducing 
that program by $30 million. Very unfortunate. It's going to 
make a negative impact in our schools. But hopefully what you 
are trying to do with the Federal program will help bolster 
that.
    Since I have such limited time, I would like to point out 
one other thing and that is, bills cross all of these programs. 
I'm constantly reminded as I read the newspaper about some of 
the programs and what politicians are saying about we will get 
there eventually, is that they don't seem to understand that 
the children that we have right now will only be children for a 
brief period of time. As they talk about putting programs in 
eventually, those children are already gone. They are lost to 
the programs, they haven't been able to take advantage of it. 
So I guess that is why I would emphasize the immediancy of 
this. The sooner we can act on these programs and bolstering 
them the better for the children that are in need right now. 
Thank you very much.
    Senator Harkin. Thank you, John, very much.
    Just identify yourself for the reporter.
STATEMENT OF WENDY VODENHOFER
    Ms. Vodenhofer. My name is Wendy Vodenhofer. V-o-d-e-n-h-o-
f-e-r. I'm from Oxford Junction.
    Senator Harkin, I would like to start by thanking you for 
your commitment to education. I just want to share with you 
today some of the benefits that I have had through funding at 
Kirkwood. I get the Federal Pell Grant, the Work Study, the 
SEOG Grant, and without it it would have been impossible for me 
to go to Kirkwood. I also have $10,000 in student loans.
    Senator Harkin. What year are you in now?
    Ms. Vodenhofer. Pardon?
    Senator Harkin. What year are you in school?
    Ms. Vodenhofer. I will graduate after this summer with ASN, 
legal office administration. I'm also a past Head Start student 
and I have a son in Head Start, so I'm an example of how all of 
this funding can really benefit somebody. I feel that I'm going 
to give it back to the community in the future. So it's worth 
it.
    Senator Harkin. Thank you very much.
    Have you met Tammy? Do you two know each other?
STATEMENT OF JAMIE KNIGHT
    Ms. Knight. Senator Harkin, my name is Jamie Knight. K-n-i-
g-h-t. I just wanted to take this opportunity to share with you 
what Head Start has done for me. And it's actually Early Head 
Start. I'm the parent of an Early Head Start child, and I'm 
currently working towards a degree in chiropractic. I was using 
Child Care Resource and Referral to find quality day care for 
my daughter and thought I had found what was a good place for 
her and later found out about Early Head Start and was lucky 
enough to get one of the spots with the brand new expansion 
that was happening down in Davenport, Iowa.
    The first day that I went to pick up my child she didn't 
want to come home. She was so happy and so stimulated by that 
environment that it made me cry. It made me sad that I hadn't 
been able to find that kind of quality before that. And for the 
funding to go down and not support what is already in place, 
let alone not support any expansion, would be sad. And so I 
really feel great that you are working further to get the 
funding that is needed to continue with a very quality and 
wonderful program.
    Senator Harkin. Thank you for that brief point in person.
STATEMENT OF NANCY PORTER
    Ms. Porter. Senator Harkin, my name is Nancy Porter, I'm 
a--P-o-r-t-e-r. I'm a Title I teacher from the Iowa City 
Community School District. And I want to thank all of the 
previous speakers for their points and remarks and Dr. Koob 
with his reiteration that Iowa remains number one in education, 
and this room full of people is an example. We have the 
resources, we have the intelligence, we have the background and 
training because of our educational system. And Mr. Stilwell, 
your comments too on reinforcing Senator Harkin's wonderful job 
in the Senate and fighting for education. I appreciate it and 
all of the students that I have had through the years 
appreciate it, they just don't always know it.
    I could comment on a lot of things because I have had 
experience in just about every area that has been spoken to 
this morning. But I would like to mention two things: Every 
once in a while there seems to be those people out there that 
don't understand what our educational system does for us. And 
they attack some of the programs that are working so well. And 
as a Title I teacher in the Iowa City Community School 
District, I'm also a Reading Recovery trained teacher, so two 
of the items I would like to speak on is; No. 1, professional 
development; and No. 2, the, ``replacement of the family 
unit,'' via the school system.
    No. 1, as a Reading Recovery, Title I teacher I have had 
extensive training in the strategy for teaching reading and I 
have worked with students for years. But nothing satisfies the 
self esteem need, the ability to move ahead like learning to 
read in first grade. And that is what I'm able to do. I'm able 
to teach those students how to read in first grade with the 
help of their parents and the classroom teacher we all team 
together. This is one area of professional development that 
teachers often are slighted. They don't have the time to 
interact with each other, we don't have the time to look at the 
programs that work, and we need that interaction, we need that 
time and we need to look at the strategies and programs that 
work. And they are there and they are here in Iowa, and we are 
working in Iowa City with many of them. So feel free to call on 
us and we will show you how it works.
    No. 2, I'm also fortunate to work in a building where our 
building is part of the community, even though it's part of the 
Iowa City Community School District. It's a small school 8 
miles south of Iowa City. It's Hills Elementary. And our 
building is open early in the morning with a wrap around 
program, preschool as well as daycare for students whose 
parents work early hours, we are open from 7 a.m. to 
approximately 6 p.m. Our building has two programs after school 
from the 2001 grant monies. We have an after school tutoring 
program, we have an after school program that just concentrates 
on reading, we have a family resource center that is open every 
Tuesday night where parents come in and enjoy the space of the 
building and are often taking part in learning programs 
presented by staff members while their children are involved in 
activities in the building. Every Wednesday night the building 
is open just for adolescents allowing them to come to the 
building unsupervised by their parents but supervised by staff 
members so they have a place to congregate and interact with 
each other. So we try our best.
    Senator Harkin. Is your building hooked up to the ICN?
    Ms. Porter. No, it's not. But there is always room for 
improvements; right? But regardless, we do have a lot of things 
going on in our public schools that are positive and reflect 
the needs of our community. And thank you, Senator Harkin, for 
maintaining those funds.
    Senator Harkin. Thank you very much. I appreciate your 
statement. My time has run out. The last two statement here.
STATEMENT OF MICKEY DUNN
    Ms. Dunn. I will make them brief. I'm Mickey Dunn, I'm from 
Center Point. D-u-n-n. I teach too at Center Point and I'm also 
Reading Recovery and all that stuff. My story is an older story 
about how the Department of Human Services and how funding for 
kids can really, really, really make a different in our 
economy. I married too young, I had a child too young. I 
qualified for him to go to Head Start. I was able to go on ADC 
and go back to school and get my BA in reading. And I taught 
for 5 years and I went back and got my master's degree. And 
when my son was 19, he was a freshman in school at Kirkwood, 
and he was injured and is quadriplegic and is now on SSA and 
has a trust fund in place and has just graduated a year and a 
half ago from the University of Iowa with a BA in psychology. 
He is currently working. Those programs, that funding is making 
an impact in taxes. Because I now have a master's degree, I'm 
fully employed, I have done adjunct teaching at UNI. If I had 
not had the scholarships and grants that I got to go back to 
school, if I had not been funded through ADC to get back to 
school, I would still be working for $2 and--what, it's 
probably more than that. It was $2.10 then. I would probably be 
working for $10 an hour.
    Senator Harkin. Great story.
    That's the kind of personal stories that more and more 
policy makers need to hear. These are not obtuse kinds of 
things that we are talking about. I know we always talk about 
program this, a program is a program, but these manifest 
themselves in real peoples' lives and how people live, what we 
are able to do. Yes?
STATEMENT OF RON FIELDER
    Mr. Fielder. I will try to be brief, Senator. Thank you for 
being the Nation's premier champion for students with 
disabilities.
    Thank you for your recent----
    Senator Harkin. For the record, please----
    Mr. Fielder. Yes. Ron Fielder, administrator of Grantwood 
Area Education Agency. That's F-i-e-l-d-e-r, as in left, right 
or center.
    Thank you for your recent efforts to increase IDEA funding. 
And rumor has it that you and your staff have been your 
typical, effective and tenacious advocates in the last month on 
the full funding provisions also, so we thank you for that.
    Public education is in serious trouble in Iowa, primarily 
because of the effects of 5 years of--5 straight years of tax 
cuts that are literally taking $800 million out of our budget. 
As of last week, students with disabilities began to be 
targeted for some of those cuts in this State. I would just ask 
that as you deal with the policy issues around the pending IDEA 
legislation that you make sure that the supplanting issues are 
appropriate to prevent us from--this State and other States 
from replacing State dollars with Federal dollars, which I hope 
you are targeting to help us expand capacity and to reduce the 
local district tax burden and budgets. And I would say probably 
in States other than this, that is a danger if those 
supplanting policy aspects are not included in legislation.
    Senator Harkin. You are right, Ron. You are absolutely 
right on that. And we are going to make sure that that does not 
happen. What Ron is talking about is as we put more money in 
then the State takes money out. So you are sort of left without 
the increases that we need in helping students with 
disabilities. We have come a long way--Well, I want to thank 
everyone for being here. I want to thank the witnesses who were 
scheduled and those of you who gave personal testimony this 
morning here.
    I want to wrap up the hearing by saying that it's a matter 
of priorities. We really have to think about our priorities. 
When you say two cents out of every Federal dollar goes towards 
education, that says something about our priorities.
    Now, I know that education for most of the history in this 
country has been local and State funded. I have for many years 
been going around talking about education in this way: I keep 
asking people, where does it say in the Constitution of the 
United States that education is to be funded by property taxes? 
You won't find it anywhere. But that is basically the system 
that grew up, is that we fund education on the basis of 
property taxes. And the reason for that is when we first as a 
Nation committed ourselves to a more general public education, 
which in the beginning was white males, but then got more 
inclusive later on, we did not have an income tax system and 
all we had was property taxes and tariffs. So we used that as 
the basis of funding the public education system in America. 
And that is just how it grew up. The first Federal involvement 
in education was the Morrell Act in 1852. And that was quite a 
giant step. And that began the focus of the Federal effort 
toward higher education. So for probably over 100 years the 
sole focus of the Federal involvement in education was in 
higher education. The GI bill, land grants, research 
institutions, things like that, all focused toward higher 
education. Then later with the passage of the Elementary and 
Secondary Education Act in 1965, the Federal Government began 
to be involved more in supporting elementary and secondary 
education.
    The genius, I think, in the American education system has 
been in its local control and the sort of local and State 
involvement in experimentation in education. I have been to a 
lot of different countries where they have this top down 
education system that does not provide for much innovation and 
experimentation. And it's kind of a stifling system. In America 
we have had spurting of new ideas and experimentation at the 
local and State levels. That has been the genius, I think, for 
American education. The failure of American education has been 
the lack of proper funding for education.
    So I'm hopeful that we can understand that. With the 
movement of Americans from job to job and from State to State, 
that a child who is ill-educated in one State won't be just a 
burden in only that State, but that child could be a burden in 
some other State. We are one Nation and we have to look upon 
this as a national effort. And in no way do I mean to take away 
the genius of American education which has been the local 
experimentation and implementation of different methods and 
methodologies of teaching. But I do believe it needs better 
financial support from us as a Nation. And that is why I push 
hard for things like IDEA. As the author of the Americans with 
Disabilities Act and as one who has been involved in IDEA since 
I first came to Congress in 1975, we have come a long way in 
our thinking about the education of people with disabilities, 
and we have become a better country for it. But then again, to 
put all of that burden on a local school district, and to put 
that burden on a teacher in a classroom is unfair. Because the 
teacher may not have the requisite of skills. The teacher is 
dealing with 20--hopefully 18 students--more likely 25 
students, and then you add one or two with special needs and 
with disabilities and the teacher all of a sudden gets on 
overload. So that teacher needs more help in the classroom to 
handle and to deal with these special needs students. And that 
is again where the Federal Government comes in. And lastly, the 
Federal Government should be coming in with funds to rebuild 
and renovate and build our schools all over America and to 
bring them into the 21st century.
    So again, I must say that as a U.S. Senator I do have a 
national obligation. My obligation is nationwide in terms of 
education. But I'm also a U.S. Senator from the State of Iowa 
and my first obligation is to my constituents in this State. 
And I'm very concerned about what is happening in Iowa in 
education. I'm concerned that we in this State may be on a 
downward spiral of accepting ever lower and lower standards of 
what is the best. We always pride ourselves on being the best 
in Iowa. For a long time we were. But if we look in the mirror 
and are really honest with ourselves, we are no longer there. 
We can say we are, but we are not. And we can't just accept 
that and say, ``Well, we are okay.'' And then next year it will 
be down a little more and we will say, ``Well, that's okay.'' 
And that is what I'm afraid of happening. And I know Ted is 
very concerned about that too, about accepting ever and ever 
lower levels of what we accept as the best in the State of 
Iowa.
    And lastly, a couple of people mentioned this, aside from 
all of the other aspects of education, if we just want to get 
down to hard-headed, hard-nosed economics, if we want to really 
promote economic development in the State of Iowa, let's focus 
on education. We should make Iowa sort of the mecca of 
educational development in the United States. I have often 
said, we don't have beaches, we don't have mountains, and we 
don't go skiing--well, not really in Iowa--and we don't have 
all those kinds of things that attract people or industries to 
this State, but if we have, and I mean really have the best 
educational system in American, I mean everywhere from 
preschool, elementary, secondary, with the best support for 
every student who wants to go to college in this State and with 
the grants that they need to go to college, if we have the 
underpinning of all these things like TRIO and others, people 
will come here. People will want to live here. They will give 
up the beaches, they'll give up the mountains to make sure that 
their kids have the best possible education in America.
    I'm hopeful that my State representative and my State 
senator that represents me in the legislature think that way, 
think about looking upon this as investing in economic 
development in the State of Iowa. I mean, in the past we have 
thought about, oh, give tax breaks to businesses that want to 
come into Iowa. Okay. As far as that goes. But I don't know 
that that has really panned out that well. I think that, again, 
businesses will come here, as I said--based on what I said 
before. And I think we have to be looking upon education aside 
from the social aspects of it, just look upon it as hardheaded 
economics. If we want to grow in the State of Iowa, that is the 
way to do it.
    Well, I will get off my soap box here. I just want to thank 
Kirkwood and I want to thank Steve Ovel for helping us arrange 
this hearing this morning. We will now recess and move on to 
Clear Lake. So again, I thank you for being here, and please 
continue to e-mail me or write any thoughts, suggestions, 
advice, consultations you have on education matters. My door is 
always open. And I do not have a closed mind on this. I'm 
always looking for new ideas and suggestions on ways to improve 
education.

                          subcommittee recess

    Thank you very much, that concludes the hearing. The 
subcommittee will stand in recess until 3:30 p.m., Saturday, 
April 21, when we will meet in the E.B. Stillman auditorium, 
Clear Lake Middle School, Clear Lake, IA.
    [Whereupon, at 10:30 a.m., Saturday, April 21, the 
subcommittee was recessed, to reconvene at 3:30 p.m., the same 
day.]

 
        IMPACT OF THE NATIONAL EDUCATION BUDGET ON IOWA SCHOOLS

                              ----------                              


                        SATURDAY, APRIL 21, 2001

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Clear Lake, IA.
    The subcommittee met at 3:30 p.m., at E.B. Stillman 
Auditorium, Clear Lake Middle School, Clear Lake, IA, Senator 
Tom Harkin presiding.
    Present: Senator Harkin.

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. The hearing of the Appropriations Committee 
on Labor, Health and Human Services, and Education will come to 
order in Clear Lake, IA.
    For the benefit of the audience who is here, and others, 
our witnesses, this is an official hearing of the Senate 
Appropriations Committee, more specifically, of the Senate 
Appropriations Subcommittee on Labor, Health and Human 
Services, and Education, and Related Agencies.
    The purpose of this hearing, and the one we had this 
morning in Cedar Rapids, and this one here this afternoon, is 
to gain some testimony from our witnesses regarding their views 
and information and suggestions on the state of education and 
the balance between the budget and what we are doing on the 
budget in Washington and how that is going to affect education 
here in the State of Iowa.
    I am also going to ask, is there anyone here in the 
audience who needs interpretive services?
    I will ask it once more. Is there anyone here--please raise 
your hand if you need an interpreter.
    Ms. Fowler. I do not see anyone.
    Senator Harkin. Well, if not, then we will let Donna Fowler 
relax.
    Ms. Fowler. Thank you.
    Senator Harkin. Let me, first of all, thank our Clear Lake 
school officials: Mike Teigland, the superintendent; Bob Mondt, 
the principal of our Clear Lake Middle School; and Nick 
DiMarco, a teacher at Clear Lake Middle School, for all their 
help in helping set this up.
    I am told we have--I cannot see too well. I am told we have 
one county official here, the Cerro Gordo County treasurer, 
Mike Grandon.
    Where is Mike?
    Ms. Murray. Right there.
    Senator Harkin. Where is he?
    Ms. Murray. Right there.
    Senator Harkin. I cannot see anything. Yes.
    Hi, Mike.
    Mr. Grandon. Hi.
    Senator Harkin. You are sitting in the dark back there. Hi, 
Mike.
    And we will have the testimony of the witnesses. And then 
when we finish, I have a mike, I think, a roving mike someplace 
that I will ask for any statements or comments from members of 
the audience.
    I only ask that when you give a statement, or whatever, 
that you, for the benefit of our recorder, that you give your 
name and spell it. If it is more difficult than Jones, please 
spell it out for the reporter.
    Before I get to our witnesses, I will just make a short 
opening statement.
    Our country was founded on an ideal that no matter who you 
are or what the circumstances of your birth, that if you are 
willing to study and learn and work hard, you could be a 
success.
    That is the American dream. But unfortunately for too many, 
it is slipping away. With overcrowded classrooms, our 
students--and because of a lack of educational opportunities, a 
lot of kids do not have the opportunities that we once had.
    Now, for a long time we have been nibbling around the edges 
on this. We have tweaked a program or two here, we adjust a 
little funding here and there, but we have not made a real dent 
in real education reform for the 21st century.
    I always like--every time I have speaking engagements, I 
talk a lot about education. I always ask people if they can 
tell me how much of every Federal dollar is spent on education. 
Because, you see, budgets talk about priorities.
    What are your priorities? You have got so much money to 
spend. How you spend it says a lot about what our priorities 
are.
    So for every dollar that the Federal Government spends of 
your hard-earned tax money, I always ask people if they know 
how much goes to education. And I always get various answers.
    I hear 7 cents and 10 cents. The correct answer is 2 cents. 
Two cents of every Federal tax dollar goes for education. That 
just simply is not enough.
    Earlier this month we had a debate on our budget in the 
Senate. And my view on this was that we should use our proposed 
surpluses, which we do not really have yet, but we should use 
our surpluses to do two things: Pay down the debt and invest in 
education.
    I offered an amendment to that effect. I called it the 
Leave No Child Behind amendment, which would have invested $250 
billion of the proposed tax cut in education over the next 10 
years.
    That $250 billion, I know, sounds like a lot of money. It 
is. But keep in mind, it is only one-half of the amount of the 
tax benefits that would go to the top 1 percent of the richest 
Americans. Only one-half of that would be able to give us the 
$250 billion.
    Well, that means that we could fully fund the Head Start 
program. We could continue to reduce class sizes down to no 
more than 18 in grades one through three. We could repair and 
rebuild our school buildings.
    We could fully fund the Individuals with Disabilities 
Education Act. We could double the funding for Title I reading 
and math. We could increase the funding for Pell Grants, and 
have more skilled workers by investing $10 billion in job 
training.
    The President said that we want to leave no child behind. I 
agree with that philosophy. But we have to work, again, with 
the budget.
    The budget has a $1.6 trillion tax cut, but only $21.3 
billion for education. So the tax cuts are 76 times greater 
than the investment that we would have for education. So again, 
we have to ask the question of whether or not these are the 
right priorities.
    So again, today we are holding two hearings in Iowa to 
examine the impact of the national education budget on Iowa 
children and schools.
    Again, we have heard testimony this morning and we will 
hear testimony this afternoon from the real experts: Students, 
parents, teachers, school administrators, school board members, 
financial aid directors, and college presidents.
    We'll learn more about the important role that various 
Federal programs play in helping all Iowans. So I want to thank 
you all for coming and participating in this important hearing.
    As I said, at the conclusion of the panel, I will open it 
up for questions and statements from the audience.
    Our panel of witnesses this afternoon, we will start first, 
again, with Dr. David Buettner, the president of the North Iowa 
Area Community College. He has served as president since July 
of 1981. Dr. Buettner graduated from Southern Illinois 
University, got his master's degree from the University of 
Illinois, and his Ph.D. from Ohio State University.
    Dr. Buettner served as campus president at Southeast 
Community College in Lincoln, Nebraska, before coming to North 
Iowa Area Community College.
    And, Dr. Buettner, welcome.
    And for all of the witnesses, your prepared statements will 
be made a part of the record. I would ask that you just 
summarize those statements and make the major points.
    Dr. Buettner.
STATEMENT OF DR. DAVID BUETTNER, PRESIDENT, NORTH IOWA 
            AREA COMMUNITY COLLEGE
    Dr. Buettner. Thank you, Senator Harkin. Thank you for the 
opportunity to comment on the impact of the national budget on 
our college and our students and our constituents.
    As you know, NIACC enrolls about 2,800 credit students each 
year in a wide array of transfer and career preparation 
programs. And I know that you know quite a bit about our 
extensive involvement in secondary education in the region.
    A lot of people do not realize that NIACC and the school 
districts of North Iowa partner to provide vocational education 
and early college opportunities in a widening array of 
subjects.
    Just this semester, 625 students are involved in tech prep 
or early college opportunity programs while still in high 
school. Working with almost every employer in the region, we 
also deliver an enormous amount of training and retraining for 
workers.
    We have a new partnership with the Iowa Workforce 
Development Department, of which we are very proud. We feel 
that we have had tremendous success in helping people move off 
the welfare rolls and regain employment.
    The National Education Budget does affect--does support all 
of these endeavors and promises to affect each of them.
    I'd like to just take each one, if I could, for a moment.
    Senator Harkin. Absolutely.
    Dr. Buettner. In the vocational education area, tech prep 
funding through the Perkins legislation is the primary resource 
that we have used to create the partnerships throughout North 
Iowa.
    We have made significant gains. We have programs in about 
two-thirds of the school districts throughout the region. And 
we have covered about 75 percent of the occupational areas we'd 
like to cover at some point.
    Unfortunately, President Bush's budget calls for no new 
money for Perkins block grants and proposes zeroing out the 
demonstration grant for tech prep. And, of course, we're 
particularly concerned about that.
    As popular as our tech prep and our early college programs 
are, they are probably among the most precariously funded and 
supported programs we offer. Over 90 percent of the students in 
those programs eventually wind up in college programs on campus 
for a second year of study.
    We have talked so much about the need to lower the cost of 
higher education and reform higher education, without claiming 
that we envisioned all of this from the beginning, we now 
realize that our tech prep program and our early college 
opportunity program does, in fact, shorten the time period 
required and significantly lower the cost to families for the 
higher education.
    People can now--young people can now enroll in vocational 
education programs and early college programs while still in 
high school and essentially complete up to the first full year, 
with the support of college and the local school districts, 
using, to a great extent, Federal funds Perkins and tech prep 
which we pool with the local schools.
    So when a young person shows up at NIACC's doorstep as a 
high school graduate, first of all, they have completed a full 
year of college, in some cases, and second, the college and the 
school district and the State of Iowa, the Federal Government 
have paid for that first year.
    So we have, in fact, figured out a way to lower the cost 
and the time required to complete a baccalaureate degree or 
vocational education program. I really believe these programs 
are absolutely key to helping young people thrive in the 
decades ahead.
    Just in my lifetime I have witnessed almost a complete 
erosion of means for a person without exceptional skills to 
earn a good living. I am not sure I am saying that very well. 
But there was a time when a person could find a good wage 
earning job that provided the avenue to a comfortable 
lifestyle.
    Today that is not the case. The only real avenue to a 
comfortable lifestyle today is high skills. And these programs 
are really instrumental.
    Let me move on and talk just a bit about workforce 
development. They have always told me not to take all the bolts 
out of the rudder at once. But we have practically done that 
with the workforce development system in Iowa.
    We have completely disassembled it and reassembled it. The 
Workforce Investment Act is a complete overhaul of a system 
that needed a complete overhaul. And I am really proud of the 
progress we have been able to make.
    We now have a One Stop Center that we operate in 
partnership with the Iowa Workforce Development Department. And 
that center is, in fact, serving the needs of clients with 
multiple problems, multiple agency needs. And it is working.
    In the past, people would sometimes find their way through 
that maze. In many cases they would not. I am really proud of 
what we have been able to do there. We do have some growing 
pains there. And I am hopeful that somewhere in the upcoming 
session that we could find a way to do some refining of the 
system.
    The Training Provider Certification has been a bit of a 
burden for all of us. We are so scrutinized and we spend so 
much time proving to everyone that the programs that we offer 
are effective and successful that sometimes I think we could 
skip one of those steps and probably not put anyone at great 
risk.
    Also, some of the funding commitments for spending under 
the WIA, Workforce Investment Act, is low at this time. And I 
am concerned that that might indicate or hint at an opportunity 
for some cutback in support.
    I think that probably would be a mistake because, frankly, 
it is taken us a while to bring these programs up to speed and 
really get them rolling. And we are making commitments to 
clients to support them.
    And while those funds have not yet been expended, those 
commitments are there. And I am concerned that we do not blink 
at this point. I think we have a good system. And I'd like to 
see it improved.
    The Workforce Investment Act requires people to use the 
Pell Grant money to pay tuition and does not allow the 
Workforce Investment Act funds to do that.
    Under the old program, the JTPA program, people would use 
JTPA funds to pay tuition, and the Pell Grant was used to help 
pay living expenses. It was a more workable system for people 
who needed complete support.
    I encourage you to go back and take a look at some of those 
strategies and see if we could make some refinements in the 
Workforce Investment Act.
    I'd like to comment a little bit about financial aid. You 
commented on the American dream a minute ago. I remember, when 
I first went to college, my first quarter tuition for a full-
time student at Southern Illinois University was $28.
    I think it was $44 shortly thereafter. So it was a terrible 
increase in price. I know NIACC sends bills to students every 
semester now in the neighborhood of $1,200 to $1,300.
    That is quite a difference. Consider, if you would, the 
contrast between my era where I watched people benefit from the 
GI bill where we provided them a free education and encouraged 
them to do good.
    Today we have young people graduating from college with 
loan deficits, loan balances of $15,000, $20,000 and even 
$30,000. Recent improvements in the Pell Grant have enabled us 
to reverse the trend of increased loan debt.
    NIACC has actually made some progress now in lowering the 
average loan debt in the last year or so. And for this coming 
fall, we have a great improvement in Pell Grant support. And 
we're really excited about that.
    I am a little bit concerned that the campaign promises 
surrounding the Pell Grant might be at risk or a thing of the 
past.
    There was talk of a $5,100 maximum Pell Grant and front 
loading to help students their first year or two. Those are 
great ideas and I really hope that we can somehow protect them.
    And finally, let me just comment, NIACC is really like a 
lot of employers, organizations, really, frankly, like all of 
us, struggling with technology. Our special problem is that it 
is our job to help people learn about technology. So we really 
have to try to stay at the cutting edge.
    We have to have faculty development programs. We have to 
somehow keep up with the trends. In the technology area, the 
equipment needs are just staggering.
    The Federal Education Budget includes one program that has 
the flexibility and the capability to really help schools like 
ours, and that is the Title III program. This is a terrific 
program. And it has done terrific things for our college.
    In the mid-1980s, we had two Title III grants that were 
just a phenomenal success. We're competing for new Title III 
monies as we speak. But I would urge you to try to protect the 
level of funding, perhaps the future funding for Title III, 
because it does have the promise to really help schools like 
ours in the future.

                           prepared statement

    Again, I really appreciate the opportunity to comment, 
Senator. I'd be more than happy to try to clarify any of this, 
if I can. My formal comments have been submitted. Thank you.
    [The statement follows:]
                  Prepared Statement of David Buettner
                              introduction
    Thank you for the opportunity comment on the impact of the National 
Education Budget on Iowa children and schools. Senator, as you know, 
NIACC enrolls about 2800 credit students each year in a wide array of 
college transfer and career preparation programs. And, you know quite a 
bit about our extensive involvement in secondary education in the 
region. Many people do not realize that NIACC and the school districts 
of North Iowa, including Clear Lake, partner to provide vocational 
education and early college opportunities in a widening array of 
subjects. Just this semester, 625 high school students are enrolled in 
Tech Prep or early college courses while still in high school. NIACC is 
also heavily involved in a wide array of workforce development 
endeavors. Working with almost every employer in the region, we deliver 
an enormous amount of training and retraining throughout the area. And, 
relatively few people know about our new partnership with the Iowa 
Workforce Development Department, through which we work with other 
agencies to help people, who might otherwise languish on the 
unemployment and welfare rolls, gain or regain work. The National 
Education Budget affects all of these endeavors and more.
                          vocational education
    Let me begin with Vocational Education and Tech Prep, over which we 
worry most. NIACC, in cooperation with surrounding schools, offers Tech 
Prep opportunities on its main campus, at hub sites, and at various 
local schools. All of the cooperating schools, including the college 
pool resources to operate these programs. The College, working with the 
Area Education Agency, provides much of the leadership and logistical 
support for the program with the aid of Perkins (vocational education) 
and Tech Prep demonstration funds. This program is very successful and 
could grow significantly in the years ahead.
    Unfortunately, President Bush's budget calls for no new money for 
Perkins block grants or Tech Prep, which is used by high schools and 
community colleges to provide vocational/technical training. Let me 
reiterate, our region, as a result of Perkins and Tech Prep funding, 
has made significant gains in developing vocational programs which link 
NIACC's vocational programs to virtually all high schools in our 
service area. We are especially disheartened to learn that the new Tech 
Prep budget eliminates funding for ``Tech Prep Demonstration Sites'' at 
a Community College. Over 90 percent of our students who participate in 
a Tech Prep Program while in high school continue with postsecondary 
education. These are effective and quality programs, requiring 
continued investments if we are to advance the quality of life of 
individuals in the state and achieve our workforce and economic 
development goals.
                         workforce development
    The Workforce Investment Act has enabled us to expand and 
strengthen our partnership with the Iowa Workforce Development 
Department. Working together, we have created the North Iowa Workforce 
Development Partnership, combining the former Job Service, local JTPA 
operation, College Placement, and College economic development 
promotion efforts under one umbrella. Together, we have created a ``One 
Stop Workforce Development Center'' located on South Pierce Avenue in 
Mason City where we are joined by other agencies, including Vocational 
Rehabilitation, as we extend our services to clients in a convenient 
and effective manner. Satellite operations boost the One Stop Center's 
reach and are located at the College, Forest City, and Charles City.
    These efforts are working smoothly and efficiently. Today, clients, 
who, before, had to find their way literally from one office to the 
next (and who sometimes did not do so) find closely coordinated 
services available under one roof. More importantly, services are 
refined and more effective in addressing clients with multiple needs 
and issues.
    It is important to understand the magnitude of the change that has 
been engaged. We have essentially redesigned the entire system from the 
ground up. While we are proud of our progress, it may be too early to 
judge overall results and too early to project current figures for 
operation at full scale. In fact, we worry that low expenditures in 
some aspects of the program may appear to be opportunities to scale 
back support. In reality, we are likely to see these expenditures move 
up steadily as we continue to refine and hone our workforce development 
operations.
                           some growing pains
    I have polled our staff in preparation for this opportunity and 
have found only a few areas of concern. First, the requirement to have 
Training Provider Certification has backfired. The good intent to give 
the client a choice of providers has actually cut down the number of 
providers because some institutions do not think it worth the data 
collection and paper work that is needed to have the certification. 
Participants end up with less choice. And, the training providers are 
often scrutinized and accredited by other agencies, making the 
certification process somewhat redundant.
    Second, cutting back the funding for WIA is short-sighted. 
Expenditures are low now, but participants have had funds obligated in 
order to complete their programs. Participants come on board, and we 
need a stable funding stream to serve them and to be able to add new 
clients. The lower funding levels will result in lower enrollments. The 
program needs time to get off the ground.
    Another concern is that, unlike the Job Training Partnership Act, 
the Workforce Investment Act requires participants to use the Pell 
Grant for tuition and books. Under JTPA, if a participant showed 
``financial need,'' JTPA funds would pay for tuition and books, thus 
allowing the student to use Pell Grant money for living expenses. Many 
students need far more financial help than just tuition and books. Most 
are only able to work part time while attending college and find it a 
real hardship to pay monthly bills, to say nothing of unforeseen 
expenses such as car repairs, medical, or pharmacy bills. This impacts 
our ability to subsidize training for the Adult Program. To qualify, 
persons must be economically disadvantaged, and, in most cases, they 
will receive a Pell Grant. Consequently, WIA funds would only be used 
for child care and/or transportation costs if applicable. Many 
individuals who need and want retraining are unable to pursue these 
opportunities because the Pell Grant alone is not enough.
    I'm under the impression that it is more difficult to place a 
client into meaningful training today than it was a few years ago. 
Efforts to lower costs, score well on simplistic outcome measures, or 
to excessively scrutinize client or provider qualifications have 
conspired to reduce the number of participants getting more than the 
most superficial of services.
    I want to continue to argue for a support system which 
distinguishes between quick fixes and those which may survive the first 
economic downturn. I know that the College's two-year vocational-
technical programs have that kind of power and potential.
                             financial aid
    Strong financial aid is what keeps the ``American Dream'' alive. 
People still can make something significant of themselves in America 
even without a substantial financial starting place. That is possible 
because of the nearly universal access to postsecondary education made 
possible by community colleges and federal financial aid.
    For example, costs to attend NIACC and other higher education 
institutions this fall are increasing by an unusually large amount, due 
primarily to the state's budget troubles. But for students who have 
qualified for a Pell Grant (currently 28 percent of the student body), 
those costs are manageable. When one considers all financial aid, over 
47 percent of our students participate with financial help of some 
kind.
    Next year, that would not be the case if President Bush abandons 
his Pell Grant campaign pledge, as is rumored. As harmless as annual 
tuition increases appear to be, they have an insidious effect in the 
long run. I can't help but note the generational shift that has played 
out in my lifetime in education. Recall the strategic effect of the GI 
Bill. Following the GI Bill era, tuitions were low, and the advent of 
community colleges sustained low-cost access to higher education 
through the next decades. Through the 80s and 90s, tuitions began to 
increase substantially, but aid programs grew, too. And, the lion's 
share of that aid was comprised of grants and scholarships. Today, 
tuitions are generally high and getting higher. And today, the lion's 
share of aid is comprised of loans. What a shift in public policy--from 
the GI Bill to a time where many students graduate with loan balances 
in excess of $15,000, $20,000 or even $30,000.
    Recent increases in support for the Pell Grant Program have 
promised to reverse this worrisome trend. NIACC, for example, has been 
able to reduce the average loan balance of its graduates who borrow 
under the federal financial aid loan program to under $5,000. Without a 
strong Pell Grant Program, this improvement would not be possible.
    Urge the President and the Congress to uphold the campaign pledge 
of a $5,100 maximum Pell Grant concentrated in the early college years.
                 strengthening institutions/technology
    The Title III Program is the backbone of significant innovation at 
many community colleges. NIACC has benefited greatly from Title III 
support in the past and is presently competing in the current funding 
cycle. Today, most institutions are struggling to fulfill their 
missions related to technology education.
    Numerous studies now demonstrate the strong connection between 
technology, workforce productivity, and overall economic growth.\1\ \2\ 
For example, although IT industries still account for a relatively 
small share of the economy's total output--an estimated 8.3 percent in 
2000--they contributed nearly a third of real U.S. economic growth 
between 1995 and 1999.\3\
---------------------------------------------------------------------------
    \1\ Andrew Whinston, Anitesh Barua, Jay Shutter, Brant Wilson, and 
Jon Pinnell. Measuring the Internet Economy. Austin, Texas: University 
of Texas, January 2001.
    \2\ Andrew Whinston, Anitesh Barua, Jay Shutter, Brant Wilson, and 
Jon Pinnell. Measuring the Internet Economy. Austin, Texas: University 
of Texas, June 6, 2000.
    \3\ Patricia Buckley, Sandra Cooke, Donald Dalton, Jesus Dumagan, 
Gurmukh Gill, David Henry, Susan LaPorte, Sabrina Montes, Dennis 
Pastore, and Lee Price. Digital Economy 2000. Washington, D.C.: 
Economics and Statistics Administration, U.S. Department of Commerce, 
June 2000.
---------------------------------------------------------------------------
    High skill levels are vital in a technology-based and knowledge-
intensive economy. Changes associated with rapid technological advances 
in industry have made continual upgrading of professional and 
vocational skills an economic necessity. It is exceedingly difficult, 
but vitally important, for community colleges to keep up with rapid-
pace technological advances in business and industry. Yet, if are to 
meet workforce expectations, adequate instructional equipment, 
curricula, and staff development must be made available to achieve our 
goals.
    The Title III Program offers the flexibility and resources to 
address these needs. I urge you to protect and improve this important 
program.
    Thank you, again for the opportunity to offer our views.

    Senator Harkin. Dr. Buettner, thank you very much. And I 
will get back with some questions for all the panel when we--
when we get through the full panel.
    Next I would like to introduce Jolene Franken, who is 
president of the Iowa State Education Association. Jolene has 
taught elementary school for 30 years, beginning in Sutherland, 
Spencer, and most recently Denison.
    Most of her early elementary experience was in first grade, 
though the last 5 years she's been involved in the program for 
talented and gifted students in grades K through 5.
    Jolene earned her bachelor's degree from Greenville College 
in Greenville, Illinois, and her master's degree in elementary 
education at Northwest Missouri State University.
    Jolene, it is good to see you. And thank you for being here 
today.
STATEMENT OF JOLENE FRANKEN, PRESIDENT, IOWA STATE 
            EDUCATION ASSOCIATION
    Ms. Franken. Thank you, Senator. Welcome to the State that 
educates on the cheap. That is just my own cheap shot.
    Recently, I read an editorial in the Omaha World Herald 
about ``temporizing teachers.'' When discussing the current 
proposals on teacher pay, the statement is made: ``It is not 
the best plan that could be drafted, but it'll help.''
    That is happening all too often in Iowa as well. When it 
comes to funding education, we are just trying to do whatever 
is doable instead of what really needs to be done. We are not 
really demanding that issues be faced and that problems be 
defined and solutions crafted. We expect--accept partial 
remedies because they are doable.
    That kind of an attitude will only lead us into a state of 
educational mediocrity, not the high-quality education our 
students deserve and that the students have benefited from for 
so many years.
    I have to say that these statements also describe Federal 
funding for education, Senator, that is until you started 
talking about your ``Moonshot for Education,'' which I think is 
just great. That is the kind of bold initiative we need if 
we're going to solve the problems facing education today.
    Our students deserve no less than the kind of resources and 
support that was committed to the space race in the early 
sixties if they are to receive the finest education possible.
    And, Senator, your proposal, as I understand it, would 
bring an additional $244 million in Federal IDEA funding over 5 
years in Iowa. That would be greatly appreciated.
    A full funding of that act, the Individuals with Disability 
Education, was only slated to be at 40 percent. That was called 
full funding, 40 percent, when it was originally drafted. And 
only recently have we gotten out of single figures of funding 
it at the Federal level, which is inexcusable.
    We need to increase funding for Title I programs and Head 
Start preschool programs. And these are programs that provide 
funding for low-income schools and for students.
    And everyone knows that children who have a high-quality 
preschool Title I program perform better when they get to 
school for their formal education. It is kind of like the farm 
team prior to the big leagues.
    We need to triple the current Federal funding as you've 
proposed and provide resources for teacher professional 
development.
    Research indicates over and over again, the number one 
determinant of student achievement and student learning is the 
quality of the teacher in the classroom. And if we do not do 
more to help our teachers handle the kinds of situations they 
have in the classrooms today, we are not going to have high-
quality education.
    Teachers need high-quality professional development to meet 
those changing needs for our workforce and our community.
    Maintaining the class size reduction program and keeping it 
on track to recruit the total of 100,000 new teachers is very 
essential to Iowa.
    There is case after case that proves class size is 
essential to the learning of students. And anyone who's taught 
30 students in a classroom versus 20 students in a classroom 
knows how right I am. You do not get to do very individual 
types of instruction and you do not get to do hands-on 
experiential learning that is so important to help children 
learn.
    In order for teachers to do their best, they must know 
their students' learning needs, their styles, their strengths 
and their weaknesses. And these things are impossible in a 
large classroom.
    Teachers are being expected to do more and more, be more 
and more accountable for things they have absolutely no control 
over. We cannot work miracles in 7 hours a day when students go 
home to another 17 hours of environment that negates everything 
we have tried to do during the day.
    You may be familiar what the legislature's contemplating 
doing this year, of cutting our class size legislation here in 
the State as well as our technology money. So the Federal money 
will be even more important.
    There is no precedent for the violence, drugs, broken 
homes, child abuse and crime in today's America. Public 
education did not create these problems, but we have to deal 
with them every single day.
    For millions of kids, the hug they get from a teacher is 
the only hug they get that day, because America is living 
through some of the worst parenting in history, through no 
fault of their own. Some of them are having to work two, three 
and four jobs just to make a living. They have less time to 
spend with their children at home.
    A Michigan principal moved me to tears with the story of 
her attempt to rescue a badly abused little boy who doted on a 
stuffed animal on her desk. The ribbon on it said, ``I love 
you.'' He said he'd never been told that at home. That breaks 
my heart.
    The constant in today's society is 2 million unwanted, 
unloved and abused children in public schools. And we're the 
only institution that takes them all in.
    Let me share just a few statistics from the School Nurses 
Association. Thirty one percent of Iowa's sixth through 11th 
grade students have experimented with tobacco products. Fourty 
six percent have experimented with alcohol. Thirty eight 
percent have experimented with drugs such as marijuana, 
amphetamines, inhalants, cocaine, and steroids.
    These are the reasons why we need to double the current 
funding for after-school programs. Being an elementary teacher 
for over 30 years, I know what happens to kids when they leave 
the school. And it is not all positive. I had two first graders 
one year set a shed on fire after school. So I know what's 
going on.
    There is a teacher shortage in Iowa and it is very, very 
serious. We are at a crisis situation right now. Nationwide we 
need to hire 2.2 million teachers just to replace who's there. 
That doesn't account for increasing enrollment. It doesn't 
account for class size reduction legislation. That is just to 
replace who's there.
    Iowa is losing almost double the national rate of teachers 
after their first year of teaching, 17 percent. After 3 years, 
we're losing 28 percent.
    Those are staggering figures. But when you compound those 
with a 40 percent retirement rate in the next 6 to 7 years we 
are really in serious trouble. And to coin a phrase, you might 
say ``Houston, we have a problem.''
    These happen to be K-12 numbers. And I know our community 
college friends are also in danger of losing a lot of 
instructors and are having a hard time finding replacements.
    Back in the old days when I became a teacher, I only had 
two choices of a profession, to be a nurse or be a teacher.
    That is not the case today. Women have many, many more 
opportunities. And it is not just school we're competing with 
or the school down the road. It is the other fields of 
occupation, the other professions and the other States. So we 
have serious problems here. And I want to emphasize that to 
you.
    We appreciate very much the work that you've done on school 
modernization. With $28 million coming to Iowa in the first 3 
years of your Harkin Grant, that has generated $311 million in 
construction. That is big for Iowa. We have to do things to 
jump-start our economy and get things going. That kind of thing 
helps.
    I want to just share a couple of other things with you. And 
one of them is a quote from the wonderful African-American 
historical figure, Harriet Tubman. ``Within our reach lies 
every path we ever dream of taking. And within our power lies 
every step we ever dream of making. Every great dream begins 
with a dream for the stars, to change the world.''
    Senator Harkin, your Moonshot for Education is that dream. 
We need to make it a reality. Our students deserve no less than 
an all-out effort to keep education a top priority and to fund 
it like it is the No. 1 priority, not just give it political 
rhetoric in a campaign season.
    Everyone holds teachers and administrators accountable for 
student learning. But where is the accountability for 
politicians who do not vote the funding that they say they want 
to give? We have experienced enough of that in Iowa.

                           prepared statement

    It is the bottom of the ninth inning and the bases are 
loaded. We need our lawmakers at every level of government to 
rally around our children and around public education.
    It is about respect. It is about priorities. And it is 
about time.
    [The statement follows:]
                  Prepared Statement of Jolene Franken
    Recently, I read an editorial in the Omaha World Herald about 
``temporizing teachers'' When discussing the current proposals on 
teacher pay, the statement is made: ``It's not the best plan that could 
be drafted but it'll help''.
    That's what is always said in Iowa, too, when it comes to funding 
education. ``All too often, we as a state aren't demanding that issues 
be faced, problems be defined and solutions crafted. We accept partial 
remedies because they are doable.'' That kind of attitude will only 
lead us into a state of educational mediocrity, not the high quality 
education our students deserve and have benefited from for so many 
years!
    I have to say these statements describe federal funding for 
education, as well until Senator Harkin started promoting his 
``Moonshot for Education''. That's the kind of bold initiative we need 
if we are to SOLVE the problems facing education today! Our students 
deserve no less than the kind of resources and support that was 
committed to the space race in the early 60's, if they are to receive 
the finest education possible. The Senator's proposal would bring an 
additional 244 million federal dollars in IDEA over 5 years to Iowa.
    What are the keys to high quality education?
  --full funding of Individuals with Disabilities Education Act (IDEA) 
        even this as originally drafted only called for federal funding 
        at the 40 percent level but it has only recently gotten above 
        single digits. (Next year Iowa will receive $70.4 million.)
  --increased funding for Title 1 programs and head start preschool 
        programs, provide funding to low-income schools and students 
        everyone knows that children who have been through a quality 
        pre-school/title 1 program performs better in classroom formal 
        instruction. It's like the farm team prior to the big leagues! 
        (Next year Iowa will receive $55.4 million in Title I.)
  --triple the current federal funding provided for teacher 
        professional development Research indicates over and over, the 
        number one determinant of student achievement is the quality of 
        the teacher in the classroom. Today's schools do not have the 
        students of the 50s, nor do they operate like the schools of 
        the 50s. But folks in the governing/law making bodies, only 
        have that model/concept of education in their minds. Teachers 
        need high quality professional development to meet the changing 
        needs of students, workforce needs, and communities.
  --maintaining the class size reduction program, keeping it on track 
        to recruit a total of 100,000 new teachers. There is case after 
        case that proves class size is essential in the learning of 
        students. Try teaching 30 students vs 20 students and see how 
        much individual help you can give to students; how much hands 
        on experiential learning you can do; classroom management/
        discipline is a nightmare with 30 vs 20. In order for teachers 
        to do their best, they must know their students needs, learning 
        styles, strengths and weaknesses these things are impossible 
        with large class sizes. Teachers are being expected to do more 
        and more be more and more accountable for things they have 
        absolutely no control over. We cannot work miracles in 7 hours 
        a day when students go home to another 17 hours of environment 
        that negates everything we try to do. (Next year Iowa will 
        receive $12.8 million in class size reduction federal money.)
    There is no precedent for the violence, drugs, broken homes, child 
abuse, and crime in today's America. Public education didn't create 
these problems but deals with them everyday. For millions of kids, the 
hug they get from a teacher is the only hug they will get that day 
because America is living through the worst parenting in history.
    A Michigan principal moved me to tears with the story of her 
attempt to rescue a badly abused little boy who doted on a stuffed 
animal on her desk. The ribbon on it said, ``I love you!'' He said he'd 
never been told that at home.
    The constant in today's society is two million unwanted, unloved, 
abused children in public schools, the only institution that takes them 
all in. Let me share some statistics with you from the School Nurse 
Association:
  --31 percent of Iowa's 6th-11th grade students have experimented with 
        tobacco products
  --46 percent have experimented with alcohol
  --38 percent have experimented with other drugs such as marijuana, 
        amphetamines, inhalants, cocaine, and steroids.
  --These are all reasons for why we need to double the current funding 
        for after school programs. Being an elementary teacher for over 
        30 years, I know what happens to kids when they leave school. 
        If no one is at home, they FIND things to do not all are lawful 
        or positive. One year I had 2 first graders go home and start a 
        shed on fire. That might be only the beginning for more serious 
        behavior activities!
    Then there is the teacher shortage that Iowa and other states are 
facing. During this decade we need to hire 2.2 million teachers in 
America just the replace the ones who are currently teaching. That does 
nothing to address the needs of lowering class sizes and increasing 
populations. In Iowa, we lose 17 percent of our first year teachers, 28 
percent leave after 3 years. Compound that with a 40 percent retirement 
rate of current high quality veteran teachers and ``Houston, we've got 
a problem''. These happen to be K-12 numbers but the Community college 
numbers are very similar, I think.
    Back in the old days, I only had 2 choices for a profession be a 
nurse or be a teacher. Isn't it interesting that these are 2 shortage 
areas today and both are female dominated? Today, women have numerous 
professional choices. So schools are competing not only with other 
schools and other states but with other professions. The University of 
Northern Iowa recently completed a study of the shortage numbers. If 
everything stays the same as today, by 2006 we will be short at least 
1200 teachers. Administrators ranks will be depleted by half.
  --Senator Harkin's work on school modernization has been wonderful 
        for schools all across America. In Iowa alone, $28 million came 
        to Iowa in the first 3 years. That $28 million in Harkin Grants 
        generated $311 million in construction and renovation projects 
        for 161 school districts to address fire code violations and 
        subsidize the cost of construction. This provides jobs which 
        help our state's economy. Local school districts matched this 
        federal money. Until this year, there had never been any state 
        money provided for infrastructure.
  --I have pretty much talked about K-12 but I must mention the need to 
        increase Pell grants for our higher education students. Iowa's 
        community college students are paying and will be paying some 
        hefty increases in student tuition. Our community colleges are 
        the key to retraining our workers who have been laid off in 
        downsizing. If we don't retrain them and keep them in Iowa, 
        they too will join the brain drain from Iowa to anywhere else! 
        More than 85 percent of community college graduates stay in 
        Iowa. We cannot afford to lose anyone!
    I just want to close with a few meaningful quotes: Marian Wright 
Edelman, founder of the children's Defense Fund: ``If you don't like 
the way the world is, you change it. You have an obligation to change 
it. You just do it one step at a time.''
    Lucinda Adams, President of the American Alliance of Physical 
Education, Recreation and Dance said, ``Individually, we can make a 
difference while collectively we can make changes. We have the 
knowledge, skills, professional talents, and passion to make important 
changes in the lives of those we teach and serve.''
    Harriet Tubman: ``Within our reach lies every path we ever dream of 
taking, within our power lies every step we ever dream of making. Every 
great dream begins with a dream for the stars, to change the world!'' 
Senator Harkin, your Moonshot for Education is that dream. We need to 
help make it a reality. Our students deserve no less than an all out 
effort to keep education a top priority and fund it like it is the 
number 1 priority not just give it political rhetoric in a campaign 
season. Everyone holds teachers and administrators accountable for 
student learning, but where is the accountability for politicians who 
don't vote to fund what they SAY. We have experienced enough of that!
    It's the bottom of the ninth inning and the bases are loaded. We 
need our lawmakers (at all levels of government) to rally around 
children and public education.
    It's about respect. It's about priorities. It's about time!

    Senator Harkin. Thank you very, very much. That was great. 
I like that. Thank you very much, Jolene. That was great.
    And now we will turn to Dr. Lawrence McNabb.
    Dr. McNabb is the superintendent of schools of the Osage 
Community School District. He previously served as the 
superintendent for the Gladbrook and Reinbeck Community School 
districts.
    Prior to his 10 years as an Iowa school superintendent, Dr. 
McNabb spent 8 years as a high school principal and 12 years as 
a social studies teacher and athletic coach.
    Dr. McNabb earned both his bachelor's and master's degrees 
from the University of Iowa.
    Thank you very much for being here, Dr. McNabb.
STATEMENT OF DR. LAWRENCE J. McNABB, SUPERINTENDENT OF 
            SCHOOLS, OSAGE COMMUNITY SCHOOL DISTRICT, 
            OSAGE, IA
    Dr. McNabb. Thank you.
    First of all, Senator, I'd like to thank you for the 
opportunity to testify on behalf of Iowa's public school 
children. I have long appreciated your outstanding support of 
education throughout your career.
    I speak today on behalf of nearly 2,000 members of the 
School Administrators of Iowa--principals, central office 
administrators, and superintendents.
    We have a slogan here in North Iowa that we use to remind 
us of our commitment. And it says very simply, ``Kids Matter 
Most.'' That is what we're about. And yet Iowa's schools face 
serious difficulty. And only a major influx of new resources 
can save our children.
    Iowa's schools are funded in the State level on a per pupil 
basis. And most Iowa school districts are experiencing 
declining enrollment.
    Thirty percent of Iowa's school districts last year 
received no increase in funding at the State level. Yet despite 
limited resources, the challenge has continued to multiply.
    Numbers of children come to us each year unprepared for the 
formal learning that takes place in schools. They have not had 
the experiences or the support that they needed at home to 
enable them to meet the challenges we provide.
    The range of ability among entering students widens each 
year. Expanding Head Start services is essential to leveling 
the playing field for those students.
    Poverty may be less visible in rural Iowa, but it is just 
as real as it is in the cities. Our district is considered a 
fairly affluent one. Yet one-fourth of my children would 
qualify for free and reduced-priced lunches.
    If not for what Meredith Wilson characterizes as ``Iowa 
stubbornness''--I prefer to think of it as fierce 
independence--even more of my families could and would qualify 
for free and reduced lunch.
    This past year our district received $17,000 from the 
Federal Government for class size reduction. That is not enough 
to hire a single teacher. But yet by putting that money 
together with monies from other sources, we have been able to 
make our kindergarten an all-day, everyday program. And we 
think that is essential for our kids.
    But finding money to continue that kind of commitment is 
going to be difficult for us. Our transportation costs are up 
20 percent this year. Within the last 3 weeks the price of 
gasoline has gone up 20 cents a gallon in my school district. 
Our energy costs for natural gas and electricity are up 63 
percent over the previous year.
    Choices are not easy. Our district is looking at 60 
students entering our kindergarten program next fall. Do we 
provide three sections or four? That is a $35,000 question for 
us. The temptation to choose larger sections and have the money 
for other purposes is great.
    I commend our school district for making the choice for 
kids. We'll have four sections next fall. Many districts 
wanting smaller class sizes lack the space to house them. It is 
not merely a matter of funding teachers, but it is an 
infrastructure issue as well.
    Communities are already financially strapped. They would 
find it difficult to pass bond issues or even find funds to 
maintain their existing facilities.
    Our district is not immune. Our fourth and fifth graders 
are educated in a facility that was built in 1916. We have 
spent a great deal of money on that building to keep it a 
usable facility, including making it handicapped accessible. 
But it is still an 85-year-old building.
    It is hard for people to understand that our high school 
lacks adequate space. We educate one-third fewer students than 
we did at our peak enrollment.
    By taking classrooms for special education, for talented 
and gifted programs, creating computer rooms, all of that has 
led to a shortage of available space for our regular program.
    We have had to turn a former storage area into a classroom. 
We have been forced to locate a class on a daily basis in our 
ICN room.
    In our aging community, the likelihood of being able to 
pass a bond issue is slim. Many of our people are on fixed 
incomes. Despite positive feelings for students and for our 
school, they would not and could not support a bond issue. 
Without help, our infrastructure needs will go unmet.
    Districts are facing more and more difficulty in finding 
qualified teachers. In recent years we have had only one or two 
applicants many times for teaching positions. Forty percent of 
the teachers in my district are going to retire within the next 
10 years. Class size decisions will not matter much if I cannot 
find qualified staff to fill those needs.
    Six years ago, Federal dollars paid the entire cost of my 
Title I program. Now those dollars fail to pay even the cost of 
the instructors. I cannot overemphasize the importance of that 
program.
    Dr. Connie Juel, of the University of Virginia, says that 
88 percent of the students who cannot read on grade level by 
the end of first grade will never catch up.
    Many Iowa districts incur deficit spending in special 
education. In the mid-1970s, the Federal Government made a 
commitment to fund 40 percent of the excess costs of special 
education. At present, they're only funding about 15 or 16 
percent.
    Fully funding programs would ensure that students with 
special needs would have the programming they require without 
taking resources from other programs and other students.
    Skills in the use of technology are important for life in 
the 21st century. Developing those skills requires students to 
have access to the latest technology. Right now the Federal 
Government's commitment to technology in my district is $5 per 
student. That is not enough to keep my kids in computer disks, 
certainly not anything that would help with software or 
hardware needs.
    Four out of every five Osage graduates goes on to some form 
of continuing education. The cost of continuing that education 
increases every year. It is essential that the Federal 
Government strengthen its commitment to help those students.
    Our working families struggle with that cost. Often young 
people leave college with staggering debt loads. Something 
needs to be done for them.
    I strongly support your suggestions. I think a financial 
commitment to the nation's children by the Federal Government 
is badly needed. Leave No Child Behind should become a rallying 
cry for all the cared-about children in this country. And that 
commitment should include the full $250 billion that you 
suggested.

                           prepared statement

    A few years ago people were fond of saying that it takes a 
whole village to raise a child. Perhaps in the 21st century we 
have gone beyond that. It may take resources from an entire 
nation to provide our children with the opportunities they need 
to solidify their future and ours.
    Thank you.
    [The statement follows:]
                Prepared Statement of Lawrence J. McNabb
    First of all, I would like to thank the Senator for the opportunity 
to come and offer testimony on behalf of Iowa's public school students. 
We appreciate the Senator's outstanding record in support of education. 
I offer testimony today, not just as the superintendent of the Osage 
Community School District, but also on behalf of the nearly 2,000 
members of the School Administrators of Iowa.
    We have had a slogan that we have used here in North Iowa for the 
past few years. It is on banners, coffee cups and shirts to remind us 
of our commitment to the state's youth. That slogan says simply, ``Kids 
matter most.'' It is what we are about here in North Iowa and 
throughout the state. That sentiment is not much different than ``Leave 
no child behind.''
    I am here today to speak specifically about the needs of the Osage 
Community School District. I think that I can do that with some 
authority, after six years as the superintendent in that district. But 
in a larger sense, I know that we are typical of most of North Iowa and 
probably not much different than the rest of the districts in the 
state. ``Leave no child behind'' is a very appropriate title for the 
hearing that is being conducted today. The fact is that unless 
something is done, some children will get left behind. Iowa's school 
face serious difficulties and only a major influx of new resources can 
save our children. The long-term result of children being left behind 
is that they will become adults who get left behind. Senator Harkin's 
amendment would go far in providing those additional needed resources.
    Numbers of children come to our school each year unprepared for 
formal learning. They have not had the experiences and the support that 
would have enabled them to meet the challenges that school provides. 
The range of abilities among entering students seems to widen each 
year. Head Start certainly helps to ameliorate that situation. 
Expanding the scope of that program can only increase student 
performance and help level the playing field.
    Poverty is a very real problem in Iowa's school districts. 
Unfortunately, the more rural our districts, the less visible the 
problem becomes. Rural poverty is not concentrated in neighborhoods or 
located along well-traveled roads. Our district is a fairly affluent 
rural district and yet over one-fourth of our students qualify for free 
or reduced lunch prices. If not for what Meredith Willson characterizes 
as ``Iowa stubbornness'', really fierce independence, many more 
families would qualify.
    Federal class size reduction funding has been an important factor 
in allowing our school board to make a commitment to smaller classes. 
This past year our district received $17,000 from the federal 
government. That is not enough to hire an additional teacher, but 
combined with other monies from state and local sources, it has allowed 
us to make our kindergarten an all day/everyday program.
    Finding enough money to continue that commitment will be difficult. 
Iowa schools are funded on a per pupil basis and most Iowa districts 
are experiencing declining enrollment. Last year 115 of Iowa's school 
districts, over thirty percent, lost enrollment to the extent that they 
received no increase in funding for this school year. The Osage 
district, like many others, must work hard to keep our budget balanced.
    When confronted with a budget that does not grow, and faced with 
increasing costs, districts are in a real dilemma. Often, we must 
approach situations, not from a ``what is best for students'' 
perspective, but from a ``what can we afford'' viewpoint. While we know 
that smaller class sizes improve student learning, staff cuts may be 
the only way to balance our budgets.
    Transportation costs have escalated. Those costs are completely 
beyond our control. We must get students to school to provide them with 
an education. Our transportation costs are already 20 percent over 
budget for the year and we still have one quarter of the school year to 
complete. Gasoline prices in our community have gone up by .20 per 
gallon in the past three weeks.
    The combination of a severe winter and rising fuel prices has run 
our costs for natural gas and electricity far beyond what anyone could 
have imagined a year ago. Through March our district's energy costs are 
up 63 percent over the previous year. That difference would more than 
pay for a teacher's services in a classroom for a year. However, those 
are costs that districts cannot avoid. Students must be transported and 
buildings must have light and heat.
    The choices are not easy. Our district anticipates sixty students 
entering our kindergarten next fall. Do we have four sections of 
fifteen or three sections of 20? That is a $35,000 decision. With only 
a small increase in funding for next year, it is even more difficult. 
The temptation to choose larger sections and have the money available 
for other cost increases is great. I commend the Osage school board for 
choosing four sections of kindergarten for next fall.
    For some districts, the choice is not that simple. Many lack the 
space to house additional class sections. It is not merely a matter of 
funding teachers, but an infrastructure issue as well. Communities that 
are already financially strapped find it difficult to pass bond issues 
to construct facilities or even to find funds to maintain current 
facilities.
    Our district is not immune from these problems. Our fourth and 
fifth graders are educated in a facility that was built in 1916. We 
certainly educate children differently today than we did in 1916. We 
have spent a great deal of money on the building to keep it a useable 
facility by today's standards, including making it handicapped 
accessible. However, it is still an 85-year-old building.
    It is hard for people to understand that our high school lacks 
adequate space for our current program. We educate one third fewer 
students than we did at our peak enrollment. Taking classrooms for 
special education, talented and gifted programs and computer rooms has 
drastically cut the space available for other classes.
    We have had to turn a former storage area into a classroom so that 
we have a place to teach our Principles of Technology courses. We have 
also had to locate a special education class in our ICN room when it is 
available. There were no other spaces available in our building for 
those classes to meet.
    In our community, and many others in Iowa, the likelihood of 
passing a bond issue to deal with the problem is slim. Ours is an aging 
community. Many are on fixed incomes and despite having positive 
feelings for our students and the school, they would not or could not 
support a bond issue. Without help, our infrastructure needs will go 
unmet.
    It is not just a matter of class size and building needs. Our 
districts are facing more and more difficulty in finding qualified 
teachers. Often in my six years at Osage, we have had only one or two 
qualified applicants for teaching positions. Fortunately, we have 
always had at least one quality candidate. The day will come when there 
will be none.
    Unless we can raise teaching salaries appreciably, there will be 
fewer and fewer young people entering the profession. That spells 
disaster. Forty percent of the teachers in my district will retire 
during the next ten years. Class size won't matter if quality teachers 
are unavailable to staff those classrooms.
    The dollars that have been available for Title One have failed to 
keep pace with the needs in our district. A program that was once 
supported in total with federal dollars, now fails to pay even the cost 
of the instructors. Our district has chosen to subsidize the program 
with funds from other sources rather than cut services to students. 
That is becoming more and more difficult to do. I cannot overemphasize 
the importance of that program. Dr. Connie Juel, of the University of 
Virginia, says that 88 percent of the students who cannot read at grade 
level by the end of the first grade, never will read at grade level.
    The situation in special education is not much different. While our 
district has been able to operate in the black the past few years, many 
districts find themselves operating at a deficit in special education 
annually. In the mid-seventies, when Public Law 94-142 was passed, the 
federal government made a commitment to fund 40 percent of the excess 
costs for special education. That commitment has never been met. At 
present, only about 15 or 16 percent of those costs are being funded 
from the federal level. Fully funding programs would ensure that 
students with special needs could have the programming they require 
without taking resources from other programs.
    Skill in the use of technology is as important for life in the 
twenty-first century as reading and math skills were in the last 
century. Developing those skills in students requires that districts 
keep pace with changes in hardware and software. That's nearly 
impossible for districts to do. Right now the federal government's 
contribution to technology in my district is $5 per student. That is 
barely enough to keep students in computer disks, let alone help with 
software or hardware.
    Gordon Moore, one of the co-founders of Intel, formulated a law 
back in 1965 that has basically held true ever since. Moore's Law says 
that computers will double in speed and halve in price each 18 months. 
We can currently replace our computers only every five or six years. 
That makes it difficult for us to send students off to college or the 
work place with the technology skills they need.
    Right now, about four out of every five Osage students go on to 
some sort of continuing education. The cost of continuing their 
education is increasing every year. It is essential that the federal 
government strengthen its commitment to assist those students. Too 
often, I see young teachers come to us with huge debt loads from 
completing their degrees. Something needs to be done to assist them.
    I strongly support the Harkin Amendment. A financial commitment to 
the nation's children by the federal government is badly needed. 
``Leave no child behind'' should become a rallying cry for all who care 
about children in our Nation.
    A few years ago people were fond of saying that it takes a whole 
village to raise a child. Perhaps in the twenty-first century we have 
gone beyond that. It may take resources from the entire country to 
provide our children with the opportunities they need to solidify their 
future and ours.

    Senator Harkin. Thank you very much. That was wonderful. 
Thank you very much.
    And now we will turn to Sherry Brown.
    Sherry has been an active member of the PTA for 13 years, 
both in Alaska and here in Iowa. She is currently vice 
president for legislation of the Iowa PTA. Sherry is also 
active in both the Boy and Girl Scouts in Cedar Falls.
    Sherry Brown, thank you very much for being with us today.
STATEMENT OF SHERRY BROWN, VICE PRESIDENT FOR 
            LEGISLATION, IOWA PTA
    Ms. Brown. Thank you.
    I think the idea to double our Federal investment in 
education is exciting. I think it is something that we 
desperately need.
    As you know, Iowans have always been proud of their 
schools, but certainly we have areas of concern.
    We have urban schools and we have rural schools. We have 
high-income areas and we have low-income areas. We have times 
when State revenues are up and we have times when State 
revenues are down. And those differences leave us with issues 
involving equity and consistency in education that I think the 
Federal Government could help us with.
    As you mentioned yourself, Head Start is underfunded. And 
it is a very successful program. But success is limited when 
there is not enough funding to reach every child who would 
benefit from it.
    One of the things that we like about Head Start is that it 
has a parent involvement component. And that brings families 
into their kid's education right from preschool.
    And there are also programs that bridge the transition into 
the public schools that I think are necessary because they also 
help to bring the parents along and make them a part of their 
child's education. Those parent involvement components I think 
are very important in the Federal programs.
    When the kids get into the elementary school, then the 
small class sizes become very important. And I think that the 
studies are real clear that they have a tremendous impact on 
academic achievement if we have small class sizes.
    Also, if there are small class sizes and there are fewer 
students, then there are fewer parents for the teacher to 
interact with, which means they can get to each of the parents 
more often.
    So I think that small class sizes also lead very much to 
improved parent communication and parent involvement. Many 
schools in Iowa have K through three classes significantly 
larger than the 18 or less that we'd like to have.
    Title I is extremely important. We have an issue now 
relating to immigration. We have students who need to learn 
English and get up to speed as quickly as possible so they do 
not fall behind on their other classes. And I think the Title I 
and bilingual programs, all of those are really important there 
as well.
    Safe and modern schools are very important. I think that 
Ms. Franken and Mr. McNabb have already mentioned how much we 
need. We need better facilities and technology.
    Also, we have, in Iowa, as you know, an extremely large 
number of families with both parents working. That gives us a 
critical need for before and after-school programs because--and 
the problem with those nationally, I think, is that before and 
after-school programs tend to be scarce in rural areas and rare 
for middle school children. And we need them in rural areas. We 
need them all the way through the middle schools. They need to 
be of high quality, affordable, and based in the public 
schools.

                           prepared statement

    I think that renewed and enhanced Federal programs working 
with the State to fulfill its education priorities will result 
in equity and consistency in public education and allow us to 
reach every child.
    Thank you.
    [The statement follows:]
                   Prepared Statement of Sherry Brown
    The national education budget has a significant impact on Iowa 
children and schools, and adequate funding for federal programs is 
critical to providing every child a quality education leading to a 
bright future. Since we concur that full funding for public education 
should be a national priority, the Iowa PTA strongly supports doubling 
the investment in federal education programs.
    Effective initiatives such as Head Start are now seriously under-
funded. Communities in Iowa have created early childhood education 
centers to provide Head Start along with other government and community 
services. Unfortunately, success is limited when funding is not 
adequate to serve all of the children who would benefit from the 
programs. There must also be full funding for programs that bridge the 
transition from Head Start to the public schools. A positive transition 
is essential for student success and, as important, for continued 
parent involvement. The emphasis on parent communication that is a part 
of Head Start must be promoted as children enter the public schools. 
Given the proven, positive effect of parent involvement on student 
success, let's make sure that we ``leave no parent behind.''
    The advantages of small class-sizes in the early grades on overall 
academic achievement are well documented, but the advantages also 
include improved parent involvement. When teachers have fewer students, 
they have fewer parents with which to communicate and are able to 
confer with them more frequently. Many schools in Iowa have K-3 class 
sizes significantly larger than the eighteen or less that is considered 
desirable.
    In addition to needed funding to reduce class sizes, there must be 
increased resources for Title I to support disadvantaged and low-
achieving students. Iowa is not immune from issues related to 
immigration. While immigrant families establish themselves in the 
community and struggle to learn English, the children require a great 
deal of assistance with reading and language skills.
    Iowa's need for safe and modern public schools for all students, 
including barrier-free access for individuals with disabilities, 
continues to grow. Increased funding for education technology is 
necessary to ensure equity of access to academic tools by both rural 
and urban schools and by students from both high-income and low-income 
families.
    In order to provide students with the best education possible, we 
must continually develop and adapt programs to meet the changing needs 
of Iowa's families. For example, Iowa now has a critical need for 
before- and after-school programs because we have so many families with 
both parents working. These programs provide learning opportunities in 
safe and drug-free environments. They can also provide a more 
comfortable, non-threatening atmosphere for parents to visit the 
school. Before- and after-school programs tend to be scarce in rural 
areas and rare for middle school children. Some programs are also 
prohibitively expensive for many families. Before- and after-school 
programs must be of high quality, affordable, and based in the public 
schools.
    A good education begins with parents as the first teachers and 
continues with early childhood programs and quality public schools. 
There should also be funding for programs that provide job training and 
encourage higher education, leading to responsible citizens who 
continue to be life-long learners. Iowa is facing revenue shortfalls 
and state funding for education programs is in jeopardy. On the other 
hand, the federal government has a tax surplus. Funding for national 
programs will have a tremendous impact on the quality of education we 
are able to provide for the children of Iowa. Renewed and enhanced 
federal programs, working to help the state fulfill its education 
priorities, will result in equity and consistency in public education, 
and will allow us to reach every child and leave none behind.

    Senator Harkin. Thank you very much, Sherry, for giving 
your testimony and being here today.
    Now we turn to the most important participant, a student.
    Derrick Palmer is a senior at Mason City High School. 
Derrick was enrolled in the special education early childhood 
program at the age of three and has benefited from special 
education throughout his school years.
    Derrick will soon graduate from Mason City. And I want to 
ask him what he plans to do.
    Derrick is joined by a number of classmates today here. I 
will introduce them.
    Jeremy Beavers, where are you? Well, I thought he was here. 
I cannot see in the back.
    Is Eric Eichenbaugh here? Well, I had these names here.
    Is Trenton Anderson here?
    Speaker. Yeah. Trenton's here.
    Senator Harkin. Somebody is back there.
    Audience Member. Yeah. Trenton is back in the back there.
    Senator Harkin. Oh. That is because the lights are off. I 
cannot see anybody there.
    Derrick said he did not have any prepared testimony.
    Derrick, if you do not mind, I will just ask you some 
questions.
    Tell me about your schooling and how special education 
might have helped you in school.
    Tell us how it might have helped.
STATEMENT OF DERRICK PALMER, STUDENT
    Mr. Palmer. Well, thank you, Senator.
    The way I see education helped me, is if it wasn't for 
special education, I wouldn't have gotten this far through a 
senior in high school.
    Senator Harkin. Great. And you are going to graduate soon?
    Mr. Palmer. Right.
    Senator Harkin. What, next month, maybe?
    Mr. Palmer. Next month. May the 26, I believe.
    Senator Harkin. He knows the day, the hour, the minute. I 
remember it that way.
    Tell me what you--what are you planning--what are you 
looking ahead at, Derrick?
    Mr. Palmer. Working at NIVC after high school----
    Senator Harkin. Yeah.
    Mr. Palmer [continuing]. And building pallets for 
businesses.
    Senator Harkin. Working at where?
    Mr. Palmer. North Iowa Vocational Center.
    Senator Harkin. Oh. Is that right?
    Mr. Palmer. Uh-huh.
    Senator Harkin. Good for you. Good for you, Derrick.
    And do my notes tell me, do you have a part-time job right 
now?
    Mr. Palmer. Yes. I work at Kraft General Food on Monday 
through Friday, 2 to 4, making pudding.
    Senator Harkin. Really?
    Mr. Palmer. Yes.
    Senator Harkin. I probably had some of your pudding.
    Mr. Palmer. It is good stuff. The best that money can buy.
    Senator Harkin. I suppose the best stuff I ate was what you 
made. I understand. Yeah.
    Tell me, Derrick, are your--are your folks here?
    Mr. Palmer. My mom is.
    Senator Harkin. Your mom is here.
    Hi, mom.
    Is that your mom?
    As you have probably heard from these other people sitting 
here, that we are looking at trying to get more funding for 
special education all through the years.
    But I would say you are a great example of what investment 
in special education can mean. Now, you have obviously done 
well in school. You are going to graduate and go on and be a 
great productive member of our society and a good citizen.
    How old are you now, Derrick?
    Mr. Palmer. 19.
    Senator Harkin. All right. Registered to vote?
    Mr. Palmer. Right.
    Senator Harkin. Okay. Not that I am trying to influence 
you. You are going to work.
    Are you going to take a little time off this summer?
    Mr. Palmer. To go to Camp Sunnyside, yeah, basically.
    Senator Harkin. Well, good for you. Great.
    Well, anything else, Derrick, you can think that we ought 
to know about your education, about school?
    Let me ask you this. Here is a good question, maybe. I hope 
it is, anyway.
    If you could have seen anything, you know, maybe something 
to be done differently in school, something you thought you 
might have missed or you wished you would have had in school, 
is there anything that comes to mind that may be something you 
might have wanted differently in school.
    Mr. Palmer. Well, supposedly there was going to be a school 
shooting, but the way I see it is, they need tighter security. 
And lots of people threatening people, like younger classmen 
and special ed kids, because the way I see it, some people do 
not take it seriously. And they think it is a hoax. And when it 
turns out to be like Columbine School--and they just think it 
is a hoax. And when the person comes to school the next day 
with a gun, then they wonder why.
    Senator Harkin. Well, I think that is one of the things 
that we all should be cognizant of.
    And I think that--I know that our teachers, Jolene, and our 
PTA people and our superintendents are all quite aware of 
instilling in our classroom supervisors--our teachers, teaching 
assistants and others--to be on the lookout for kids who may be 
picking on younger classmen and special ed students and stuff 
like that.
    So I hope we are becoming more aware of that and more 
sensitized to that. Because I think what you just said is very 
true, that a lot of times people may pick on someone, if they 
are not stopped and if they are not made aware of what they are 
doing, it could lead to tragic circumstances later on. So I 
think that is a point well-taken. Point well-taken.
    Well, thank you very much, Derrick.
    Mr. Palmer. Thank you, Senator.
    Senator Harkin. Thank you for being here and testifying 
today.
    Let me--I just had some notes here that I took. I want to 
go back.
    And, Derrick, just stay right there. I want to ask you a 
couple questions. I may have some things I might want to ask 
you about more here.
    And, Dr. Buettner, tell me a little bit about this. There 
are no tech prep demo sites at the community colleges in the 
new budget.
    Tell me what the effect of that is going to be or how that 
affects us.
    Dr. Buettner. Well, our college, NIACC, has really been the 
leader in Iowa and in the nation, frankly, in implementing tech 
prep programs, and we have done so through hook and crook. I 
mean, we have really taken dollars from nooks and crannies, 
from the Perkins legislation and the tech prep legislation, and 
we have made remarkable progress here.
    There has been a lot of discussion about formal tech prep 
demonstration sites, formal funding through the Federal 
Government to literally fund sites like ours, I would hope, 
where we really have a successful demonstration underway so 
that other schools, not just in Iowa but throughout the 
country, could see a successful tech prep program 
implementation.
    It is a very complicated business. I know Larry, one of our 
superintendents in the area, and a lot of these superintendents 
and college people working on it said that they wouldn't work.
    And it seems to me that these programs would have such 
promise. And the need is so great that a well-conceived network 
of demonstration projects across the country could pay enormous 
dividends.
    I envision a day--I am not sure I could predict when and if 
this will happen--where tech prep programs are commonplace and 
a part of the fabric of the secondary and 12-, 13-, 14-year 
public education across the whole United States.
    Senator Harkin. So you really urge us to take a look at 
that demonstration program.
    Dr. Buettner. I really do. As your staff knows, I am not 
exactly the most objective person when it comes to tech prep. 
But I honestly believe that it is a very, very important 
program. It is a very effective program that young people need 
desperately.
    It really promises to be the key to a successful, 
comfortable standard of living for many, many, many young 
people. Not everyone is going to go away to a 4-year college, 
graduate and earn a comfortable, professional living. That is 
just not going to happen for everyone.
    Senator Harkin. Right.
    Dr. Buettner. And the tech prep program shows a clear path 
for many, many other people to earn similar incomes. The data's 
there. The results are there. What we have to do now is get 
behind it and take it to scale. We have to take it out and 
deploy it across the country.
    Senator Harkin. Well, I will do what I can to help on that.
    Dr. Buettner. May I just add one thing, Senator?
    Senator Harkin. Yes.
    Dr. Buettner. I appreciated Derrick's concern and comments 
about safety.
    Senator Harkin. Right.
    Dr. Buettner. I started life as a high school vocational 
education teacher. And one of the contributions that I felt 
vocational education was making in the schools at that time, 
decades ago, it was enlisting young people who could very 
easily be disenfranchised from the school system.
    And occasionally I had the opportunity to really get ahold 
of a youngster and really turn them on and keep them turned on. 
And some of those youngsters went on to very successful 
careers. And I believe that that is the promise of the tech 
prep program.
    Senator Harkin. Yes. Exactly. Exactly. Very good.
    Sherry, one of the most perplexing issues for me as a 
public policymaker in looking at education concerns parental 
involvement. We know from studies that the more parents are 
involved, the better the kids do. That is irrefutable. We know 
that.
    The question is, is getting parents involved. As you point 
out, parents are working. Sometimes both parents are working 
two, three jobs at a time trying to make ends meet.
    I just wonder if you have any examples of any programs that 
you've seen that are successful at drawing parents into the 
children's schools.
    And, if there are, do you have any ideas or suggestions to 
try to get parents more involved?
    I am looking for answers here.
    Ms. Brown. I think there is. And I think that the answer is 
getting them involved at a very early age. And I do not think 
that necessarily bringing them into the schools is the answer. 
I think that might be what's holding us back.
    I think maybe the schools reaching out to them is where the 
answer is going to have to lie, and showing their parents how 
they can be involved and make a difference from home, and still 
getting them into the schools whenever possible.
    But that it is everyday, day-to-day in their child's life 
where they really need to be involved. And that is the level of 
involvement that is going to make the difference.
    The number of times that they come in the school to help in 
the classroom or in the library is, I do not think, going to 
make the difference between success and failure. It is that 
day-to-day involvement at home.
    And I think e-mail is changing things tremendously, and 
having phones in every classroom, so that teachers can easily 
contact the parents that they need to contact. That has helped 
in our school.
    It used to be, you know, there was one telephone in every 
wing, or something. And now they have them in every classroom. 
And that does help.
    But constant contact with parents when things are good as 
well as when there are problems is just as important. The 
frequency of contact is much more important than the amount of 
time, I think, that you spend. So I do not know.
    I wish I had the magic answer, Senator.
    Senator Harkin. I know there is no magic silver bullet. We 
are just looking for different types of suggestions and 
thoughts.
    Jolene, you had something?
    Ms. Franken. Just a couple things. One, there are some 
States that are doing some things with combining government 
agencies' efforts instead of fighting each other, by getting 
into people's homes much earlier when the children are very, 
very small, and working with them on developmental activities 
that they should be doing with the students before they ever 
get to school.
    That is one of the things that we see.
    Another thing that would be very helpful is trying to get 
some kind of a way to allow jobs to release their workers for a 
half an hour, even for a parent/teacher conference of 15, 20 
minutes would be helpful.
    Some school districts are having parent nights in the 
elementary school where the parents come in and they sit at the 
student's desk and they go through some of the activities that 
the students are doing so that they have a better idea of what 
the student is actually doing in school. Building that 
relationship is essential.
    You know, 50 percent of the jobs in Iowa pay less than $10 
an hour. That is what we're looking at here.
    Senator Harkin. That is not a very big income.
    Ms. Franken. No. And Dr. McNabb and I were both sitting 
here saying, telephones in a classroom, what's that? A lot of 
us do not even have a telephone in the wing, let alone in our 
classroom.
    Senator Harkin. Wow.
    Ms. Franken. And that is getting to be a very difficult 
situation, also, with the safety factor.
    Senator Harkin. So what percentage of classrooms, do you 
think, in Iowa--I am talking in elementary and secondary--would 
have phones where a teacher would have actual services?
    Less than half?
    Dr. McNabb. Maybe 25 percent, maybe.
    Senator Harkin. 25?
    Dr. McNabb. Probably.
    Senator Harkin. Yeah.
    One out of four, maybe?
    Ms. Franken. That could be high. I do not know.
    Senator Harkin. Yeah. But it is your experience that it is 
not very high.
    Dr. McNabb. No.
    Ms. Franken. I do not think so. There's some teachers out 
there that can maybe answer that question.
    Senator Harkin. Yeah. Well, I am going to turn to the 
audience in a little bit.
    Dr. McNabb, you said that in the Osage school district you 
had 60 new kindergarten students coming in this year. I do not 
know if you meant next year or this last year.
    Dr. McNabb. It is been about the same for the last 2 years, 
Senator, so either one.
    Senator Harkin. But they chose four sections of 15 rather 
than the----
    Dr. McNabb. Three sections of 20.
    Senator Harkin. Wow.
    Dr. McNabb. We think that is an important decision.
    Senator Harkin. Give them my congratulations. That is good 
for them. That is good.
    Dr. McNabb. Thank you.
    Senator Harkin. You mentioned that Title I has not kept up. 
And I was just asking my staff about that. But I thought we 
kept the Title I hold harmless for Iowa, and worked very hard 
on that now.
    So tell me more about this.
    Dr. McNabb. You have, Senator. You've held the funding 
exactly where it has been. But times have changed and salaries 
have gone up and materials cost more.
    And so what used to be a self-sufficient program, now 
doesn't pay the salaries of my staff anymore.
    Senator Harkin. I see what you are saying.
    Dr. McNabb. And we have chosen to subsidize that from other 
funds rather than to cut services for kids. But it is getting 
tougher.
    Senator Harkin. Thank you. I just wanted a clarification on 
that.
    Derrick, did you ever think about this tech prep? Did you 
ever get into any of that tech prep stuff in school at all when 
you were in high school?
    Mr. Palmer. Can you be more specific, please?
    Senator Harkin. Well, I was wondering if you might have 
participated in the tech prep program.
    Dr. Buettner. Actually, Derrick will very likely encounter 
some of the NIACC tech prep partnership at NIVC. When you begin 
there, you will undergo some training and you'll be helped to 
learn some of the procedures.
    And NIACC has a partnership with employers all across North 
Iowa that help new employees do certain things. So you actually 
will encounter us from that point.
    Senator Harkin. Oh. So when he goes, he will get some 
training through tech prep.
    Dr. Buettner. Very likely.
    Senator Harkin. Folded in with some of the other training.
    Dr. Buettner. I am not suggesting we do all the training 
with NIVC. We do not.
    Senator Harkin. Yeah.
    Dr. Buettner. But we do some there.
    Senator Harkin. Uh-huh.
    Dr. Buettner. And it is possible that we are actually going 
to be involved with Derrick when he arrives.
    Senator Harkin. Well, it is something that his mother and 
Derrick ought to be aware of.
    Mom. Derrick.
    Because it seems to me that this would be a perfect match 
here for this. I do not know--Derrick, I do not know what your 
interests are, I am not trying to push you one way or the 
other, but----
    Mr. Palmer. Well, of course not. Do not worry about it.
    Senator Harkin. But you look like you might be interested 
in a lot of different things. And this would be a good way to 
find out what skills or different things you might want to do. 
So I encourage you to take a look at that.
    Any other things from the panel before I open up the mike, 
at all?
    Jolene, do you have anything else at all?
    Oh. By the way, you did say one thing I did want to point 
out. And this really hit home. And that concerns 
accountability. Everyone wants the school to be accountable.
    But you said, ``Where's the accountability for politicians 
who do not vote to fund what they say.'' On my way here I was 
reading the morning paper and saw an interesting statement.
    The chairman of the House Budget Committee said that it is 
time we fully fund IDEA. We should fully fund the Individuals 
with Disabilities Education Act. Nice story in the paper.
    My response to that he is chairman of the Budget Committee, 
if he wants it, he can put it in there. All he has to do is put 
it in the budget.
    Ms. Franken. That is right.
    Senator Harkin. That means you are going to take some money 
out of the tax cut.
    Ms. Franken. That is right.
    Senator Harkin. But that is the choice we have to make. So 
again, I am not chairman of the Budget Committee. I offered my 
amendment on the Senate floor to the budget.
    Fortunately we won because we had some bipartisan support 
for it. But the budget chairman did not put it in there. And 
the House side, they did not put it in the House budget either. 
And they have already passed the House budget.
    The funding for IDEA, you know, to fully fund it was not in 
that budget.
    It was not in there. And here is the House budget chairman 
saying we ought to fully fund it.
    And I had to ask, why am I reading this when someone that 
has the power to put it in could have done that.
    Well, anyway. So I took that to heart when you said that.
    Ms. Franken. Thank you.
    Senator Harkin. Now, with that, if there is nothing else 
from the panel, I am going to open it up for comments from the 
audience. There may be some questions for the panel.
    Senator Harkin. Oh, Derrick. Please proceed.
    Mr. Palmer. Well, I thank you for your optimism about the 
school education, Senator.
    Senator Harkin. About what, Derrick?
    Mr. Palmer. On your education plan and stuff, I think that 
is a good discussion, ought to be said to the representatives. 
I think that is a good idea.
    Senator Harkin. All right. Thank you very much. I am glad 
that you said that.
    Let me open up the mike for the audience. Sonya has the 
mike. And all I ask, again, is you just state your name and 
spell it, perhaps, for the recorder.
STATEMENT OF LYNNE ECKHART
    Ms. Eckhart. Okay. My name is----
    Senator Harkin. You have to turn it on. Sonya. Oh.
    Ms. Eckhart. Low tech.
    My name is Lynne Eckhart, E-c-k-h-a-r-t.
    Senator Harkin. I have heard that name before.
    Ms. Eckhart. You have indeed. And we appreciate that.
    I am a professional educator, again, at the high school 
level in Mason City community schools. I am a leader in the 
Mason City Education Association.
    I have a daughter who is at UNI right now. She's an early 
childhood development major. Her first 3 years of college were 
at the community college level. And I am also an adjunct 
teacher at NIACC here in Mason City.
    You might guess I have education issues that are just all 
over the place. But right today what strikes me is something 
that I do get to interact with at the high school level.
    And that is the kid who comes in the class and says, 
``Yeah, I do not know why I am here. I am not going to be 
anything. I'll never get anything.'' And that kid, if you talk 
to them, you find out all of a sudden that they can untangle my 
computer faster than I can even mess it up. Or they can do 
PlayStation or other computer things that require mind-boggling 
coordination.
    I have kids that I can mention something about my car, and 
they know how to fix it before I get the sentence finished. Or 
can bring me a bowl or a box that they have made in industrial 
technology that is unbelievable.
    When those kids say there's nothing I can do, the 
partnership between Mason City High School and NIACC is 
something that I can say, that there is something you can do.
    If you let me help you learn how to communicate--language 
arts is my field--then I know NIACC has a program that you can 
be in. In a year or a year and a half you will be trained to do 
a career. You can have a job that pays, with benefits.
    The other thing I want to say is I teach ninth grade. Lots 
of kids who come into ninth grade are already so defeated in 
the school system that there's no way that they see any hope.
    When I can say to them, if you hang in here, next year, or 
at the very latest your third year of high school, you can 
start a technical program. You do not have to sit here for 4 
years in high school.
    And, you know, truthfully, most of them are not going to 
stay. I mean, as soon as they're 16, they're going to be gone. 
But if you can say, you can start that tech program, you can 
have one whole year of college paid for by the high school even 
before you graduate, that is a bonanza for those kids.
    My favorite phrase is, they all have to work. My social 
security depends on them working. And we cannot just leave them 
behind. We have to make it possible.
    So I guess, again, my support is for that coordination 
between the high schools and the community colleges.
    Senator Harkin. Why do you think these students have such 
low self-esteem?
    Ms. Eckhart. Defeat. I think the comment about if a kid 
doesn't learn to read by first grade is most of it. I mean, 
language arts, you meet a huge number of kids who cannot read 
at a high school or an adult level when they come into high 
school.
    I just think the system wears them out. Just wears them 
out. And so by the time they're 14, they know 2 more years and 
they're out of there.
    It is a hard thing. I mean, just think if you cannot read 
what you cannot do.
    Senator Harkin. Do we have to do more in early childhood 
education?
    Ms. Eckhart. Well, I think so. But I think I am growing a 
nice early childhood educator too. But absolutely. I mean, they 
need to come--just like we have said, they need to come to 
school ready to learn. And they need to know what they need to 
know. And that will make all the difference in high school. You 
cannot turn around 9 years of education in 1 school year.
    Senator Harkin. Exactly. Exactly.
    I believe the data, Lynne, is there. We have done the 
studies, but we just ignore it. And that is that we know that 
children have the most rapid learning process from ages of 
about 1 through 3, 4, 5, in that range.
    And a lot of times if they have not learned to read and if 
they have not had rich learning experiences in their first 
years they are not ready to learn by the time they enter 
school. They are behind. They just do not catch up. And I think 
that adds to their low self-esteem also.
    So again, as much as I support education in all of its 
facets, I still must say the most important thing we can do is 
improve early childhood education. We have got to get to those 
kids early and in a better way than we have ever done in the 
past.
    Ms. Eckhart. I would add one thing to that. I think what we 
need is more Senators like you who are willing to come out with 
these amendments and fight for education. And so I appreciate 
this opportunity.
    Senator Harkin. Well, thank you.
STATEMENT OF STEVE LOVIK, VICE PRESIDENT OF ADMISSIONS 
            AND FINANCIAL AID, WALDORF COLLEGE
    Mr. Lovik. Hi. My name is Steve Lovik. That is L-o-v-i-k. 
And I am vice president of admissions and financial aid at 
Waldorf College up in Forest City.
    When I started at Waldorf 24 years ago as an admissions 
counselor, our cost for room, board, tuition fees was 
approximately $3,000.
    Senator Harkin. Wait a minute. How many years ago?
    Mr. Lovik. 24.
    Senator Harkin. 24 years ago everything----
    Mr. Lovik. Was about $3,000.
    Senator Harkin. Yes.
    Mr. Lovik. And now for this coming fall, our costs for 
tuition fees, room and board will be $19,500. With the rising 
costs of technology, faculty salaries, building and maintaining 
campus facilities it costs a lot more. Thirty percent of our 
students receive a Federal Pell Grant. So that is a very 
important part of how they can afford their education. But they 
are willing to do their part. Seventy-five percent borrow money 
through the Federal student loan programs.
    But they are also responsible borrowers. Last year our 
student default rate was 1.8 percent.
    Senator Harkin. That is good.
    Mr. Lovik. So our kids are doing a good job. Seventeen 
percent of our parents borrow money through the Federal parents 
plus loan.
    So our kids and their parents want post-secondary 
education. They want a degree.
    They are willing to do their share in paying for it. But 
they do need the assistance that the Pell Grant provides.
    So I thank you, like everyone else has, for coming out and 
listening, and hope for your support with that increase.
    Senator Harkin. Well, thank you.
    We have got to get that Pell Grant up. And again, I think 
the other thing we have got to do--and that is what I have 
heard here and I heard it earlier in Cedar Rapids, Des Moines, 
and now here--is that so many people in rural Iowa are just 
above the cutoff for Pell Grants, maybe even $100 or something 
like that, and then you are just out.
    Mr. Lovik. And so many of our Pell Grant recipients are 
first-time college attenders out of their families.
    And so they're seeking a post-secondary education degree 
for the first time in their family. And they may not have that 
many resources available to them.
    Senator Harkin. I think we are going to have to take a hard 
look at raising the level for Pell. Not only rising the Pell 
Grant level for Pell Grants but raising the eligibility level.
    Mr. Lovik. Right.
    Senator Harkin. Thank you.
    Dr. Buettner. Senator, may I comment?
    Senator Harkin. Oh, sure. Yeah. Hop in. Pitch in any time.
    Dr. Buettner. Just one additional thought. During the 
course of the campaign there was a proposal to front-load the 
Pell Grant a considerable amount. And it may not be entirely 
apparent or readily apparent to a lot of people about why that 
is so wise. But I want to put the plug in for that, even though 
I feel it is slipping away.
    If a person is going to make a success in their college 
experience, if they're going to persist and if they're going to 
graduate and go on to achieve the kind of employment that they 
had in mind when they began, the Pell Grant and the loan 
programs are all excellent investments. They all are excellent 
investments.
    I have little fear for a student leaving college with a 
significant loan balance if they have achieved their objectives 
while in school and if they have, in fact, a career in mind and 
in their grasp that can enable them to repay those loans.
    And we usually know whether that is all going to work or 
not very quickly. Sometime during that first year or so in a 
student's college experience I'd be willing to put pretty good 
odds on which students are going to make it and which ones are 
not.
    And by front-loading the Pell Grant, we have enabled more 
people to find out whether they can really prevail or not, 
whether they can persist and achieve--whether or not the 
investment is really a good one, in what they learn.
    And if we can take that small number of people, 10, 20 
percent of all students entering higher education in the United 
States, and we help those that are not going to succeed 
discover that without saddling them with a significant loan 
debt, we have done them a favor and we have done ourselves a 
favor.
    Senator Harkin. Now, when you say--by front-loading, do you 
mean letting a person have what they might qualify for the next 
year or something put into the front year?
    Dr. Buettner. The proposal--there were several. But the 
primary proposal was to simply raise the maximum amount of the 
Pell Grant for a fully qualified person during their first 
year.
    Senator Harkin. During their first year.
    Dr. Buettner. Actually the first 2 years. But early in 
their college experience. And the reason was that if they stop 
there, they would probably find themselves employment that paid 
less well than if they persisted.
    And the problem is that we had people coming to proprietary 
schools, community colleges, some students beginning anywhere, 
including private colleges and regents schools, that do not go 
on and do not succeed in college.
    And if they quit after that first year or so and they're 
already saddled with $5,000, $8,000, or $10,000 of loan debt, 
that is a considerable burden on them.
    It is a considerable burden on us.
    Not just--I do not mean NIACC, but all of us. Because 
somebody has to repay that loan. And the front-loading idea, I 
think, was an excellent economic refinement to the student Pell 
Grant program.
    Senator Harkin. I will take a look at that. I am not all 
that familiar with it.
STATEMENT OF SALLY FRUDDEN, MEMBER, IOWA STATE BOARD OF 
            EDUCATION
    Ms. Frudden. I am Sally Frudden, F-r-u-d-d-e-n. I sit on 
the Iowa State Board of Education.
    But I also sit on a private nonprofit organization called 
TLC, The Learning Center.
    And TLC, The Learning Center, is a community--a child care 
center that we're organizing in our small town.
    And I want to revisit early childhood. I am picking up that 
you know the brain research and you know that the 1990s was the 
decade of brain.
    And we know that the first 3 years are the years where the 
brain grows 80 percent and all these wonderful things happen.
    However, what is happening in Iowa is that there is no 
system in place to take care of 0 to 3, other than in private 
hands. And when I complained about this to the Governor, he 
just simply said, Sally, there is no system.
    So it is up to the communities, the will of the people to 
take care of those prime years when the brain is developing 
who's doing it.
    Well, the Governor put together a task force on early 
childhood. And what they found was rather astonishing. Early 
childhood in Iowa is pretty much unregulated. And 59 percent of 
the youngsters in child care are in unregulated child care.
    They brought in a consultant from the Children's Defense 
Fund. And she said, ``I know you're proud of your Iowa 
education, but,'' she said, ``however, you have the seventh 
worst child care in the country.''
    Now, I find that deplorable. And it is embarrassing. And it 
is simply the fact that we lack the political will and we lack 
the will of communities to step forward and say we will take 
care of these youngest of our population and do the things that 
would really prevent instead of have to remediate.
    And I would urge you to look at what we could do for that 0 
to 3 population. In what I have read, Head Start is wonderful. 
But it starts too late.
    Senator Harkin. Last year we started this early learning 
opportunities program, which is 0 to 3. And we just got it off 
the ground last year with $20 million.
    Zeroed out of the President's budget this year.
    Ms. Frudden. Boy.
    Senator Harkin. We just got it started. After working on it 
and getting it developed the President eliminates the money. 
So, again, we are going to fight that battle again this year to 
try to keep it going and get some more resources into that 0 to 
3 program.
    Ms. Frudden. Well, what we're doing is we're fund-raising, 
we're begging, we're scraping. We're doing all we can.
    And seated to my right is the woman that is going to be our 
director. She's been interviewing people to be teachers. And 
the kind of salaries that we can offer for a 12-month position, 
for a center that will be open from 5:30 in the morning until 
6:30 at night.
    What we're asking people to do--and at the price that we're 
paying, we're not honoring our children. And we're not honoring 
our pledge to what you have up there as your No. 1 item, all 
children will start school ready to learn.
    We're not doing it.
    Senator Harkin. In 1989, former President Bush and a number 
of Governors, including our Governor, Branstad at that time, 
met in Charlottesville, Virginia. And they all hammered out six 
goals for education. And it had strong bipartisan support. 
Everyone supported it.
    The first goal was that by the year 2000 every child will 
be ready and able to learn by the time that child enters 
school. That was the year 2000. That was last year.
    Ms. Frudden. That was Goals 2000.
    Senator Harkin. That is right. Goals 2000. And that was 
last year. And we are not even close to it. And again, I do not 
think we ought to give up on it. We have just got to redouble 
our efforts and remind ourselves that this is something that 
time and again we have recognized. Our Governors recognized it. 
Former President Bush recognized it. Congress recognized it. 
Yet here we are 11 years later and we are making some headway. 
But not even remotely close to meeting that first goal. Not 
even remotely close.
    Ms. Frudden. Well, we will just keep kicking the tires.
    And we appreciate your effort.
    Senator Harkin. And we are going to keep pushing.
    Yes, sir.
STATEMENT OF CHRIS PETERSEN, VICE PRESIDENT, IOWA 
            FARMERS UNION
    Mr. Petersen. Hi, Senator Harkin. I am Chris Petersen, vice 
president of Iowa Farmers Union.
    Senator Harkin. Hi, Chris.
    Mr. Petersen. And welcome to my hometown. And thank you for 
fighting for family farmers in rural America. It is greatly 
appreciated.
    And I basically want to say that rural America is being 
depopulated because of Federal farm policy and a lack of 
enforcement of environmental and antitrust laws to spend the 
concentration of agriculture in the corporate control.
    And this affects all society, especially education. The 
less people we have, the less kids we have, the less money that 
can be generated for education in rural areas.
    Cut taxes. And combine this with the political agenda going 
on right now to cut budgets and give the money to the wealthy. 
We have major problems.
    And this has kind of cooled off a little bit right now, but 
I'd like to talk about vouchers for a minute. And I am not for 
them.
    In a public school system all the Federal money, all the 
State money comes into the system and is spent. And it is 
decided by a school board who is voted on by every single 
person in the community. This is democracy at its best.
    With a voucher system it is not true, you know. They're 
taking Federal money and educating our kids. And basically you 
end up with a two-tiered education system.
    One funded by the public for the wealthy and one less 
funded for the rest of us.
    This is not right. This is America. This is equality for 
all.
    And I hope you go back to D.C. and you say that time and 
time and time again.
    Senator Harkin. All right. I can assure you that I mirror 
your feelings on vouchers. If people want to have that kind of 
choice, do what we do in Iowa.
    If they want to, parents can send their child to another 
school district in Iowa; right?
    Mr. Petersen. Open enrollment.
    Senator Harkin. Yeah. Fine. I do not mind that if they want 
to do that. But the vouchers--90 percent--correct me if I am 
wrong. Ninty percent of our kids go to public school.
    Ninty two percent in Iowa. So it seems to me that, you 
know, that is where we have to focus our attention.
    Anyway, thank you.
    Mr. Petersen. And one more thing. I wear all kinds of hats. 
I am a family farmer. I work on family farm issues.
    Senator Harkin. I know.
    Mr. Petersen. I have two and three and four jobs trying to 
make my budget work. And one of them is being a bus driver for 
this district right here.
    And I can tell you how transportation costs have gone up 
and how we are trying to find tax money to buy school buses. We 
retired two of them last week. I think one was a 1985 model, 
167,000 miles on it. And these buses were getting so they 
barely passed inspection without major work every time they 
showed up.
    So I thank you for coming.
    Senator Harkin. Well, thank you, Chris. Thank you.
    Now, you know, Dr. McNabb, you mentioned that your 
transportation costs have gone up 20 percent?
    Dr. McNabb. Yes.
    Senator Harkin. And your energy costs have gone up 63 
percent, is that what you said?
    Dr. McNabb. That is correct.
    Senator Harkin. That is daunting.
    Dr. McNabb. Yes. That is probably the cost of two teachers 
that I could put in classrooms. Just the increase.
    Senator Harkin. Wow.
    Ms. Franken. Senator----
    Senator Harkin. And again, I had a couple meetings earlier 
on this year in various parts of Iowa on the high energy costs, 
about the impact on Iowans, especially elderly people because 
of the heating costs. But I got to thinking now, how about 
schools. I mean, schools must have been hit pretty hard with 
that too.
    Ms. Franken. I know. It is been awful.
    Referring to Chris talking about rural schools. You know, 
there are a lot of people that think that all of our problems 
would be solved by consolidating rural schools.
    We need to just get rid of the small schools. We'll make 
them bigger. The complication to that is the transportation 
problem.
    And all you need to do is go up to western Dubuque or 
Bloomfield, go down to Davis County where they have one school 
in the county, and ask them how their transportation costs have 
gone up this year.
    It is phenomenal. So when you do something that appears to 
be a simple solution to the problem, it tweaks something over 
here that you forgot to think about.
    And until we do something about changing that funding 
mechanism for transportation, it will continue to hurt.
    Senator Harkin. Not to mention the fact that a kid in, 
well, high school, riding 2 hours a day, 1 hour to and from 
school, is not right.
    It is just not right.
    Ms. Franken. Absolutely not.
    Senator Harkin. Okay. Anything else?
STATEMENT OF TAMMY POPPE
    Ms. Poppe. My name's Tammy Poppe. That is P-o-p-p-e. And I 
am very proud to say that my husband is one of Dr. Buettner's 
tech prep teachers. He teaches the NIACC automotive technology 
program here at Clear Lake.
    And as his proud wife, I am going to tell you the comments 
that we hear from the parents of these children. And I have 
been fortunate enough to hear quite a few of them.
    Parents tell my husband that they are so grateful for his 
program for two reasons. It allows their child to make sure 
that this is what he or she wants to go into without expending 
hard-earned family dollars in their first year of post-
secondary education.
    A lot of kids that he has had, their parents were afraid 
that they were going to be falling through the cracks because 
they did not fit the traditional 4-year college education. They 
were the hands-on type of student.
    And with Mark's program and others like it offered by 
NIACC, that it has offered their children a chance to succeed 
where they were afraid that they would fail.
    So besides having personal interests in having these 
programs cut, I also think it would be very poor for the State.
    We moved here from Wisconsin, where my husband could have 
earned substantially more as a teacher, because of the types of 
technical education programs that the State was looking into 
offering.
    It is more important to him to teach these programs because 
he was one of those children in his schools that did not fit in 
anywhere because of his hands-on--his gearhead mentality. And 
we have $30,000 in student loans that we're paying off now to 
be here in this State.
    I also have a background as an early childhood elementary 
teacher from Wisconsin. It is considered birth through third 
grade. And my suggestion on involving parents in their 
children's schooling is to promote literacy.
    And literacy doesn't necessarily mean having to take 15 
minutes to sit down and read, although that would be ideal. But 
I know a lot of parents that simply do not have the time to sit 
down and read.
    But literacy can be as simple as singing songs to your 
children while you're driving down the road. It can be as 
simple as doing a finger play or pointing out signs.
    You know, children learn to read by reading symbols. When 
your 2-year-old notices that that is the McDonald's sign and 
that is the Target sign, that is learning. That is learning at 
its finest. And those are teachable opportunities for parents.
    We do not have to have our parents come into the schools to 
help promote literacy. But we have to let them know that what 
they're doing, by singing Mary Had A Little Lamb and things 
like that, can help their children just as much.
    So thank you for your time.
    Senator Harkin. Well, thank you very much. Excellent 
statement.
    Over here. And then back there.
STATEMENT OF JESSICA PUTNAM
    Ms. Putnam. Well, Senator, thank you for being here.
    My name is Jessica Putnam, P-u-t-n-a-m. And I live in North 
Iowa. And I am employed at North Iowa Area Community College 
through one of the student support services grants from the 
Federal Government, one of the TRIO programs.
    And to kind of mirror one of the comments from Dr. McNabb, 
TRIO services students nationwide, but sometimes it is thought 
of as an urban program.
    But we have 80 percent of the students that attend NIACC 
that are eligible by way of either being low income, first 
generation, or having a disability that could be certified in 
this program.
    So it exists here also. And we appreciate that it is here. 
The services--The intensity of the services that we're allowed 
to provide, I am convinced, really make a difference for the 
students that we serve. That the tutoring, the one-on-one 
counseling, study skills, opportunities to learn how to 
negotiate their educational travel through the systems and on 
to transfer once they discover they have the potential to do 
that, I think are remarkable and are something we'd like to be 
able to expand beyond the 6 percent that are served by these 
programs at this time in the Nation.
    And I appreciate that you've included them in the Leave No 
Children Behind legislation.
    And that through my experience, it is my feeling that a lot 
of these people would not find their way without this type of 
support.
    Thank you.
    Senator Harkin. TRIO programs are very important.
    Ms. Putnam. I believe so.
    Senator Harkin. Very important programs. Talent Search, 
Upward Bound. Student Support Services and so on.
    Support services.
    Ms. Putnam. It started out as three, thus the TRIO. But it 
is beyond three programs at this time.
    Senator Harkin. You know, I do not know how many students 
we serve in Iowa with the TRIO program, but it is substantial. 
I do not know.
    Dr. Buettner. At our college we have a program that allows 
us to serve 200 students.
    The data on those students is phenomenal. They're in the 
program because--they meet certain criteria that suggests they 
might be at risk to not persist.
    And the completion data is just astounding.
    The ability to go in there and pay special attention to 
those people and give them support, absolutely works.
    Senator Harkin. Yeah. Fantastic.
    In the back here.
STATEMENT OF LES PERSON
    Mr. Person. Senator, my name is Les Person. And just spell 
it the way it sounds.
    Senator Harkin. All right, Les.
    Mr. Person. I do not see very many people here that lived 
in the last depression. I am one of them. I am 80 years old. I 
remember that my dad had trouble on the farm.
    In 5 years I went to five different schools. So you can see 
what was happening to him. He was losing out. So far you do not 
hear that going on now, because farms are bigger. So there are 
not those small farms there anymore.
    But, I think that the main thing is just lack of money. Are 
we in a depression? The way I remember it back then, we were 
having all kinds of troubles then with money. And I think this 
is what we're going into now.
    They are talking about this big money, but I don't think 
you can look that far ahead.
    I think that the first thing that the President has to look 
at and has to forget is all of this money he's going to give 
away to a relatively few people. I think this is where that 
money should go, is into education.
    I am sorry I am not standing up, but I have diabetes, so--
--
    Senator Harkin. That is all right.
    Mr. Person. But I can remember going, as I said, to five 
different schools, high schools. And it was just rough back in 
those days.
    Senator Harkin. Well, I think your point is well-taken, 
heard on a couple of things.
    First of all, regarding whether or not all that money is 
going to be there or not. In 1995, the Congressional Budget 
Office, with all of their computers and all their whizbang 
economists and all the resources they had handed to them 
estimated that in 2000 and--in the year 2000 we would have had 
a $236 billion deficit. That is what they were projected.
    Last year we had an almost $280 billion surplus. So in 5 
years they were only off a half a trillion dollars. I mean, 
think about this.
    You see now, based on that, we are going to be looking at 
10 years. And so we are going to have all this money. And so we 
are going to give all this tax cut right now.
    And the problem is I think we all know too well--someone 
referred to it here in Iowa--you cut that and cut that and then 
when you hit the rough spot in the road, what happens?
    That is why I feel that we have to be very cautious about 
this tax cut. And that if we have surpluses, which we do, we 
had surpluses last year, we are going to have surpluses this 
year, and more than likely we will have some surpluses next 
year.
    It seems to me that the two things that we should do is, as 
you say, begin to invest and to really do what we said 11 years 
ago, make sure that all children start school ready to learn. 
We have said that before, but now we actually have the 
resources in which to start making that happen.
    And second, it seems to me that if you want to give people 
a tax cut, it seems to me maybe we ought to give our kids a tax 
cut.
    Right now every child born in America today--a kid born 
today will pay $750 every year of his or her life until they 
pass away 85 years from now if they live that long. That is the 
interest on the national debt.
    In other words, we're paying this year a little over $220 
billion on interest on the national debt. Now, if we got rid of 
the national debt, that is $220 billion we could use for 
education and a lot of other things.
    So I am just saying that since we have the surplus, it 
seems to me we ought to invest in education and pay off the 
debt.
    Mr. Steckman. Didn't that debt occur during the last tax 
cut?
    Senator Harkin. Say it again now.
    Mr. Steckman. Didn't that debt occur during the last tax 
cut? Didn't that debt occur during the last tax cut?
    Senator Harkin. Oh. That is when the debt went up--in the 
1980s.
    Mr. Steckman. Yeah.
    Senator Harkin. That is when the debt ballooned, in the 
1980s.
    Mr. Steckman. Yeah. Yeah. That we're all suffering on.
    Senator Harkin. It all quadrupled.
    And that is what happened.
    Mr. Steckman. So----
    Senator Harkin. Your point is well-taken about whether or 
not there is actually going to be that money there. We do not 
know. We know we have it this year. we had it last year. So I 
think we ought to make very cautious choices right now.
    Mr. Person. Here in the Midwest there's an old saying that 
as the farmer goes, so goes the rest of the State of Iowa and 
the Midwest. My dad got 10 cents a bushel for corn.
    Do you know what, it is much better off here today now. But 
even then, they're complaining. They're complaining about they 
do not have the money. Consequently, Des Moines is not getting 
the money.
    Senator Harkin. I will take one more comment. I saw a hand 
there. It is so dark back there, I can hardly see. Go ahead. 
This will be it.
STATEMENT OF LORNA DiMARCO
    Ms. DiMarco. My name is Lorna DiMarco. D-i, capital, M-a-r-
c-o. My husband Nick is a teacher here in Clear Lake. I am a 
teacher in Mason City.
    We're both educators. We both returned to college. He was a 
funeral director and I was in home health care before we went 
to school.
    We went to the University of Northern Iowa and left with 
about $30,000 of debt as well. And we have two young boys who 
are in school in Clear Lake.
    I am a nationally certified teacher.
    And my husband's one of those people that have about four 
jobs so that we can continue the lifestyle that we chose to go 
back to school for.
    This morning he raked someone's yard. And today he's 
running lights and sound for you. You know, money's a very 
important thing to keep things operational. Sound business 
requires that we look at budgets.
    When I went into teaching it was to help people learn, to 
really ensure a fine understanding of being a good citizen, the 
importance of understanding a democracy.
    And I teach fifth grade. My husband teaches middle school. 
And I think those things can be instilled at a young age 
regardless of my personal benefit or gain or my school's 
budget.
    But when I look at accountability and I talk about me being 
accountable to my students, my parents that I serve, the 
community that I represent, I need to think about 
accountability in testing as well.
    And when we're looking at what President Bush is proposing 
and the success that his State has--there's some incredible 
statistics out there about how poorly his State is academically 
doing in Texas. And the reading teacher has a very fine 
article, a very excellent summary as far as his qualifications 
for accountability in testing.
    And I have seen curriculums change now. And the focus of 
learning has stepped aside to the focus of test scores. And 
neatly tucked away in the Des Moines Register, this week in the 
Metro Iowa section was an article, a very small article stating 
that Iowa received this top ranking in the nation out of 100 
categories.
    What we're doing is phenomenal in this State. And we should 
encourage other States to recognize that. And to see curriculum 
in Iowa bow down to test scores and bow down to standardized 
testing. And forget about the voc-tech students. And forget 
about the people that are not able to perform academically in a 
testing situation like an ACT or an SAT test.
    We forget that we're here to educate citizens. We forget 
that we're here to educate people to run a democracy. And then 
the budget becomes secondary, in my opinion, and integrity is 
really what comes into play.
    So I please encourage you. Yeah, we need the money. Yeah, I 
wish my husband did not have to work extra jobs. You know, 
becoming a nationally certified teacher was a labor-intensive 
experience for me. All of those things, to me, are part of a 
lifestyle that I have chosen.
    But we really are not serving our communities, our people, 
our students and our children if we forget about why we're here 
and what learning really is all about.
    That is all I have to say.
    And thank you very much.
    Senator Harkin. Thank you. Thank you for that statement.
    Anything else from the panel?
    Any other comments?
    Ms. Franken. I would just like to echo the same thoughts as 
Ms. DiMarco. I have an article here about test obsession which 
I am going to share with you after the session today.
    But it is not even just the testing. It is the obsession 
with it. And then it is the punishments that Mr. Bush is 
following up with after those test results. Who is to say that 
his test is the best test or what the score should be. There 
are so many questions regarding testing.
    Testing does not measure student learning. It should not be 
used as a sledgehammer which gets at kids' attitudes about 
school. It should be used as a diagnostic stethoscope to help 
us know what students can and cannot do so that we can adjust 
the curriculum to meet their needs.
    It is not a sledgehammer.
    Mr. Palmer. Well, the way I see it is it is like teaching a 
kid that, hey, testing's okay when they have got to study that 
night and then get ready for it the next morning. That is what 
Ms. Franken's trying to say.
    Senator Harkin. You just study for the test.
    Mr. Palmer. Right.
    Ms. Franken. And when do you need to teach real curriculum?
    And when do you need to teach creative thinking and problem 
solving and teamwork, the things that Iowa's education is based 
on? If you're continually teaching to what's on the test--
because that is what will happen--we will lose our curriculum. 
Our testing will be running the curriculum instead of the 
curriculum running the testing.
    Senator Harkin. Well said. With that, I am going to--I am 
going--yes.
    Ms. Steckman. I have one sentence to add to what Jolene 
said. I heard this from the Department of Education.
    Sharon Steckman, educator, also in Mason City. To add to 
this. It is kind of an analogy. You cannot fatten the cow by 
weighing it all the time.
    You cannot make a smarter kid by test, test, test, test, 
test. You need to teach. You need to feed the cow and teach the 
kid.
    Ms. Eckhart. It is a bumper sticker.
    Ms. Steckman. It is a bumper sticker.
    Senator Harkin. That is good. I like that. I could use 
that.
    Well, listen, this has been very productive and very 
informative. And it has been a good exchange. I just appreciate 
all of your involvement in education.
    I encourage you to continue to be involved and to let your 
State legislators and your national legislators know how you 
feel.
    Make us accountable. If we say we are for something, make 
us accountable. Do not just buy it, just because I say I do it. 
Look at me and see what we do. And judge us not by what we say 
but by what we do.
    And I think I might say just one last thing here. As a 
fourth-generation Iowan, I went to schools here in Iowa, and 
graduated from Iowa State. I am concerned about the state of 
education in my State of Iowa. I am concerned because we have 
always prided ourselves in Iowa on education.
    We have the best education system. But I think if we really 
looked in the mirror and we are honest about it, we are not the 
best anymore. We can fool ourselves. But what I am thinking is 
we are fooling ourselves.
    And by fooling ourselves, we are in danger of accepting an 
ever lower and lower standard of what is the best. I call it 
the dumbing down process. And that is what really concerns me.
    Well, okay. So maybe we are not there. But we are fine 
where we are. Well, then the next year or two, well, then we go 
down. Well, we are fine there too. And pretty soon, little bit 
by little bit we find that we have really come down a long way 
in education in the State of Iowa. And I sure do not want to 
see that happen.
    I think that both the State--but I also think the Federal 
Government has an obligation. And I think 2 cents on the dollar 
is not the right priority for the Federal Government to be 
involved in education.
    We have had a genius--I think the genius of American 
education has been that it is been diversified, that it has 
local control, local input all over this great expansive 
Nation. That is, in innovation, experimentation, some 
competition.
    It has meant new learning kinds of things that have come up 
all over. And we have not had this top down you have-got-to-do-
it-this-way type of thing.
    I have been in many countries in the world in looking at 
education. And, to me, that has been the real genius of the 
American educational system.
    The failure of the American educational system, I think, is 
that we have not seen that the funding of education should also 
be national in scope and that our country has an obligation. In 
other words, a child who is ill-educated in one State will not 
just be a burden in that State. That child can move around and 
be a burden in another State. So it is a national 
responsibility.
    So I think that we have to reassess our national commitment 
to the underpinings of education in terms of helping with 
resources. You might say that money is not everything. But it 
takes money to fix a leaky roof. It takes money to pay for 
those transportation costs.
    And if we are going to make teaching a good career where 
teachers can look ahead to career development and higher 
salaries, it takes money to do that. And so I think that we 
have got to understand that we want to keep the genius of the 
American system of education. But we have to fix what I think 
is the worst aspect of it. And that is the way it has been 
funded.
    I challenge anyone to show me where it says in the 
Constitution of the United States that elementary and secondary 
education is to be funded by property taxes. You will look in 
vain and you will not find it.
    Now, how did that happen? Well, it happened because in our 
early years when we decided to have a free public education for 
all citizens--actually, it was all white males in the 
beginning--but for all citizens, we did not have income taxes 
or anything else. All we had were tariffs and property taxes. 
So that is sort of the way it built up.
    The first involvement of the Federal Government in 
education was in 1862, the Morrill Act, to set up the land 
grant colleges.
    And for 100 years thereafter the only involvement of the 
Federal Government in education was in higher education: The 
land grant colleges, research, some medical school. Nothing 
down below that until 1965 with the passage of the Elementary 
and Secondary Education Act. And then we began to do things 
like Title I.
    So we have a very short history of the Federal involvement 
in funding of education. And that is why I think that we need 
to really take a hard look at it and get that 2 cents up.
    The Committee on Education Funding, which is a consortium 
of different education groups, has a button that they have been 
passing around Washington. It says, ``Five cents makes sense.'' 
In other words, they are trying to get the Federal share up at 
least 5 cents on the dollar.
    The amendment I offered will not even get it up to 4 cents. 
And they thought that was too much. So, I think we have got a 
long way to go.
    But I just wanted to kind of close on that note, to say 
that we really have to help some of our States out. Because you 
cannot base it on property taxes alone.
    Someone said here earlier--one of the panel said we have an 
aging population in Iowa. We have a lot of elderly people. You 
cannot put the burden just on them because they have a house 
and property.
    And we have to understand that we are all in this pool 
together. And that those who have benefitted the most from our 
society, maybe those are the ones that we ought to ask to give 
back a little bit more for the funding of education.
    So with--one last little thing. I do not know why I just 
thought of this. Someone at the earlier meeting said, well, you 
know, it is not all that necessary for higher education. After 
all, Bill Gates did not finish college. I said, yeah, he may 
not have finished college, but look who he hires.
    The people that make him the richest man in the world today 
are all the brightest students in computer engineering and 
computer science and everything else.
    So he follows the old adage that one of my mentors gave me 
when I was young and starting out my career. He said, ``The 
secret to success is never be afraid to hire people smarter 
than yourself.'' And I have always thought those are good words 
to live by.

                         CONCLUSION OF HEARINGS

    Thank you all very much for being here, that concludes our 
hearing. The subcommittee will stand in recess subject to the 
call of the Chair.
    [Whereupon, at 6 p.m., Saturday, April 21, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
